<html>
<title> - NOMINATION OF PHILLIP BOND TO BE UNDER SECRETARY FOR TECHNOLOGY AT THE DEPARTMENT OF COMMERCE AND JOHN MARBURGER TO BE DIRECTOR OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY</title>
<body><pre>[Senate Hearing 107-1055]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1055

                NOMINATION OF PHILLIP BOND TO BE UNDER 
                    SECRETARY FOR TECHNOLOGY AT THE 
                    DEPARTMENT OF COMMERCE AND JOHN 
                MARBURGER TO BE DIRECTOR OF THE OFFICE 
                    OF SCIENCE AND TECHNOLOGY POLICY

=======================================================================

                                HEARING

                               before the

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




89-445              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 9, 2001..................................     1
Statement of Senator Allen.......................................     6
Statement of Senator Brownback...................................     3
Statement of Senator McCain, Prepared statement..................    38
Statement of Senator Nelson......................................     4
Statement of Senator Wyden.......................................     1

                               Witnesses

Boehlert, Hon. Sherwood, U.S. Representative from New York.......     7
Bond, Phillip J., Nominee to be Under Secretary for the 
  Technology Administration, U.S. Department of Commerce.........    28
    Prepared statement...........................................    29
Grucci, Felix, Jr., U.S. Representative from New York............     8
    Prepared statement...........................................     9
Marburger III, John H., Nominee to be Director of the Office of 
  Science and Technology Policy..................................    10
    Prepared statement...........................................    12

                                Appendix

McCain, Hon. John, U.S. Senator from Arizona, prepared statement.    59
Murray, Patty, U.S. Senator from Washington State, prepared 
  statement......................................................    59
Response to written questions submitted by Hon. Bill Nelson to:
    Phillip Bond.................................................    60
    John H. Marburger III........................................    67
Response to written questions submitted by Hon. John McCain to:
    John H. Marburger III........................................    61
    Phillip Bond.................................................    68
Response to written questions submitted by Hon. Fritz Hollings to 
  John H. Marburger III..........................................    68
Letter:..........................................................
    To Hon. Ron Wyden from Charles Schumer.......................    73
    To Hon. Ernest F. Hollings from the Science Coalition........    75
    From the Association of American Universities................    80

 
                       NOMINATION OF PHILLIP BOND
                  TO BE UNDER SECRETARY FOR TECHNOLOGY
                   AT THE DEPARTMENT OF COMMERCE AND
                     JOHN MARBURGER TO BE DIRECTOR
                      OF THE OFFICE OF SCIENCE AND
                           TECHNOLOGY POLICY

                              ----------                              


                        TUESDAY, OCTOBER 9, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Committee will come to order. Today the 
Committee considers the nomination of Dr. John Marburger for 
Director of the Office of Science and Technology Policy and to 
serve as the President's Science Advisor, and the nomination of 
Mr. Phillip Bond to be the Under Secretary of Commerce for 
Technology. We will give these two distinguished individuals a 
more formal introduction in just a few moments, and we are also 
pleased to have a number of our colleagues from the House, 
particularly my old friend Chairman Sherwood Boehlert here with 
us today, and Sherry, we are very pleased that you are here as 
well.
    Since the attacks of September 11, the role of science and 
technology has become even more important than ever before. 
Just yesterday, some news organizations were reporting that 
anthrax from American labs was sent to Iraq in the 1980's as 
part of a scientific effort. While the report did not mention 
Government involvement in this effort, the inherent risk of 
such action is unmistakable.
    I am of the view that it is important that intellectual 
security be seen as an integral part of any national security 
approach. Given the possibilities for the misuse of science, I 
also see tremendous potential in harnessing science and 
technology in a protective effort, from developing the 
technology to direct airplanes from a control tower instead of 
a cockpit, to using science to quickly develop antidotes and 
vaccines to potential bioterrorism agents, taxpayer money can 
be smartly invested in advances that ultimately reward and 
benefit the safety and peace of mind of all Americans. We 
intend to look very closely at what happened on September 11 
with a mind toward making sure the preventive steps are in 
place so as to do everything possible to eliminate the prospect 
of such tragedies again, and also to take those steps to try to 
repair and recreate a damaged technology infrastructure.
    I proposed in recent days what I have called the technology 
equivalent of the National Guard, made up of the brains and 
talent in this country's leading technology companies, that 
have indicated to me and other Members of Congress that they 
would be happy on essentially a volunteer basis to step in and 
try to both prevent such tragedies and to repair and recreate 
damaged communication systems.
    Suffice it to say that while these companies made Herculean 
efforts after September 11 to help, sending people and 
equipment and resources to New York City, it is now quite clear 
that there are many significant gaps in the way these matters 
are handled.
    For example, yesterday, in meetings that I held at home in 
Portland, Oregon, I was advised by many of the leaders in our 
technology companies that they and others had tried to donate 
people and equipment in New York City to try to respond to the 
problems, and New York City just was not set up to handle it. 
They were not in a position to try to use those resources.
    I came away with a feeling that if nothing else was done in 
this country but to set up a clearinghouse where you could 
readily get the information about the brains and the equipment 
and the companies and the people who could assist in the event 
of such tragedies, that that alone would be a very valuable 
contribution.
    This Subcommittee intends to hold hearings on the situation 
in New York City in terms of the response on the technology 
side very soon, perhaps as soon as next week, and we are 
looking forward to exploring a variety of the proposals that 
have been made with respect to both the private and the public 
sector.
    While we work to coordinate with the private sector to 
respond to threats, coordination in the public sector is also 
required to prevent terrorist threats from becoming a reality. 
The General Accounting Office recently released a troubling new 
report entitled, ``Combatting Terrorism''. One of the sections 
of the General Accounting Office report dealt with a lack of 
coordination among science agencies in conducting 
counterterrorism research. For example, it found that the Coast 
Guard was conducting research on detection of chemical attacks 
on cruise ships, and was unaware of similar research being 
conducted by the Defense Department.
    The General Accounting Office recommended development of a 
strategic plan for research and development on the counterterr-
orism front that would prevent duplication and leverage our 
resources, and so we intend to ask you, Dr. Marburger, about 
how you would participate in the development and execution of 
such a plan. Obviously, to put such a plan together, it will 
have to be closely coordinated with new Office of Homeland 
Security.
    I am very pleased that Governor Ridge is going to head up 
that office. Sherry Boehlert, Tom Ridge and I teamed up quite 
often over the years on these kinds of issues involving science 
and technology policy, and I think he is going to do a superb 
job in that position, but one of the keys to his success will 
be to coordinate the 40 or so agencies involved in 
antiterrorist activity, and one of the things we intend on this 
Subcommittee to look at is the possibility of convening a 
meeting among the technology officers of the pertinent 
intelligence divisions, Tom Ridge's Office of Homeland Security 
and congressional leaders to look at ways for technology to 
assist in coordinating and sharing intelligence in a safe and 
secure way, and determine how the Congress can be most helpful 
to the administration in achieving that outcome.
    Finally, one last area that I have had a special interest 
in over the years is to ensure that science policy and science 
and technology issues are addressed so as to promote sound 
science, real science as apart from junk science, and one of 
the things that we intend to do is to try to look and see 
whether it may be possible to define a set of core principles 
that would be used to try to best identify what constitutes 
sound science. I have begun such discussions already.
    There are obviously some ideas that already come to mind, 
such as ensuring, for example, that there is thorough peer 
review of scientific judgments. Dr. Marburger, I intend to 
explore with you, as well, some of your ideas about how, at a 
time when science is more important than ever before, we can 
see if we can come up with some principles that will help to 
guide us and keep us away from junk science that is dictated 
perhaps more by parochial or boardroom decisions than real 
scientific merit. I will have some questions for you this 
afternoon about that as well.
    We are anxious to hear from our colleagues in the House, 
but first I am very pleased that Senator Brownback is here. He 
has had a great interest in these issues over the years as 
well, and we would be happy to hear from you.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. Thank you for 
holding the hearing. I appreciate the comments, and appreciate 
that you are doing this and putting this hearing in front of 
the rest of the Senate. We are considering two of the 
President's nominations, and very important I consider science 
and technology positions, Phillip Bond to be Under Secretary of 
Commerce for Technology, and John Marburger to be Director of 
the Office of Science and Technology Policy.
    Both Mr. Bond and Mr. Marburger are clearly qualified to 
fulfill the responsibilities of these positions, and I look 
forward to getting them into office just as soon as possible. 
Certainly, with everything that has transpired since September 
11, I think it is safe to say that the importance of these 
positions will be underscored as Congress seeks to address 
matters of an urgent nature and square away the budget.
    Working in conjunction with the Federal Communications 
Commission and the National Telecommunications and Information 
Administration, both of these positions will play an important 
role in certain areas where Congress is perhaps not as disposed 
to act, for obvious reasons, and I say that in reference to the 
telecommunications industry we have had some difficulties in 
deploying certain technologies in telcom. Deployment of 
broadband infrastructure seems to be slowing. This, in turn, is 
having a drastic impact on other parts of the technology 
sector. It is bad for consumers, and it is bad for the economy, 
and we are going to need to right that ship, and you are going 
to be in positions to help influence that policy creation and 
implementation. In my view, the state of the industry today 
indicates that the creation of a national broadband policy is 
important and long overdue.
    As we in Congress continue to address the budget, and the 
immediate priorities associated with the war on terrorism, I 
urge you gentlemen to engage your colleagues in Government and 
to seek to create a broader national dialog on spurring 
technology, technology development--particularly the broadband 
deployment that I think can be a very important part of our 
technology growth and our communication--and our infrastructure 
for security in this country.
    Sometimes simple discussion can be as productive as 
rulemaking authority. I urge both of you to be involved in that 
task. I welcome both of you. I do not anticipate there will be 
any problem in getting you cleared on through and into these 
positions. It is important that you get there and you get there 
soon to engage the battle front, and I welcome you here.
    Thank you, Mr. Chairman, for holding the hearing.
    Senator Wyden. Thank you, Senator Brownback.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you. I just want to say 
to my old friend Sherry Boehlert that I am delighted to see 
him, and you have got such an important position now in the 
House as Chairman of the Science Committee. I am glad you are 
here on behalf of these gentlemen, and just by way of 
introduction I would say that OSTP is one of the most important 
appointments in the Federal Government.
    For example, one thing that you would have some influence 
over is the conundrum that is now faced by NASA, where the 
Chairman has a hearing on this in all of the cost overruns on 
the space station, the starvation diet that NASA is being put 
on, actually delaying or canceling the safety upgrades for the 
space shuttle, and his hearing on this was the first week of 
September. Well, now after September 11, we do not have a 
choice, because we have to have assured access to space, and 
your risk factor for catastrophic failure on something like the 
Titan is 1 in 20.
    I do not have to tell you what happens if a Titan pad was 
knocked out. Your only assured access to space then would be 
the shuttle, until they could get the EELV's, but none of them 
have been flown, so the assured access to space now takes a 
whole new importance, and a dimension, and OSTP is clearly in a 
position to influence that.
    Now, I have spoken directly with Chairman Boehlert and my 
old friend, now the Vice President, about this, but he needs, 
and others in the administration--and this is just one thing we 
are talking about, Mr. Bond. In the area of space 
commercialization, you know, there was at one point this rush 
to say that people were going to put platforms at sea, right on 
the equator, and we were going to launch so we did not have to 
pay the fuel penalty.
    Well now, look at the vulnerability of those platforms to 
terrorist activity, when you have to have assured access to 
space with regard to commercial ventures, which now become so 
important to us from the standpoint of national and 
international security. So there again, you have a very 
important position with regard to making sure that all of this 
commercial activity of getting to space does not leave the 
United States.
    So thank you, Mr. Chairman, for letting me join in and 
giving my 2 cents, and to say also hello to Chairman Boehlert.
    Senator Wyden. Thank you, Senator Nelson, and obviously we 
are very pleased you are on this Subcommittee as a passionate 
advocate for these space issues, and you raise the critical 
concerns for the Office of Science and Technology Policy.
    We have a plethora of people who want to introduce our two 
distinguished nominees. We could probably chew up the afternoon 
with just the introductions. I am going to offer a brief 
introduction and then turn it over to Senator Allen, who, like 
myself, has a special relationship with Phil Bond, and then we 
are going to turn it over to our colleagues from the House as 
well.
    Dr. John Marburger is the nominee for the Office of Science 
and Technology Policy and the President's Science Advisor. He 
is joined today by his wife, Carol, his sister, Mary Hoffman, 
and her husband, Robert, their sons Robert and Daniel, as well 
as other friends and colleagues.
    Dr. Marburger, maybe we could persuade your family to stand 
and let us recognize them at this time.
    [Applause.]
    Senator Wyden. Welcome, and we are very pleased that you 
are with us here today. Dr. Marburger is a physicist by 
training and has had a long and distinguished career in 
science, most recently as Director of the Department of 
Energy's Brookhaven National Laboratory. Dr. Marburger came and 
met with me early on, and we expect him to play a major role in 
the Office of Science and Technology Policy with the 
President's Council of Advisors on Science and Technology, 
known as PCAST, and with the council's president, Floyd Kvamme, 
who I respect very much, and so we welcome you as well.
    We also have Mr. Phillip Bond, who is nominated to be the 
Under Secretary of Commerce for Technology. He is joined today 
by his wife, Dianne, and his daughters Jacqueline and Jessica, 
and hopefully we can get the Bond delegation to stand.
    [Applause.]
    Senator Wyden. Welcome, and Mr. Bond is a distinguished 
graduate of Linfield College, in my home State of Oregon. 
Northwest members of the congressional delegation I think have 
been tripping over themselves to introduce Phil Bond. Senator 
Murray wanted very much to be here as well. We are going to 
make her statement of support a part of the hearing record in 
its entirety, and we expect Phil Bond to play a major role on 
technology questions, be it Internet taxes, some of the issues 
we are going to be looking at with respect to responding to 
what happened in New York City, and we sort of consider Phil 
Bond an honorary Oregonian, and we are very glad you are here.
    My friend and colleague George Allen also goes way back 
with Mr. Bond. Before we turn to House Members, I want to 
recognize Senator Allen for his comments.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you for 
having this very important nominations hearing today. The 
Department of Commerce, technology and particularly the 
administration thereof, is obviously very important for our 
scientific and technological advancements, and that analysis is 
vitally needed in our Federal Government, not just for the 
Government but for our economy, and we have two very highly 
qualified individuals, capable individuals today, seeking our 
confirmation, which I am sure they will receive, and I do want 
to welcome Dr. Marburger. Thank you for coming, and your 
willingness to serve. I also want to spend a bit of my time to 
introduce Mr. Bond.
    Phil Bond is the President's nominee for the post of Under 
Secretary of Commerce for Technology. I know Secretary Evans is 
very interested in our competitiveness as a country, and I find 
technology--and I know the Chairman shares my view--I find 
technology to be a key for success as a Nation, and Phil Bond 
has the capabilities, the background, and experience to give 
good advice to the White House as well as to us in the House 
and the Senate.
    I will say that he is very qualified. You say he started in 
California. I started in California as well. That is where I 
was dropped, and then we moved around the country, but never 
through Oregon. I was educated, my higher education was in 
Virginia, but Phil Bond also for the last 15 years has resided 
in the Commonwealth of Virginia with his wonderful wife Dianne, 
and I suspect that Jacqueline and Jessica were born in 
Virginia, is that correct?
    Mr. Bond. That is correct.
    Senator Allen. Good.
    [Laughter.]
    Senator Allen. Mr. Bond served several times on Capitol 
Hill, serving as chief of staff for both Congresswoman Jennifer 
Dunn of Washington, and Congressman Rob McKuen of Oregon. He 
served also in the Department of Defense in the Reagan 
administration and in the first Bush administration. In the 
latter case, Mr. Bond served as a Principal Deputy Assistant 
Secretary of Defense for Legislative Affairs with then-
Secretary Dick Cheney.
    Phil's work in the public sector is well-known, also the 
private sector, having worked for Hewlett-Packard, the 
Information Technology Industry Council, which represents all 
of the leaders in the technology community, and that is 
important, and makes him an ideal choice to be the President's 
principal voice on domestic and international technology 
issues.
    He will also oversee the Office of Technology Policy, the 
National Institute of Standards and Technology, otherwise 
referred to as NIST, the National Technical Information 
Service, and the Office of Space Commercialization, which I 
know our colleague Senator Nelson of Florida has a great deal 
of knowledge and interest in.
    This position, Phil, as you well know, is going to take 
extensive coordination between the Government or public sector, 
as well as the private sector. I know that you will bring your 
many years of private experience, your knowledge beyond your 
years, because you are still young, but nevertheless you have 
that energy, you have that knowledge, you have the experience, 
and thank you for coming back to service for your country and, 
indeed, for our economy and our quality of life in this 
country.
    So Mr. Chairman, it is my great pleasure to present Mr. 
Phil Bond to this Committee for favorable consideration, and I 
thank Mr. Bond for his service.
    Senator Wyden. Thank you, Senator Allen. I very much 
appreciate all of your interest and involvement. You made it 
clear with respect to aviation technology that there are a 
number of areas where this Subcommittee could team up with the 
administration, and we are going to do that, and we appreciate 
that.
    All right, let us wrap up our introductions by having the 
distinguished chairman of the Science Committee, Mr. Boehlert 
and Mr. Grucci, make their comments.

             STATEMENT OF HON. SHERWOOD BOEHLERT, 
               U.S. REPRESENTATIVE FROM NEW YORK

    Mr. Boehlert. Thank you very much, Mr. Chairman. It is a 
pleasure to appear before the Committee and three valued 
friends regarding the nomination of Dr. John Marburger as 
Director of the Office of Science and Technology Policy. As a 
New Yorker and as chairman of the Science Committee, I can 
attest to Dr. Marburger's outstanding qualifications for this 
very important post, that I think it is evident to all who have 
examined those qualifications that he deserves prompt 
confirmation by the Senate.
    I have had the opportunity to spend a fair amount of time 
in New York since the President announced his intention to 
nominate Dr. Marburger as Science Advisor, and I can tell you 
this, no one can spend any amount of time with him without 
walking away just very favorably impressed. He is thoughtful, 
he is articulate, he is straightforward, traits that are all 
too rare around this town. He is an excellent manager, someone 
who inspires confidence, someone who is a natural leader, 
someone who is able to rally people around him while still 
being self-deprecating. These, too, are rare abilities, and 
ones that frankly he will need to work very hard with the turf-
conscious R&D agencies and the Office of Management and Budget.
    Dr. Marburger has an exemplary career as a scientist and an 
educator. He holds a B.A. in physics from Princeton, and a Ph.D 
in applied physics from Stanford University, where he developed 
an expertise in nonlinear optics. His teaching activities 
included Frontiers of Electronics, a series of educational 
programs broadcast Nation-wide by CBS.
    In 1980, he assumed the presidency of SUNY Stony Brook. 
During his 14-year tenure the university opened University 
Hospital, established a national reputation for work in the 
biological sciences, and increased its Federal research 
portfolio until it exceeded that of any other public university 
in the Northeast. Recognizing the importance of technology 
transfer, he also established the Long Island technology 
incubator.
    In 1997, Dr. Marburger became president of Brookhaven 
Science Associates, a partnership between SUNY Stony Brook and 
Batelle, which was awarded the contract to manage Brookhaven 
Laboratory for the Department of Energy. Brookhaven continues 
to thrive under his leadership, and is doing important work in 
particle physics imaging and neuroscience and genomics.
    I would also note that the lab has been recommended for an 
ISO 14001, the international standard of excellence for 
environmental management, something that is near and dear to my 
heart. Dr. Marburger must draw upon all of these experiences in 
order to meet the challenges that will face the Science Advisor 
over the next several months and years.
    What must we do to better integrate research and education 
so that our children remain international leaders in math and 
science? How do we ensure that policy decisions regarding 
health and safety and energy and the environment, are based 
upon, Mr. Chairman, as you pointed out, on good science and not 
junk science?
    Finally, in the wake of the terrorist attacks waged against 
this country on September 11, how do we marshall our public and 
private research resources in service of the effort to protect 
our citizens and prosecute the war against terrorism?
    These questions are not easy to answer. They require a 
lasting commitment, and are demonstrably not amenable to short-
term solutions. They will require careful thought and a steely 
resolve to persevere when public attention shifts, as, in time, 
it will, to other seemingly more pressing problems.
    I am confident Dr. Marburger is up to this challenge, that 
he will work to build consensus around these and other 
difficult matters. It is my pleasure to present Dr. Marburger 
for nomination to this Committee with the hope and expectation 
that there will be prompt approval and confirmation by the 
Senate.
    Thank you.
    Senator Wyden. Sherry, thank you for an excellent 
presentation, and Dr. Marburger is lucky to have a passionate 
advocate like you, and we will continue, as you know, to work 
closely with you.
    Congressman Grucci.

                STATEMENT OF FELIX GRUCCI, JR., 
               U.S. REPRESENTATIVE FROM NEW YORK

    Mr. Grucci. Thank you, Mr. Chairman. I am proud to see Dr. 
John Marburger, Director of the Brookhaven National Laboratory, 
in my congressional district, as President Bush's nominee as 
Director of the Office of Science and Technology Policy, the 
Nation's highest-ranking science position. Dr. Marburger will 
be a tremendous asset to the Bush White House and to the 
Nation. He brings sterling credentials, firmly grounded in some 
of our Nation's finest educational and scientific facilities.
    After a distinguished career as the President of State 
University of New York at Stony Brook from 1980 to 1994, Dr. 
Marburger 
became Director of Brookhaven National Laboratory in March 
1998. I have had the distinct pleasure to work closely with Dr. 
Marburger in my former position as supervisor of the town of 
Brookhaven, a town of 450,000 people, and he has proven to be 
the utmost professional and good friend. I look forward to 
working with him in his new position at the White House Office 
of Science and Technology Policy.
    Dr. Marburger has overseen an era of exciting scientific 
advances at Brookhaven National Laboratory, as well as playing 
a significant role in the environmental restoration at the 
laboratory.
    Dr. Marburger is a great communicator of science. Using his 
skills as an educator, Dr. Marburger has restored the 
community's trust in the Brookhaven National Laboratory by 
affirming their faith in the Federal Government scientific 
programs, and by showing them how it helps them, their 
families, and their children.
    Dr. Marburger is exactly the type of person we need at the 
White House as the White House Science Advisor. A gifted 
scientist, a highly regarded educator, and a concerned citizen, 
he will bring new ideas to get the job done. Science research 
and discovery know no boundaries or political affiliations, and 
I say these words not as a Congressman who represents the 
district and represented the Marburger family, but someone who 
has known Dr. Marburger now for the better part of 20 years.
    Working with him when he was the president of Stony Brook 
University, I watched as he laid the foundation for that 
learning institution to become one of the country's more 
predominant and more premier learning facilities. It has now 
garnered some of the attentions of some of the highest 
educators from around the country.
    I watched as he took the Brookhaven National Laboratory 
during some turbulent times, when there was some real concern 
about things happening at the laboratory that might have grave 
environmental concerns to the community, and impacts to our 
drinking water. I saw Dr. Marburger take the helm of that 
facility and turn around the fears of the community, restore 
that facility back to its greatness, and march forward to where 
it is today, as one of the leading laboratories in the country, 
when at a time it could have fallen apart and become something 
less than what it is today.
    I can think of no greater person, no man of moral 
character, no one of a higher education, no one more committed 
to not only the sciences but to this great country, than to ask 
you to seriously consider the name of Dr. John Marburger for 
this position.
    Thank you.
    [The prepared statement of Mr. Grucci follows:]

     Prepared Statement of Hon. Felix Grucci, U.S. Representative 
                             from New York

    I am proud to see Dr. John Marburger, Director of Brookhaven 
National Laboratory in my Congressional District, as President Bush's 
nominee as Director of the Office of Science and Technology Policy--the 
nation's highest ranking science position.
    Dr. Marburger will be a tremendous asset to the Bush White House 
and the nation. He brings sterling credentials firmly based in some of 
our nation's finest educational and scientific facilities.
    After a distinguished career as the President of State University 
of New York at Stony Brook from 1980-1994, Dr. Marburger became 
Director of Brookhaven National Laboratory in March 1998. I have had 
the distinct pleasure to work closely with John Marburger in my former 
position in Brookhaven, NY and he has proven to be the utmost 
professional and good friend. I look forward to working with him in his 
new position at the White House Office of Science and Technology 
Policy.
    Dr. Marburger has overseen an era of exciting scientific advances 
at BNL, as well as playing a significant role in the environmental 
restoration at the Laboratory.
    Dr. Marburger is a great communicator of science. Using his skills 
as an educator, Dr. Marburger has restored the community's trust in the 
Brookhaven National Laboratory by firming their faith in the Federal 
Government's science programs and by showing them how it helped them, 
their families, and their children.
    Dr. Marburger is exactly the type of person we need as the White 
House's Science Advisor: a gifted scientist, a highly regarded 
educator, and a concerned citizen, he will bring new ideas to get the 
job done. Science, research, and discovery know no boundaries or 
political affiliations.

    Senator Wyden. Congressman, thank you for your 
presentation. You go way back with Dr. Marburger. Thank you for 
your presentation, Chairman Boehlert. For you and your 
colleague I do not think we have any questions. We thank you 
both for your excellent presentation and for coming over this 
afternoon. We will be working with you.
    Gentlemen, I think we are at the point where you finally 
get to say your piece, and I am sure you are anxious to do it. 
We will begin with you, Dr. Marburger, and my inclination is 
that we will have Dr. Marburger first, and then Mr. Bond next, 
and then we will start in with questions for both of them after 
the presentations.
    Dr. Marburger.

        STATEMENT OF JOHN MARBURGER III, NOMINEE TO BE 
    DIRECTOR OF THE OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you, Mr. Chairman. I have a short 
written statement I would like to make. It is an honor for me 
to appear before this Committee as President Bush's nominee for 
the Director of the Office of Science and Technology Policy.
    I approach this opportunity and the profound 
responsibilities it carries with a mixture of humility and 
pride, humility in view of the distinguished scientists who 
have gone before me, and pride in this Nation's unmatched 
scientific establishment. Science and technology have long 
provided us with increased security, better health, and greater 
economic opportunity, and will continue to do so for many 
generations to come.
    At this point, I would like to congratulate Mr. Bond on the 
success of the Department of Commerce. They have recently been 
informed that they own two-thirds of the Nobel prize in physics 
that was announced this morning, just a tremendous advance in 
applied physics, for which this country ought to take great 
pride. All three recipients of the prize were working in 
America at the time.
    I believe my professional career over the past three 
decades as a professor of physics and electrical engineering, 
as a university dean and president, and as the director of the 
Department of Energy's Brookhaven National Laboratory, has 
provided me with the knowledge and experience to meet the needs 
and expectations of this office. Should I be confirmed, I look 
forward to a close and productive relationship with Congress 
and particularly with this Committee, which has long provided 
bipartisan and enduring support of our world leading science 
and engineering enterprise.
    The counsel and support of Members of Congress is essential 
for continued U.S. leadership in science and the science-based 
technology. We must make important choices together, because we 
have neither unlimited resources nor monopoly of the world's 
scientific talent. While I believe we should seek to excel in 
all scientific disciplines, we must still choose among the 
multitudes of possible research programs. We must decide which 
ones to launch, encourage and enhance, and which ones to 
modify, reevaluate, or redirect in keeping with our national 
needs and capabilities.
    Today, the most pressing of these needs is an adequate and 
coordinated response to the vicious and destructive terrorist 
attacks of September 11, a response in which science and 
technology are already playing an important role. America's 
scientific and technical communities have signaled their 
commitment to this urgent national need, and now coordination 
and evaluations of programs that are being proposed are 
increasingly important to realize their full potential.
    The struggle against terrorism has many fronts, and science 
and technology pervade them all, from instruments of 
surveillance that are consistent with our Nation's love of 
individual freedom, to basic advances in science that feed 
technologies important for long-term economic strength, and the 
international collaborations that awaken in other cultures the 
spirit of objectivity and the quest for truth. The security of 
our Nation depends upon management of our scientific and 
technical resources. It is our joint responsibility to ensure 
that our science and technology portfolio is responsive to 
Presidential and congressional intent, that our cross-cutting 
programs are well-coordinated, and that our research and 
development funds are efficiently used.
    Since its inception, the Office of Science and Technology 
Policy has played an important national role not only in 
enhancing the connections between fundamental research and 
their overarching national goals, but also in sustaining and 
nurturing America's unmatched scientific enterprise. If I am 
confirmed as the President's Science Advisor, I will seek the 
counsel and wisdom of the best minds in the science and 
engineering communities in both the public and private sectors, 
and provide the most knowledgeable advice to the President for 
his deliberations and decisions.
    I also would hope to organize the office in a way that 
builds upon the impressive progress made by my distinguished 
predecessors. As part of the Executive Office of the President, 
OSTP has the unique position and perspective that enables it to 
assess the vast sweep of scientific endeavors of our various 
Federal agencies and Departments.
    The complexity of this activity, the diversity of its 
impacts, and the intensity of its many advocates, mask an 
underlying machinery of the scientific enterprise whose parts 
must work in balance to effect the smooth functioning of the 
whole. Our joint responsibility is to identify the crucial 
parts, evaluate their effectiveness, and ensure their 
continuing strength through all the mechanisms available to 
National Government.
    The roots of this governmental role go deep in science. 
More than any other Nation, we have used science and 
technology, and science to drive technology wisely to create 
peace, advance democracy, and provide for the well-being of our 
citizens. I know these are also President Bush's goals as he 
seeks to support and encourage diverse scientific research and 
development in our Nation's universities, national 
laboratories, and industries, and I look forward, with your 
help, to achieving these goals.
    The written version of my statement contains more details 
about specific science and technology areas of current 
importance, and I will be pleased to answer any questions that 
you may have.
    [The prepared statement of Dr. Marburger follows:]

Prepared Statement of Dr. John H. Marburger III, Nominee to be Director 
             of the Office of Science and Technology Policy

    It is a great honor and privilege to come before you as President 
Bush's nominee for Director of the Office of Science and Technology 
Policy within the Executive Office of the President.
    I approach this opportunity and profound responsibility with a 
mixture of humility and immense pride--humility in the wake of the 
distinguished American scientists who have gone before me, pride in 
this nation's unmatched scientific establishment. Science and 
technology have long provided us with increased security, better 
health, and greater economic opportunity and will continue to do so for 
many generations to come.
    I believe my professional career over the last three decades--as a 
Professor of physics and electrical engineering, as a university Dean 
and President, and as the Director of the Department of Energy's 
Brookhaven National Laboratory--has provided me with the knowledge and 
experience to meet the needs and expectations of this office.
    Should I be confirmed, I look forward to a close and productive 
relationship with the Congress and particularly with this Committee, 
which has long provided bipartisan and enduring support of our world-
leading science and engineering enterprise. The counsel and support of 
Members of Congress is an essential element of continued U.S. 
leadership across the frontiers of scientific knowledge.
    We must make important choices together because we have neither 
unlimited resources, nor a monopoly of the world's scientific talent. 
While I believe we should seek to excel in all scientific disciplines, 
we must still choose among the multitudes of possible research--
programs. We must decide which ones to launch, encourage, and enhance 
and which ones to modify, reevaluate, or redirect in keeping with our 
national needs and capabilities.
    Today the most pressing of these needs is an adequate and 
coordinated response to the vicious and destructive terrorist attacks 
on September 11, a response in which science and technology are already 
playing an important role. The scientific and technical communities 
have signaled their commitment to this urgent national need, and 
functions of coordination and evaluation of proposed programs are 
increasingly important to realize their full potential.
    The struggle against terrorism has many fronts, and science and 
technology pervade them all. From instruments of surveillance that are 
consistent with our nation's love of individual freedom, to basic 
advances in science that feed technologies important for long term 
economic strength, and the international collaborations that awaken in 
other cultures the spirit of objectivity and the quest for truth, the 
security of our Nation depends upon thoughtful management of our 
scientific and technical resources.
    It is our joint responsibility to ensure that our science and 
technology portfolio is responsive to Presidential and Congressional 
intent, that our cross-cutting programs are well-coordinated, and that 
our research and development (R&D) funds are efficiently used.
    Since its inception, the Office of Science and Technology Policy 
(OSTP) has played an important national role not only in enhancing the 
connections between fundamental research and our overarching national 
goals, but also in sustaining and nurturing America's unmatched 
scientific enterprise.
    If confirmed as the President's science advisor, I will seek the 
counsel and wisdom of the best minds in the science and engineering 
community in both the public and private sectors and provide the most 
knowledgeable advice directly to the President for his deliberations 
and decisions. I also would hope to organize the office in a way that 
builds upon the impressive progress made by my distinguished 
predecessors.
    As part of the Executive Office of the President, OSTP has a unique 
position and perspective that enables us to assess the vast sweep of 
scientific endeavors of our various Federal agencies and departments. 
The complexity of this activity, the diversity of its impacts, and the 
intensity of its many advocates mask an underlying machinery of the 
scientific enterprise whose parts must work in balance to effect the 
smooth functioning of the whole. Our joint responsibility is to 
identify the crucial parts, evaluate their effectiveness, and ensure 
their continuing strength through all the mechanisms available to 
national government.
    The roots of this governmental role in science go deep. More than 
any other nation, we have used science and technology wisely to create 
peace, advance democracy, and provide for the well being of our 
citizens. I know these are also President Bush's goals as he seeks to 
support and encourage diverse scientific research and development in 
our nation's universities, national laboratories, and industries.
    Economists tell us that fully half of our economic growth'in the 
last half-century has come from technological innovation and the 
science that supported it. It is no accident that our country's most 
productive and competitive industries are those that benefited from 
sustained Federal investments in R&D--computers and communications, 
semiconductors, biotechnology, aerospace, environmental technologies, 
energy efficiency.
    The Federal role is crucial. Economists estimate that rates of 
return on private sector R&D spending average about 30 percent. But 
societal rates of return on public R&D investments--the economic 
benefits that accrue to our entire society--are twice as large. As much 
as half the return on a particular firm's R&D investment goes to other 
companies and competitors--not to the investing company. This 
``spillover'' effect means that private industry cannot and will not 
commit the level of resources to R&D that is best for society.
    From satellites to software to superconductivity, the Federal 
Government has supported--and must continue to support--exploratory 
research, experimentation, and innovation that would be impossible for 
individual companies or even whole industries to afford. These 
partnerships in pursuit of innovation enable the private sector to 
generate new knowledge and develop novel technologies that ultimately 
lead to commercial success, increased jobs, and healthier and more 
productive lives for all Americans.
    Balance in this broad research portfolio recognizes that advances 
in one field, such as medicine, are often dependent on gains in other 
disciplines. Diversified investments across the full spectrum maximize 
our returns, both financial and technical.
    Medical diagnosis, treatment and research are continuously 
transformed by new methods and insights derived from fields as 
seemingly disconnected from health as physics, chemistry, engineering, 
computing, and mathematics. In the years ahead, networked 
supercomputers, linked with the life sciences, that operate at speeds 
of over one thousand trillion operations per second will have 
implications as profound as the industrial revolution's spread of 
technology.
    Two immense forces have emerged in recent decades to transform the 
way all science is performed, just as they have altered the conditions 
of our daily lives: access to powerful computing, and the technology of 
instrumentation which provides inexpensive means of sensing and 
analyzing our environment. These have opened entirely new horizons in 
every field of science from particle physics to medicine. 
Nanotechnology, for example--the ability to manipulate matter at the 
atomic and molecular level--and molecular medicine--the ability to 
tailor life essential substances atom by atom--both owe their 
capabilities to advances in computing and instrumentation.
    These forces are influencing ourapproach to each of the grand 
challenges we face in the national missions of security, environmental 
protection, healthcare, and education:
    National Security. Many factors have changed the face of war over 
the past decade. And our expectations about terrorist attacks on U.S. 
soil have been dramatically altered since September 11. Science and 
technology can help the country through innovations in detection 
technology, newly developed vaccines, and advances in weaponry for our 
warfighters. Defense technologies today depend increasingly on the 
commercial sector, not only to make cutting edge technologies 
available, but also to reduce the cost of defense procurements. For the 
last half century, possession of superior technology has been the 
cornerstone of our military preparedness. Such a strategy requires a 
sustained investment in science and technology to enable us to succeed 
in high priority missions, to minimize casualties, and to mobilize all 
of our military services in coordinated action. New technologies are 
necessary to strengthen our efforts in counterproliferation, 
counterterrorism, peacekeeping, and the stewardship of a safe and 
reliable nuclear weapons stockpile.
    Environment. Creating new scientific knowledge and technology to 
help us avoid environmental damage and its consequences is one of the 
great challenges facing our research enterprise. Recent advances in 
environmental science and technology hold enormous promise for the 
creation of a sustainable future in which our environmental health, our 
economic prosperity, and our quality of life are mutually reinforcing. 
At the same time, our growing knowledge has revealed vast gaps in our 
understanding of many environmental issues, particularly the human 
influence on the global climate. In the next 30 years, our population 
will grow by 60 million people, almost 40,000 individuals per week. 
During that same time, our economy is expected to double. Given such 
trends, we must develop a new generation of technologies that can 
supply the goods and services our society needs with less energy, fewer 
materials, and far less environmental damage.
    Health Care. Medical advances have lengthened our average life 
expectancy more than 60 percent beyond what it was nearly a century 
ago. Scientific and technological breakthroughs are providing new 
approaches to solving many of the long-standing mysteries of life and 
its damaging diseases. Genetic medicine offers us the greatest hope, 
but the ethical, legal, and social implications of human genome 
research must also be addressed in parallel with the scientific 
exploration and in a manner that encourages maximum public involvement. 
The public sector has a dual role--to facilitate the advances and to 
protect the interests of the public, and in both ways serve as an 
advocate of the public good. Our newest technologies must always 
incorporate our oldest and most cherished human values. We will need to 
reassess our public investments and adjust our science and technology 
portfolio to reflect the new realities.
    Education. Our children carry our hopes for the future, and 
preparing them for the twenty-first century is one of our most 
important national priorities. More than half of our basic research 
support has a dual benefit in that it is invested in our universities 
where, in addition to generating new knowledge, new talent is being 
trained for the future. In grades K-12, new research can determine 
which educational technologies actually work and how they can be 
improved. The degree to which our Nation flourishes in the twenty-first 
century will rest upon our success in developing a well-educated 
citizenry and workforce able to embrace the rapid pace of technological 
change. Quality of education and equality of educational opportunity 
are central to our political future. Yet as we work to develop the 
finest scientific and engineering workforce, we must also address its 
composition. Achieving diversity throughout the ranks presents a 
formidable challenge; women and minorities are grossly underrepresented 
in science and technology even though we are becoming a more diverse 
society. If our scientific workforce is to truly reflect the face of 
America, we must draw upon our full talent pool.
    These scientific and technological challenges along with so many 
others that' we face in the years ahead are enormous--but so are the 
combined strengths and resources of the American people. If we sustain 
our investments in basic research, we can ensure that the United States 
remains at the forefront of scientific capability, thereby enhancing 
our ability to shape and improve the world's future.
    I am grateful for the opportunity to serve this Administration and 
my nation. I recognize the responsibilities and challenges of this high 
office as Congress has prescribed them, and I resolve to work as hard 
as I can to strengthen our scientific enterprise to help our country 
reach its full potential.
    I will be pleased to answer any questions you may have.

                                 ______
                                 
                      A. Biographical Information

    1. Name: Arden L. Bement, Jr.
    2. Position to which nominated: Director, National Institute of 
Standards and Technology, Department of Commerce.
    3. Date of nomination: N/A.
    4. Address: Not released to the public.
    5. Date and place of birth: May 22, 1932, Pittsburgh, Pennsylvania.
    6. Marital status: Married to Louise C. (nee: Capestrain) Bement.
    7. Names and ages of children: Kristine Marie Clayton (DOB: 6/15/
53) 48 years old; Kenneth James Bement (DOB: 10/2/54) 46 years old; 
Vincent Lloyd Bement (DOB: 9/4/56) 45 years old; Cynthia Ann Smart 
(DOB: 3/19/58) 43 years old; Mark Francis Bement (DOB: 9/17/59) 42 
years old; David Alan Bement (DOB: 5/7/61) 40 years old; Paul Andre 
Bement (DOB: 8/19/63) 38 years old; Mary Loretta Swope (DOB: 2/1/65) 36 
years old; Kim Kellogg Smiley (DOB: 9/24/49) 52 years old; Robert Kevin 
Smiley (DOB: 5/18/54) 47 years old; and Susanne Courtland Smiley (DOB: 
2/27/59) 42 years old.
    8. Education: Washington Junior High School, New Castle, PA, 1944-
1947, Diploma May 1947; New Castle High School, New Castle, PA, 1947-
1949, Diploma May 1949; Colorado School of Mines, Golden, CO 1950-1954, 
E. Met. May 1954; University of Idaho, Moscow, ID, 1956-1959, M.S., May 
1959; University of Michigan, Ann Arbor, MI, 1959-1963, Ph.D., May 
1963.
    9. Employment Record: 1954-1955 Research Metallurgist, Fuels 
Development Operation, Hanford Laboratory, Hanford Atomic Products 
Operation, General Electric Company, Richland, WA.; Responsible for 
nuclear reactor fuel characterization and process design for the 
Hanford production reactors.
    1955-1957 Reactor Project Engineer, Hanford Irradiation Processing 
Department, Hanford Atomic Products Operation, General Electric 
Company, Richland, WA.; Responsible for the successful design, 
installation, and acceptance testing of reactor process instrumentation 
and process water chemical addition facilities.
    1957-1965 Senior Research Fellow, Metallurgy Research Operation, 
Hanford Laboratories, Hanford Atomic Products Operation, General 
Electric Company, Richland, WA.; Responsible for basic investigations 
on the effects of nuclear radiation on the fundamental properties of 
reactor fuels and reactor structural materials.
    1965-1968 Manager, Metallurgy Research Department, Battelle 
Northwest Laboratories, Richland, WA.; Responsible for direction of the 
research and development activities of approximately 50 scientists, 
engineers and technicians in programs in metallurgy research and the 
effects of irradiation on the mechanical and physical properties of 
nuclear reactor fuels and structural materials. Coordinated the 
national USAEC program in Irradiation Effects in Reactor Structural 
Materials involving ten participating laboratories. Member of the U.S. 
Libby-Cockcroft Exchange on the Effects of Irradiation on Structural 
Materials and the USAEC Heavy Section Steel Technology Program.
    1968-1970 Manager, Fuels and Materials Department, Battelle 
Northwest Laboratories, Richland, WA.; Responsible for direction of the 
research and development activities of approximately 100 scientists, 
engineers and technicians in programs in metallurgical research, 
nuclear structural materials, defense weapons technologies, 
biomaterials, manufacturing technology, isotope power sources, and the 
design, fabrication, and irradiation testing of advanced nuclear fuel 
elements. Member of USAEC international technology exchange programs 
with the U.K., Canada, Japan, Sweden, Denmark, and Norway.
    1970-1976 Professor of Nuclear Materials, Massachusetts Institute 
of Technology, Cambridge, MA.; Developed academic and research programs 
in support of advanced energy conversion technologies, fuel management 
and physical metallurgy. Supervised research programs in in-situ 
radiation creep, proton scattering in solids, materials development for 
magnetohydrodynamic (MHD) power systems, nuclear fusion and fission 
reactor materials, and reactor safety. Served as a member of the U.S.-
U.S.S.R. Bilaterial Exchange Program in MHD and as principal 
investigator for the MIT Fusion Technology Program. Was co-director of 
the MIT Summer Course in Reactor Safety.
    1976-1979 Director, Materials Science Office, Defense Advanced 
Projects Agency, Department of Defense, Arlington, VA.; Responsible for 
sponsored research programs in structural, optical and electronic 
materials for advanced defense systems. Supervised five project 
managers in major programs in advanced materials, fiber-optic sensors, 
compound semiconductors, very-large-scale integrated circuits, laser 
optics, and advanced armor and anti-armor materials.
    1979-1980 Deputy Under Secretary of Defense for Research and 
Engineering, Department of Defense, The Pentagon, Washington, DC; 
Responsible for overall management of the science and technology 
programs of the Department of Defense to include the OSD program 
offices for directed-energy weapons and very-high-speed integrated 
circuits (VHSIC). Was also responsible for related activities, such as 
the Manufacturing Technology Program and the monitoring of Defense 
Federal Contract Research Centers, the Independent Research and 
Development Program, and the Small Business Innovation Research (SBIR) 
Program. These programs had an aggregate budget of more than three 
billion dollars. Served as DOD Principal on the OSTP Federal 
Coordinating Council on Science, Engineering and Technology and the 
Committee on International Science, Engineering and Technology. Also, 
was the principal DOD representative on the Technical Cooperation 
Program (TTCP), the Synthetic Fuels Task Force, and the NATO Defense 
Research Group.
    1980-1988 Vice President for Technical Resources, TRW Inc., 
Cleveland, OH; Responsible for identifying and evaluating emerging 
technologies and for recommending product, material, and process 
development projects. Responsibilities included the development of 
special relationships with selected universities and the recruiting of 
key individuals in new technologies of interest to TRW.
    1988-1992 Vice President for Science and Technology, TRW Inc., 
Cleveland, OH.; Responsible for leading company wide programs in the 
acquisition and use of advanced technologies of high leverage for TRW 
businesses. Responsibilities included strategic technology planning, 
technology resource sharing, international technology alliances, 
university programs, technical consulting with business units, the 
company's purchasing function, information technology function, and 
environmental control and quality functions. Supported CEO leadership 
in the implementation of the Malcolm Baldridge National Quality Award 
criteria.
    1992-1988 Basil Turner Distinguished Professor of Engineering, 
School of Materials Engineering and School of Electrical and Computer 
Engineering, Purdue University, West Lafayette, IN.; Responsible for 
academic and research programs in high temperature superconductors and 
ferroelectric materials. Also, directed the Midwest Superconductivity 
Consortium of the USDOE, involving the collaborative research 
activities of six major Midwest research universities, to include R&D 
partnerships with sixteen participating companies and federal 
laboratories.
    1988 David A. Ross, Distinguished Professor of Nuclear Engineering 
and Head, School of Nuclear Engineering, Purdue University, West 
Lafayette, IN.; Responsible for a department of ten faculty members, 
sixteen technical and administrative staff members, and over one 
hundred undergraduate and graduate students. The School conducts over 
six million dollars of research in two-phase flow, reactor safety, 
nuclear reactor simulation, nuclear medicine, complex adaptive systems, 
and direct energy conversion. Sponsors include DOE, NRC, US Navy, NASA, 
NSF, and industry.
    10. Government Experience: 1968-1970 Councilman, City of Richland, 
WA.
    1966-1969 Technical Coordinator, Irradiation Effects to Reactor 
Structural Materials Program, Division of Reactor Development and 
Technology, USAEC.
    1967-1970 Member, Program Review Committee, Heavy Section Steel 
Technology Program, USAEC.
    1968-1970 Member, Working Group on Fast Reactor Cladding, USAEC.
    1970-1973 Member, Radiation Effects Subcommittee, Technology 
Committee, Division for Controlled Thermonuclear Reactors, USAEC.
    1970-1976 Consultant, Advisory Committee for Reactor Safeguards, 
U.S. Nuclear Regulatory Commission.
    1972-1973 Technical Coordinator, MHD Materials Program, Office of 
Coal Research, USDOI.
    1980-1986 Member, Advisory Panel to the Congressional Task Force on 
Technology Policy, Congressmen McKay and Packard, Co-chairmen.
    1980 Member, Study Committee for the Energy Research Advisory 
Board, USDOE and the Office of Technology Assessment on the Mission of 
Weapons Laboratories.
    1980-1986 Member and Chairman, NIST Statutory Visiting Committee, 
USDOC.
    1980-1986 Consultant, Defense Science Board, USDOD
    1989-1995 Member, National Science Board, National Science 
Foundation (served on the Program, Polar Research, Inspector General 
and Science and Engineering Indicators (chaired) Committees).
    1992-1998 Member, Technology and Commercialization Advisory 
Committee, NASA.
    1995-1998 Member, Space Station Utilization Advisory Subcommittee, 
NASA.
    1998-1991 Member, Board of Overseers, Malcolm Baldridge National 
Quality Award Program, USDOC.
    1996 Chairman, NSF Workshop on the Urban Infrastructure.
    1994-1995 Member, Board of Assessment, State of Texas Research 
Fund.
    1996-1997 Member, Board of Assessment, State of Ohio 
Instrumentation Program.
    1996 Member, Advisory Committee for the Organization of the Air 
Force Laboratory, USAF.
    1997-2001 Member, Visiting Committee for the Directorate for 
Social, Behavioral and Economic Sciences, NSF.
    1998-2001 Member and Chair, State of Nebraska Research Program 
Review Committee, University of Nebraska (1998-2001).
    1999-2001 Member and Chairman, Advanced Technology Advisory 
Committee, NIST, USDOC.
    11. Business relationships: Corporate Directorships. Director, 
Keithley Instruments, Inc., Solon Ohio (1984-2001), Membership on 
Audit, Strategy, and Compensation Committees; Director, Lord 
Corporation, Cary NC (1987-2001), Membership on Strategy, Human 
Relations, and Compensation Committees.
    Consulting Positions: Industry. Battelle Memorial Institute (1970-
1976), The Materials Property Council (1970-1983), Wah Chang Albany 
Corporation (1970-1973), Atomic Power Development Associates (1970), 
Babcock and Wilcox (1972), United Technologies Corporation (1980-1988), 
TRW (1990-1997), Lockheed Martin: Idaho Engineering and Environmental 
Laboratory (1999-2001), Member, Science Advisory Committee, Al Ware, 
Cleveland, Ohio (1984-1987), Chair, Exploratory Research Advisory 
Committee, Electric Power Research Institute (1990-1995), Member, 
Nuclear Operating Committee, Commonwealth Edison Co. (1994-1998), 
Member, Advisory Committee for Strategic R&D, Electric Power Research 
Institute (1995), Member, Science Advisory Committee, Oryx 
Technologies, Fremont CA (1990-1998), Member, Science Advisory 
Committee, Midwest Superconductivity, Inc., Lawrence KA (1996-1998), 
Member, Science and Technology Advisory Committee, Howmet International 
Corporation (1999-2001).
    Consulting/Advisory Positions: National Laboratories. Member, 
Visiting Committee, Materials Science Division, Argonne National 
Laboratory (1970-1973); Member and Chair, Visiting Committee, 
Metallurgy and Ceramics Division, Oak Ridge National Laboratory (1972-
1975); Member, Visiting Committee, Materials Technology Division, 
Lawrence Livermore National Laboratory (1974-1975); Member and Chair, 
Visiting Committee for the Materials Science and Technology Division, 
Los Alamos Scientific Laboratory (1996-1999); Member, Visiting 
Committee for the Chemical Technology Committee, Argonne National 
Laboratory (1998-2001); Member, Board of Overseers, Fermi National 
Accelerator Laboratory, University Research Association, Inc. (1999-
2001) Membership on Administration and Audit Committees of the Board.
    Consulting Advisory Positions: Universities. Chair, Science 
Advisory Committee, Howard University (1981-1984); Chair, Advisory 
Committee for the School of Engineering, Cleveland State University 
(1982-1986); Member, National Advisory Committee to the School of 
Engineering, The University of Michigan (1980-1986); Member, Advisory 
Committee to the School of Engineering, The Ohio Sate University (1980-
1984); Member, Visiting Committees to the School of Engineering, MIT:
    <bullet> Department of Aeronautics and Aerospace Engineering (1989-
1992)
    <bullet> Department of Materials Science and Engineering (1992-
1995)
    <bullet> Department of Mechanical Engineering (1995-1998);
    Member, Visiting Committee, Department of Nuclear Engineering, 
University of Wisconsin (1992-1995); Member, Advisory Committee for 
Engineering Center of Design, Carnegie Mellon University (1982-1984); 
Member, Advisory Committee, Case Institute of Technology, CWRU 
(19801985); Member, Steering Committee, Center for Integrated Design 
and Manufacturing, Purdue University (1981-1986); Member, Board of 
Visitors, Software Engineering Institute, Carnegie Mellon University 
(1983-1991); Member, Advisory Committee, University Technologies, Inc., 
Case Western Reserve University (1990-1992); Member, Advisory Committee 
for the Establishment of a College of Engineering, Rowan College of New 
Jersey (1993-1994); Member, Advisory Committee, School of Engineering, 
University of California at Berkeley (1992-98); Member, Advisory 
Committee for the Executive Course on Technology Policy, George Mason 
University (1994); Chair, Assessment Committee for the Institute for 
Advanced Technology, University of Texas, Austin (1996); Member, 
Assessment Committee for the Center for Electromechanics, University of 
Texas, Austin (1996); Member, Visiting Committee, Center for Risk 
Management, University of Virginia (1997-98); Member, Program Review 
Committee, Nuclear Engineering Program, University of Missouri, (1999); 
Member, Program Review Committee, Department of Materials Science and 
Engineering, The University of Michigan (2000); Member, Visiting 
Committee, Department of Materials Science and Engineering, 
Northwestern University (1999-2001).
    12. Membership: National Research Council. Member and Chairman, 
National Materials Advisory Board (1982-1986); Chairman, Commission for 
Engineering and Technical Systems (1986-1992); Member, Board on Science 
and Technology for International Development (1983-1984); Member, Board 
on Army Science and Technology (1984-1986); Member, Engineering 
Research Board (1984-1986); Member, Advisory Committee on Advances in 
Materials Research and Development (1985-1987); Co-Chairman, Steering 
Committee for Materials Science and Engineering Field Study (1985-
1989); Member, Committee on Space Policy (1987-1988); Member, NRC 
Finance Advisory Committee (1987-1988); Member, Committee on Key Issues 
in the Future Design and Implementation of U.S. National Security 
Export Controls (1989-1991); Member, NAS-Japan Study Committee for the 
Promotion of Science (1991); Member, Committee on International 
Intellectual Property Rights in Science and Technology (1991-1993); 
Member, NRC Board of Assessment of NBS Programs (1976-1980); Member, 
Committee on Materials for the 21st Century (1991-1992); Member, U.S. 
National Committee on Theoretical and Applied Mechanics (1989-1992); 
Chairman, Workshop on Research Progress Measurement and Management 
Decision Making (1992); Member, Corporate Council for Mathematics and 
Science Education Executive Committee (1992-1993); Chair, Project 
Guidance Group on Careers in Science and Engineering, Committee on 
Science, Engineering and Public Policy (1995-1996); Member, Board on 
Air Force Science and Technology (1996); Chair, Panel on International 
Benchmarking of U.S. Materials Science and Engineering Research (1997-
98); Chair, Transportation Research Board Committee for the Review of 
the National Automated Highway System Consortium (1997-98); Member, 
Report Review Committee (1998-2001); Member, Committee on Integration 
of Commercial and Military Manufacturing in 2010 and Beyond (2001).
    Community Service. Councilman, City of Richland WA (1968-1970); 
Founder and Commissioner, Benton-Franklin Regional Arts Commission, 
Benton and Franklin Counties, WA (1969-1970); Chairman, Boards of 
Public Health, Mental Health and Mental Retardation, Benton and 
Franklin Counties, WA (1969-1970); Member, Board for Community Action, 
U.S. Office of Economic Opportunity, Benton and Franklin Counties, WA 
(1969-1970); President, Allied Arts Council for the Mid-Columbia 
Region, Richland, WA (1968-1970); Member, Board of Trustees, Cleveland 
Opera Company (1980-1992); Member, Board of Trustees and Chair, 
Architectural Committee, Great Lakes Science Museum (1990-1992); 
Member, Steering Committee for Adventure Place, Akron, Ohio (1990-
1992); Member, Board of Trustees, Society for the Prevention of 
Violence, Cleveland, OH (1988-1992); Member, Steering Committee, 
Cleveland Advanced Manufacturing Program (1986-1992); Member, Lafayette 
Symphony Orchestra Board of Trustees, (1999-2001).
    International Activities. Member, U.S.-U.K. Libby Cockcroft 
Exchange on Irradiation Effects to Reactor Structural Materials (1966-
1969); Member, U.S.-Japan Exchange on Radiation Effects in Metals and 
Structural Materials (1968-1971); Member, U.S.-Scandinavian Exchange of 
Radiation Effects on Reactor Structural Materials (1968); Lecturer, 
Summer School on Radiation Effects in Matter, Romanian Institute for 
Atomic Physics (1971); Lecturer and Technical Advisor, Instituto 
Nacional de Energia Nuclear, Mexico (1971-1975); Technical Advisor, 
National Research Council, Taiwan (1973-1975); Member, U.S.-U.S.S.R. 
Bilateral Exchange on Magnetohydrodynamics (1973-1975); Member, USAID 
Mission to Thailand under the U.S.-Thailand Scientific Agreement 
(1983); Member, Special Committee to Assess Graduate Engineering 
Programs at the National University of Mexico (UNAM) (1996).
    13. Political affiliations and activities: (a). List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. Councilman, City of Richland, WA 
(1968-1970): filled an unexpired term by vote of the council and was 
reelected unopposed. (b). List all memberships and offices held and 
services rendered to all political parties or election committees 
during the last 10 years. None. (c). Itemize all political 
contributions to any individual, campaign organization, political, 
political action committee, or similar entity of $500 or more for the 
past 10 years. Life membership in the National Republican Committee, 
$750.00 in July 2001.
    14. Honors and awards: Professional Society Fellowships. American 
Society of Chemists (1969), American Nuclear Society (1973), and ASM 
International (1978).
    Leadership and Career Awards. Engineers Citation Award, University 
of California at Los Angeles (1985); Rackham Hall of Fame, The 
University of Michigan (1986); Doctorate Honorious Causa (Engineering), 
Cleveland Sate University (1989); Melville F. Coolbaugh Memorial Award, 
Colorado School of Mines (1991); Alumni Hall of Fame, University of 
Idaho (1991); Outstanding Alumnus Award, The University of Michigan 
Club of Cleveland (1992); Alumni Society Merit Award, College of 
Engineering, The University of Michigan (1993); National Materials 
Advancement Award, Federation of Materials Societies (1997); 
Distinguished Life Membership, ASM International (1998); Honorary 
Membership, American Ceramics Society (1999).
    Awards of Appreciation. U.S. Air Force Laboratories (1980); U.S. 
Department of Defense (1980); U.S. Department of Defense, for 
Outstanding Contributions to the Defense Equal Opportunity Program 
(1981); Federation of Materials Societies (1984); Cleveland State 
University (1985); National Institute for Standards and Technology 
(1991); Department of Commerce (1992); National Research Council 
(1992); Electric Power Research Institute (1993); Department of 
Commerce (1993-1996).
    Performance Awards and Medals. Outstanding Performance Award, 
Defense Advanced Research Projects Agency (1977); Distinguished Federal 
Executive Award (1980); Distinguished Civilian Service Medal, U.S. 
Department of Defense (1980); Outstanding Service Award, Department of 
Commerce (1995).
    Lectureships and Commencement and Keynote Addresses. Keynote 
Speaker, Cleary Scientific and Schwartz Engineering Awards Banquet, 
U.S. Air Force Materials Laboratory (1980); Commencement Speaker, 
Gonzaga University (1984); Distinguished Lectureship in Materials and 
Society, ASM and AIME (1986); Regents Professorship, University of 
California at Los Angeles (1987); McBride Global Currents Lecturer, 
Case Western Reserve University (1987); Comencement Speaker, Cleveland 
State University (1987); Commencement Speaker, University of Idaho 
(1991).
    Biographical Listings. American Men and Women of Science; Marquis 
Who's Who: In the World, In America, In the Midwest, In Science; 
Federal Staff Directory (1976-1982); Strathmore's Who's Who (1998-1999)
    15. Published writings. Books: A.R. Rosenfield, G.T. Hahn, A.L. 
Bement, Jr. and R.I. Jaffee, Dislocation Dynamics, McGraw Hill Book 
Company, NY (1968); and D.G. Franklin, G.E. Lucas and A.L. Bement, Jr., 
Creep of Zirconium Alloys in Nuclear Reactors, ASTM Spec. Tech. Pub]. 
815, (1983).
    Monographs. A.L. Bement, Jr., ``Void Formation in Irradiated 
Austenitic Stainless Steels,'' Advances in Nucl. Sci. & Eng., 7, 
Academic Press, New York (1973).
    Book Contributions. A.L. Bement, Jr. and J.E. Irvin, ``Automatic 
Processing of Mechanical Properties Data,'' Computer Applications in 
Metallurgical Engineering, American Society for Metals, Metals Park, 
Ohio (1964); R.A. Oriani and A.L. Bement, Jr., ``Interstitial Phases 
and Solutions,'' Phase Stability in Metals and Alloys, McGraw-Hill, New 
York (1967); F.A. Smidt, Jr. and A.L. Bement, Jr. ``Thermally Activated 
Dislocation Motion and its Application to the Study of Radiation 
Damage,'' Dislocation Dynamics, McGraw-Hill, New York (1968); A.L. 
Bement, Jr., F.A. Smidt, Jr. and R.G. Hoagland, ``Fracture Mechanisms 
and Radiation Effects,'' Engineering Fundamentals and Environmental 
Effects, Vol. III, Fracture, An Advanced Treatise, edited by H. 
Liebowitz, Academic Press, New York (1969); A.L. Bement, Jr., 
``Biomaterials'', Encyclopedia of Chemistry, Third Edition, C.A. Hampel 
and G.G. Hawley, eds., Van Nostrand Reinhold Co., New York (1973); A.L. 
Bement, Jr. and E.C. Van Reuth, ``Quo Vadis--RSR,'' Rapid 
Solidification Processing, Principles and Technologies--II, Claitor's 
Publishing Division, Baton Rouge, LA(1980).
    Formal Reports of the Atomic Energy Commission. (1). A. L. Bement, 
Jr., ``The Influence of Uneven Quenching Rates on the Warping of 
Uranium Slugs,'' USAEC Formal Report HW-33651, Hanford Atomic Product 
Operations, General Electric, Co., Richland, WA (1954). (2). A. L. 
Bement, Jr., ``An Investigation of the Properties of Rolled Uranium 
Related to the Quench after Beta Heat Treatment,'' USAEC Formal Report 
HW-33726, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1954). (3). A. L. Bement, Jr., ``A Comparison of Sonic 
and X-ray Orientation Data for Uranium Quenched at Different Rates from 
the Beta Phase,'' USAEC Formal Report HW-33937, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1954). (4). A. L. 
Bement, Jr., ``The Presence and Removal of Hydrogen in Punched and 
Machined Uranium Washers,'' USAEC Formal Report HW-48293, Hanford 
Atomic Product Operations, General Electric Co., Richland, WA (1957). 
(5). A. L. Bement, Jr., and W. P. Wallace, ``A Martensitic Reaction of 
Uranium,'' USAEC Formal Report HW-51084, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1957). (6). A. L. 
Bement, Jr., and V. E. Kahle, ``Reaction Layers Formed by Leadbath and 
Salt-bath Heat Treatments of Uranium,'' USAEC Formal Report HW-52049, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1957). (7). A. L. Bement, Jr., ``The Effects of Carbon Content on the 
Rate of Dissolution of Dinget Uranium in Nitric Acid,'' USAEC Formal 
Report HW-52430, Hanford Atomic Product Operations, General Electric 
Co., Richland, WA (1957). (8). A. L. Bement, Jr., and D. W. Rathbun, 
``Status Report on the Properties of Centrifugally Cast Uranium,'' 
USAEC Formal Report HW-53569, Hanford Atomic Product Operations, 
General Electric Co., Richland, WA (1958). (9). A. L. Bement, Jr., and 
V. E. Kahle, ``The Diffusion Layer Formed by Molten Lead Reaction with 
Uranium,'' USAEC Formal Report HW54628, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1958). (10). A. L. 
Bement, Jr., ``Burnup and Specific Power Calculations for the Thermal 
Neutron Irradiation of Thorium-uranium Alloys,'' USAEC Formal Report 
HW-56631, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1958) (11). A. L. Bement, Jr., and R. L. Hales, ``Neutron 
Damage to Metals--A Program Document,'' USAEC Formal Report HW-59300A, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1959). (12). A. L. Bement, Jr., ``The Effects of Low Neutron Exposures 
at Low Temperature on the Hardness and Tensile Properties of Natural 
Uranium,'' USAEC Formal Report HW-60326, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1959). (13). K. R. 
Wheeler, H. J. Pessl, and A. L. Bement, Jr., ``Effects of Reactor 
Environment on Candidate PRTR Gas-loop Materials,'' USAEC Formal Report 
HW-62543, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1959). (14). D. L. Gray and A. L. Bement, Jr., ``Effect 
of Irradiation upon Mechanical Properties of Zircaloy-2,'' USAEC Formal 
Report HW-62422, Hanford Atomic Product Operations, General Electric 
Co., Richland, WA (1959). (15). A. L. Bement, Jr., ``Tensile Properties 
of Irradiated Thorium,'' USAEC Formal Report HW-66643, Hanford Atomic 
Product Operations, General Electric Co., Richland, WA (1960). (16). A. 
L. Bement, Jr., ``Examination of an Irradiated, Zircaloy-2, Hot Water 
Loop Tube,'' USAEC Formal Report HW-65499, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1960). (17). A. L. 
Bement, Jr., and L. D. Coffin, ``Automatic Processing of Tensile Test 
Data,'' USAEC Formal Report HW-71570, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1963). (18). A. L. 
Bement, Jr., ``Effects of Cold Work and Neutron Irradiation on the 
Tensile Properties of Zircaloy-2,'' USAEC Formal Report HW-74953, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1963). (19). A. L. Bement, Jr., and J. E. Irvin, ``Materials 
Irradiations in the ETR-G-7 Hot Water Loop,'' USAEC Formal Report HW-
80615, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1964). (20). A. L. Bement, Jr., and J. E. Irvin, ``The 
Effects of Hot-water Thermal Treatments in the Cold Work Recovery of 
the Tensile Properties of Zircaloy-2,'' USAEC Formal Report HW-80309, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1964). (21). A. L. Bement, Jr., and R. G. Hoagland, ``Fracture Studies 
of Zircaloy-2,'' USAEC Formal Report HW-82681, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1964). (22). J. E. 
Irvin, A. L. Bement, Jr., and R. G. Hoagland, ``The Combined Effects of 
Temperature and Irradiation on the Mechanical Properties of Austenitic 
Stainless Steels,'' USAEC Formal Report BNWL-1, Pacific Northwest 
Laboratory, Battelle Memorial Institute, Richland, WA (1965). (23). A. 
L. Bement, Jr., R. E. Dahl and J. E. Irvin, ``Fast Neutron Flux 
Characteristics of the ETR-G-7 Hot Water Loop,'' USAEC Formal Report 
BNWL-89, Pacific Northwest Laboratory, Battelle Memorial Institute, 
Richland, WA (1965). (24). A. L. Bement, Jr., and L. E. Steele, 
``USAEC-Industry Meeting on Irradiation Effects to Reactor Structural 
Materials,'' USAEC Formal Report BNWL-609, Pacific Northwest 
Laboratory, Battelle Memorial Institute, Richland, WA (1967).
    Journal Publications. (1). A. L. Bement, Jr., ``Tensile Properties 
of Irradiated Thorium,'' Journal of Nuclear Materials, 6 (1962). (2). 
A. A. Dykes and A. L. Bement, Jr., ``Void Formation in Nickel by Flash 
Heating,'' J. Nucl. Mater., 42, 223-226 (1972). (3). J. B. Vander Sande 
and A. L. Bement, Jr., ``Investigation of Second-phase Particles in 
Zircaloy-4 Alloys,'' J. Nucl. Mater., 52, 115-118 (1974). (4). G. E. 
Lucas and A. L. Bement, Jr., ``The Effect of a Zirconium Strength 
Differential on Cladding Collapse Predictions,'' J. Nucl. Mater., 58, 
246252(1974) (5). E. Lucas and A. L. Bement, Jr., ``Temperature 
Dependence of the Zircaloy-4 Strength-differential,'' J. Nucl. Mater., 
58, 163-170 (1975). (6). P. Hendrick, A. L. Bement, Jr., and O. K. 
Harling, ``Proton-simulated Irradiation-induced Creep,'' Nucl. Instrum. 
Meth., 124, 389-395 (1975). (7). P. Hendrick, D. J. Michel, A. G. 
Pieper, R. E. Surratt, and A. L. Bement, Jr., ``Simulation of 
Irradiation-induced Creep in Nickel,'' J. Nucl. Mater., 59,229-23. (8). 
P. Hendrick, D. J. Michel, A. G. Pieper, R. E. Surratt, and A. L. 
Bement, Jr., ``Simulation of Irradiation-induced Creep in Nickel,'' J. 
Nucl. Mater., 59,229-23. (9). P. Hendrick, D. J. Michel, A. G. Pieper, 
R. E. Surratt, and A. L. Bement, Jr., ``Ion Simulation Irradiation-
induced Creep,'' Nucl. Instrum. Meth., 133, 509-52. (10). C. Peterson, 
S. Mansour and A. L. Bement, Jr., ``Effects of Optical Illumination on 
Fatigued Lead, Zirconate Titanate Capacitors,'' Integ. Ferroelec., 7, 
139-147 (1995). (11). C. Peterson, S. A. Mansour, A. L. Bement, Jr., 
and G. Liedl,`` Optical Studies of PZT/Metal and Metal-Oxide 
Interfaces,'' Integ. Ferroelec., 7, 139-147 (1995). (12). A. V. Rao, S. 
Mansour, and A. L. Bement, Jr., ``Fabrication of Ferroelectric PZT Thin 
Film Capacitors with Indium Tin Oxide (ITO) Electrodes,'' Mater. Ltrs., 
29, 255-258 (1996). (13). E. N. Paton, M. Brazier, S. Mansour, and A. 
L. Bement, Jr., ``A Critical Study of Defect Migration and 
Ferroelectric Fatigue in Lead Zirconate Titanate Thin Film Capacitors 
Under Extreme Temperatures'', Integ. Ferroelec., 18,529-537 (1997).
    Transactions and Conference Proceedings. (1). R. D. Pehlke and A. 
L. Bement, Jr., ``Mass Transfer of Hydrogen between Liquid Aluminum and 
Bubbles of Argon Gas,'' Trans. AIME, 224 (1962). (2). A. L. Bement, 
Jr., Discussion on Paper by R. J. Wasilewski entitled ``On 
Discontinuous Yield and Plastic Flow in (x-titanium,'' Trans. ASM, 56 
(1963). (3). A. L. Bement, Jr. and J. E. Irvin, ``Automatic Processing 
of Mechanical Properties Data,'' Metals Engineering Quarterly, 4 
(1964). (4). A. L. Bement, Jr., J. C. Tobin, and R. G. Hoagland, 
``Effects of Neutron Irradiation on the Flow and fracture Behavior of 
Zircaloy-2,'' Flow and Fracture of Metals and Alloys in Nuclear 
Environments, Special Technical Publication No. 380, ASTM 364-384 
(1965). (5). A. L. Bement, Jr., J. E. Irvin, and R. G. Hoagland, 
``Combined Effects of Temperatures and Irradiation on the Mechanical 
Properties of Austenitic Stainless Steels,'' Flow and Fracture of 
Metals and Alloys in Nuclear Environments, Special Technical 
Publication No. 380, ASTM, 236-250 (1965). (6). A. L. Bement, Jr., 
``Zirconium Cladding Alloys,'' Proceedings of MLT. Symposium on 
Materials of Nuclear Power Reactors, Cambridge, MA (1966). (7). A. L. 
Bement, Jr., ``Radiation Damage in Hexagonal Close-packed Metals and 
Alloys,'' Proceedings of AIME Symposium on Radiation Effects, 
Asheville, NC, Gordon and Breach, NY, 671-725 (1967). (8). A. L. 
Bement, Jr., ``Effects of Minor Constituents on the Irradiation Damage 
to Austenitic Stainless Steels,'' Proceedings of ASTM Symposium on the 
Effects of Residual Elements on Properties of Austenitic Stainless 
Steels, Special Technical Publication No 418, ASTM (1967). (9). R. G. 
Hoagland, A. L. Bement, Jr., and R. G. Rowe, ``Applications of Fracture 
Mechanics in Evaluating the Initiation and Propagation of Brittle 
Fracture in Reactor Structural Components,'' Proceedings of ASTM 
Symposium on the Effects of Radiation on Structural Metals Special 
Technical Publication No. 426, ASTM, (1967). (10). J. E. Irvin and A. 
L. Bement, Jr., ``The Nature and Engineering Significance of Radiation 
Damage to Various Stainless Steel Alloys,'' Proceedings of ASTM 
Symposium on the Effects of Radiation on Structural Metals, Special 
Technical Publication No. 426, ASTM (1967). (11). E. R. Gilbert, A. L. 
Bement, Jr., and S. A. Duran, ``Creep of Zirconium from 50 to 85 C,'' 
Applications-related Phenomena for Zirconium and its Alloys, Special 
Technical Publication 458, 210-225, ASTM (1970). (12). A. L. Bement, 
Jr., ``Fundamental Materials Problems in Nuclear Reactors,'' 
Proceedings of 2nd International Conference on Strength of Metals and 
Alloys, ASM, 2, 693-728 (1970). (13). A. L. Bement, Jr., ``Introduction 
of Wrap-up Session,'' Proceedings of the Conference on Fast Reactor 
Fuel Element Technology, New Orleans, LA, ANS (1971). (14). A. L. 
Bement, Jr., ``Radiation Effects on Zirconium and Zirconium Alloys,'' 
Proceedings of the United States-Japan Seminar on Radiation Effects in 
Metals and Structural Materials, Kyoto, Japan (1971). (15). A. L. 
Bement, Jr., ``Irradiation Effects of Structural Materials. I. 
Radiation Hardening,'' Rev. Roum. Phys., 17, 361-380 Bucharest (1972). 
(16). A. L. Bement, Jr., ``Irradiation Effects of Structural Materials. 
II. Brittle Fracture,'' Rev. Roum. Phys., 17, 505-517, Bucharest 
(1972). (17). A. L. Bement, Jr., ``Irradiation Effects of Structural 
Materials. III. High Temperature Embrittlement,'' Rev. Roum. Phys., 17, 
519-525, Bucharest (1972). (18). A. L. Bement, Jr., ``Irradiation 
Effects of Structural Materials. IV. Creep and Growth,'' Rev. Roum. 
Phys., 17, 607-618, Bucharest (1972). (19). A. L. Bement, Jr., 
``Irradiation Effects of Structural Materials. V. Void Swelling,'' Rev. 
Roum. Phys., 17, 619-630 (1972). (20). H. K. Bowen, D. R. Uhlmann, J. 
F. Louis, J. W. Halloran, W. T. Petuskey, R. Goodof, and A. L. Bement, 
Jr., ``High Temperature Electrodes,'' Proceedings of the First USA-USSR 
Symposium on MHD, Moscow, (1974). (21). A. L. Bement, Jr., ``Needs in 
Alloy Design for Nuclear Applications,'' in Proceedings of Battelle 
Colloquium on the Fundamental Aspects of Structural Alloy Design, 
Seattle, WA and Harrison Hot Springs, BC (1975). (22). A. L. Bement, 
Jr., ``Interrelationship Between Nuclear Fuel Design, Performance and 
Fabrication,'' Proceedings of the International Symposium on Nuclear 
Power Technology and Economics, Taipei, Taiwan (1975). (23). Y. H. 
Choi, A. L. Bement, Jr., and K. C. Russell, ``The Effect of Fusion Burn 
Cycles on First Wall Swelling,'' Proceedings of the International 
Conference on Radiation Effects and Tritium Technology for Fusion 
Reactors, Ed., J. S. Watson and F. W. Wiffin, 11.1-11.17 (1976). (24). 
P. L. Hendrick, D. J. Michel, A. G. Pieper, R. E. Surratt, and A. L. 
Bement, Jr., ``Ion-simulated Irradiation Creep of Nickel,'' Proceedings 
of the International Conference on Radiation Effects and Tritium 
Technology for Fusion Reactors, Ed., J. S. Watson and F. W. Wiffin 
(1976). (25). Y. Y. Liu and A. L. Bement, Jr., ``Regression Approach 
for Zircaloy-2 Inreactor Creep Constitutive Equations,'' M.I.T., 
Transcript of the 4th International Conference on Structural Mechanics 
in Reactor Technology, Structural Analysis of Reactor Fuel and 
Cladding, San Francisco, CA, Commission of European Communities, 
Luxemburg (1977). (26). A. L. Bement, Jr., ``Greening of Materials 
Science and Engineering,'' Mater. Soc. V. 11, N4,415-432 (1987). (27). 
A. L. Bement, Jr., ``Greening of Materials Science and Engineering,'' 
Metall. Trans. A., 18A, 363-375 (1987). (28). A. L. Bement, Jr., 
``Review and Forecast for NDE in Advanced Materials Technology,'' 
Proceedings for the Conference for the Review of Progress in 
Quantitative NDE, University of California-San Diego, LaJolla, CA 
(1990). (29). A. L. Bement, Jr., ``Progress in Materials Science,'' 
Proceedings of the International Conference, Electricity Beyond 2000 
Forum, Washington, DC. Electric Power Research Institute, Palo Alto, CA 
(1991). (30). A. L. Bement, Jr., ``Utilization of Science and 
technology to Reduce Materials Vulnerability,'' Materials and Society, 
7 (1991). (31). C. R. Peterson, S. A. Mansour, and A. L. Bement, Jr., 
``An Optical Study of PZT Thin Film Capacitors,'' Proceedings of the 
7th International Symposium on Integrated Ferroelectrics, ACS (1995). 
(32). S. A. Mansour, J. L. Norton, G. L. Liedl, A. L. Bement, Jr., and 
C. Venkatraman, ``Laser Beam Lithography of Metal Oxide Electrodes for 
PZT Memory Applications,'' Proceedings of the MRS Spring Meeting, San 
Francisco, CA (1995). (33). J. L. Norton, S. A. Mansour, G. L. Liedl, 
A. L. Bement, Jr. and C. Venkatraman, ``Laser Beam Lithography of Metal 
Oxide Electrodes for PZT Memory Applications,'' Materials: Fabrication 
and Patterning at the Nanoscale, MRS, 380, 99-104 (1995). (34). S. A. 
Mansour, A. Rao, and A. L. Bement, Jr., ``Photo-induced Effect Recovery 
in PZT Thin Film Capacitors with Oxide Contacts,'' Materials for Smart 
Systems II, MRS, 459, 201-206 (1997). (35). A. L. Bement, Jr., 
``Benchmarking National Leadership in Materials Science and 
Engineering.'' Proceedings of the 5th International Conference on 
Modern Materials and Technologies, Florence, Italy, June 14-19,1998. 
(36). A. L. Bement, Jr., ``Status of Electrical and Magnetic 
Instruments as of the Turn of the Century'', Proceedings of the 
Symposium on 20th Century Developments in Instrumentation and 
Measurements, American Physical Society Centennial Meeting, Atlanta, 
Georgia, March 21, 1999.
Other Publications
    (1). A. L. Bement, Jr., ``Materials Problems in Advanced Energy 
Conversion,'' University Forum on National Materials Policy, National 
Commission on Materials Policy, M.I.T., (1972). (2). A. L. Bement, Jr., 
and R. Kaplow, ``Materials Limitations in Advanced Energy Conversion 
Systems,'' Report of the ARPA Materials Research Council Summer 
Conference, Centerville, MA (1972). (3). R. Kaplow, A. L. Bement, Jr., 
and M. Cohen, ``Solar Energy,'' Volume II of Preliminary Reports, 
Memoranda and Technical Notes of the Materials Research Council Summer 
Conference, LaJolla, CA., U. Of Michigan Report No. 005020 (1973). (4). 
A. L. Bement, Jr., ``Outlook for Technology in the 80's,'' Testimony 
before the Ohio House of Representatives Select Committee on Technology 
(1983). (5). A. L. Bement, Jr., ``National Perspectives on the Role of 
Universities and Industry Promoting Science and Technology,'' Testimony 
before the Ohio Science and Technology Commission, Cleveland, OH 
(1989). (6). A. L. Bement, Jr., S. K. El-Rahaiby and C. X. Campbell, 
``Bringing Advanced Materials to Market,'' DoD Ceramics Information 
Analysis Center (CAIC), CINDAS, Purdue University (1995). (7). A. L. 
Bement, Jr., ``The Opportunities and Shortfalls of National Science and 
Technology Policy,'' Materials Technology, 10, #3-4 (1995). (8). A. L. 
Bement, Jr., ``Inventivity: The Art and Science of Research Management 
by John J. Gilman'', Book Review, Materials Technology, 8, September/
October 1993, Elsevier.
Congressional Testimony
    (1). J. E. Louis and A. L. Bement, Jr., ``MHD Power Generation, an 
Assessment and a Plan for Action,''Testimony before the Task Force on 
Energy of the Subcommittee on Science, Research and Development of the 
Committee on Sciences and Astronautics, U.S. House of Representatives, 
92nd Congress, Volume II, U.S. Government Printing Office, Washington, 
DC (1972). (2). A. L. Bement, Jr., and R. Kaplow, ``Statement on the 
Importance of Materials in Power Technology,'' Testimony before the 
Subcommittee on Space Science and Applications and Subcommittee on 
Energy of the Committee on Science and Astronautics, U.S. House of 
Representatives, 93rd Congress, U.S. Government Printing Office (May 
24, 1973). (3). A. L. Bement, Jr., ``Utilization of Science and 
Technology to Reduce Materials Vulnerability,'' Testimony before the 
Subcommittee on Science, Technology and Space, U.S. Senate Committee on 
Commerce, Science and Transportation (June, 1982). (4). A. L Bement, 
Jr., ``Views on the President's National Materials and Minerals Plan 
and Report to Congress,'' Testimony before the Schmitt Subcommittee on 
Science, Technology and Space of the Senate Committee on Commerce, 
Science and Transportation (June 22, 1982). (5). A. L. Bement, Jr., 
``The Economic Competitiveness, International Trade and Technology 
Development Act for 1987,'' Testimony before the Senate Committee on 
Government Affairs on Senate Bill 1233 (June 9, 1987). (6). A. L. 
Bement, Jr., ``Issues Related to the Development of 
Magneticallylevitated Transportation Systems Along the Federal Highway 
Rights of Way,'' Testimony before the Subcommittee on Water Resources, 
Transportation and Infrastructure, Washington, DC (October 24, 1988). 
(7) A. L. Bement, Jr., ``Authorization for the Appropriation for the 
Activities of the National Institute of Standards and Technology'', 
Testimony before the Subcommittee on Space, Science and Technology, 
U.S. House of Representatives, Washington, DC (March 8, 1989). (8). A. 
L. Bement, Jr., ``Department of Commerce Technology Programs,'' 
Testimony before the Subcommittee on Science, Research and Technology 
of the Committee of Science, Space and Technology, U.S. House of 
Representatives, Washington, DC (Feb. 6, 1990). (9). A. L. Bement, Jr., 
``The Trade and Technology Promotion Act of July, 1989,'' Testimony 
before the Committee on Government Affairs, U.S. Senate on Senate Bill 
S. 1978, Washington, DC (June 12, 1990). (10). A. L. Bement, Jr., 
``Findings and Recommendations of the Visiting Committee on Advanced 
Technology of the National Institute of Standards and Technology,'' 
Testimony before the Subcommittee on Science, Research and Technology, 
Committee on Science, Space and Technology, U.S. House of 
Representatives (Feb. 26, 1991). (11). A. L. Bement, Jr., ``On the 
Midwest Superconductivity Consortium,'' Testimony before the Energy and 
Water Development Subcommittee on Appropriations, Committee on 
Appropriations, U.S. House of Representatives (April 1, 1993). (12). A. 
L. Bement, Jr., ``On the Midwest Superconductivity Consortium,'' 
Testimony before the Energy and Water Development Subcommittee on 
Appropriations, Committee on Appropriations, U.S. House of 
Representatives (April 1, 1993). (13). A. L. Bement, Jr., ``On the 
Midwest Superconductivity Consortium,'' Testimony before the Energy and 
Water Development Subcommittee on Appropriations, U.S. House of 
Representatives (April 11, 1994). (14). A. L. Bement, Jr., ``On the 
Midwest Superconductivity Consortium,'' Testimony before the Energy and 
Water Development Subcommittee on Appropriations, U.S. House of 
Representatives (March 28, 1995). (15). A. L. Bement, Jr., ``On H.R. 
1756, the Department of Commerce Dismantling Act,'' Testimony submitted 
for record to the Committee on Science, U.S. House of Representatives 
(September 12, 1995). (16). A. L. Bement, Jr., ``On the Midwest 
Superconductivity Consortium,'' Testimony before the Energy and Water 
Development Subcommittee on Appropriations, U.S. House of 
Representatives (February 29, 1996). (17). A. L. Bement, Jr., ``On the 
Midwest Superconductivity Consortium,'' Testimony before the Energy and 
Water Development Subcommittee on Appropriations, U.S. House of 
Representatives (March 31, 1997).
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    ``Guidelines for Innovation: The Role of Research and Development 
Policy,'' presented at the Workshop on Germany and the United States--
Partners in Science and Technology, Konrad Adenauer Foundation, Berlin, 
July 17, 2000.
    ``One Hundred years of Excellence and Still Improving . . . A View 
from the Outside,'' presented at the NIST Centennial Symposium, 
Gaithersburg, Maryland, March 5, 2001.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I believe it was because of my performance 
record in technology and research leadership positions with government, 
industry and academia and my extensive networking with high-ranking 
leaders in all three sectors. (b) What do you believe in your 
background or employment experience affirmatively qualifies you for 
this particular appointment? I believe that my experience in research 
and leadership positions in industry, government, and academia along 
with my long-term service to the scientific and engineering communities 
at large qualify me for this position.

                   B. Future Employment Relationships

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business form, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you. leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. Potential Conflicts of Interest

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    <bullet> Deferred board fee compensation, Keithley Instruments, 
Inc.
    <bullet> Consulting agreement, Howmet Research Company
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    <bullet> Stock ownership in street name with: Keithley Instruments, 
Inc.; Lord Corporation; Sprint PCS; Sprint FON; Alltel, and Oryx 
Technologies.
    <bullet> Stock options with Keithley Instruments, Inc.
    <bullet> Stock loans with Lord Corporation.
    <bullet> Loan from Raymond James & Assoc. Financial Services 
(Regulation T margin loan secured by Keithley Instruments, Inc. stock).
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your response to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
consult with ethics officials and take any actions required by my 
ethics agreement or advised by legal counsel.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or ant impediments to your serving in this 
position? Yes.

                            D. Legal Matters

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or any other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you any business of which you are or were an officer ever 
been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. I believe I have led my life 
respecting the law.

                     E. Relationship With Committee

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the law passed by Congress. It is 
my understanding that NIST seeks legal counsel relative to federal from 
the Department of Commerce and Congressional staff members to 
understand the intent and spirit of laws passed by the Congress. I will 
establish a policy of meeting frequently with appropriate Congressional 
staff members to obtain interpretations of the law as they apply to 
Department regulations.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The mission of the National 
Institute of Standards and Technology is to develop and promote 
measurements and standards and advanced technologies that enhance 
productivity and quality, facilitate trade, and contribute to the 
economic well being of the nation.
    The major programs and operational objectives at NIST are the 
following:
    <bullet> Provide U.S. private and public sectors with measurements, 
standards, and information services that increase competitiveness and 
facilitate trade.
    <bullet> Conduct long-term research in measurement science and 
develop and promulgate standards and standard reference data for 
electronics and electricity, chemical science and technology, and 
materials science and engineering.
    <bullet> Demonstrate evaluation techniques, testing methods and 
standards to enable U.S. industry to use interoperable products for 
information technology.
    <bullet> Develop interfaces, recommended practices, and associated 
technology to the manufacturing industries.
    <bullet> Provide laboratory assistance in the increased usefulness, 
safety and economy of buildings and the prediction, prevention, 
measurement, and control of fires.
    <bullet> Provide assistance to industry and to other public benefit 
organizations in the development of technology and procedures to 
improve U.S. quality and competitiveness through the National Quality 
Program.
    <bullet> Work with the Secretary, Deputy Secretary and Under 
Secretary for Technology to make the Advanced Technology Program 
stronger and more sustainable.
    <bullet> Develop as a joint venture with State and local 
governments technical assistance with smaller U.S. manufacturers to 
strengthen their global competitiveness through the Manufacturing 
Extension Program.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you maybe 
reasonably requested to do so? Yes.

                  F. General Qualifications and Views

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? I 
believe the following factors are salient:
    <bullet> Senior R&D and technology leadership positions in 
industry, academia, and government.
    <bullet> Business experience in directing high-technology 
companies.
    <bullet> Experience in technology policy development and execution 
in the Department of Defense, Department of Commerce, NASA, and the 
Congress.
    <bullet> A record of research achievements leading to membership in 
the National Academy of Engineering and membership on the National 
Science Board.
    <bullet> Extensive advisory committee experience with NIST to 
include the statutory Visiting Committee for Advanced Technology 
(chair), the Board of Overseers for the Malcolm Baldrige National 
Quality Award Program, and the Advanced Technology Program Advisory 
Committee (chair).
    <bullet> Research contributions in the field of materials science 
and engineering.
    <bullet> A breadth of exposure to emerging technology developments 
and basic research at national laboratories, universities and industry 
leading to an understanding of what constitutes outstanding research 
and research performance.
    2. Why do you wish to serve in the position for which you have been 
nominated? I am strongly committed to the mission of NIST. I believe 
that its continued strength in performing its mission is essential for 
the economic and technological welfare of the nation and the continuing 
ability of U.S. industry to effectively compete in global markets. It 
is an institution with a strong research culture, high ethical 
standards, and a tradition of outstanding accomplishments. I believe it 
deserves the very best of my effort, experience, and abilities. 
Finally, I wish to complete my career in public service.
    3. What goals have you established for your first two years in this 
position, if confirmed? The principal goals would be the following:
    <bullet> Establish strategic planning tools across NIST that would 
better align NIST's strategic vision and goals with national needs and 
priorities.
    <bullet> Provide good stewardship for NIST facilities to achieve 
optimal utilization.
    <bullet> Establish a more proactive NIST involvement with 
international standards developments.
    <bullet> Work with the Secretary, Deputy Secretary, the Under 
Secretary for Technology and the Congress to develop a more stable, 
sustainable Advanced Technology Program
    <bullet> Continue to build on NIST's traditions and culture to help 
NIST provide the greatest return to the nation through excellence in 
science and technology.
    <bullet> Find more effective means to communicate with industry and 
government decision makers about the important contributions that NIST 
makes to industrial and technological developments and the economic 
well-being of the nation.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain these skills? I believe I have strong skills and 
experience in the key areas needed to provide leadership for NIST, 
including management of personnel, finances, technical programs, and 
planning processes. To lead NIST as effectively as possible, I will 
focus on supplementing my background with the following actions:
    <bullet> Refreshing my knowledge of federal policies and 
regulations governing management of personnel, facilities, and 
finances.
    <bullet> Becoming familiar with the specific budgeting processes at 
NIST, the DOC, and the OMB.
    <bullet> Establishing effective relationships with the Office of 
the Inspector General and Legal Counsel.
    <bullet> Improving my understanding of the U.S. voluntary standard 
setting processes and organizations and of how the U.S. system and 
international systems interact.
    5. Who are the stakeholders in the work of this agency? Direct 
stakeholders include:
    <bullet> Industry and academic users of NIST measurements and 
standards, including purchasers of more than 38,000 NIST standard 
reference materials annually.
    <bullet> Industry, academic, and federal R&D organizations which 
benefit from NIST measurement research through more than 2,000 
peerreviewed technical publications annually, and through many other 
means of disseminating NIST research.
    <bullet> Industry and academic research projects receiving more ATP 
cofunding: More than 350 companies participating in more than 170 joint 
ventures, and including about 140 universities, with a total ATP 
investment of more than $1.6 billion since the program began about 10 
years ago.
    <bullet> U.S. smaller manufacturers served through more than 400 
Manufacturing Extension Partnership centers and offices in all 50 
states and Puerto Rico, providing direct business and technical 
assistance.
    <bullet> All types of companies and organizations that use 
the.Baldrige criteria for performance excellence. Different sets of 
criteria are optimized for business, health care organizations, and 
educational organizations. More than 2 million copies of the Baldrige 
criteria have been distributed, and quality programs based on the 
Baldrige principles are used throughout the U.S. and in many foreign 
nations.
    <bullet> Federal agencies with regulatory responsibilities that 
rely on NIST measurements and standards to fulfill their missions.
    <bullet> Federal agencies that rely on NIST information processing 
and information security standards, practices, and guidelines.
    <bullet> State weights and measures organizations that rely on NIST 
certification and training to fulfill their regulatory responsibilities 
for all types of legal measurement needs. Laws governing weights and 
measures affect more than half the U.S. GDP, or about $5 trillion per 
year.
    <bullet> National standards developing organizations that rely on 
NIST technical expertise and advice to develop voluntary consensus 
standards driven by the private sector to promote trade and ensure 
product quality and performance.
    <bullet> International standards developing organizations that work 
with NIST and U.S. standards developing organizations.
    <bullet> U.S. private sector and local government measurement and 
standards laboratories that are accredited through organizations 
cooperating with NIST.
    A key indirect stakeholder is the general public, which benefits 
from NIST measurements and standards that enable efficient 
manufacturing of products and delivery of services, that ensure fair 
commerce through accurate weights and measures, that underpin provision 
of quality health care, that increase public safety through structural 
and fire standards for buildings, and through many other NIST 
activities too numerous to list here.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number 5: Among 
these would be the following:
    <bullet> Communicate to all stakeholders the impacts and values of 
NIST programs, services and capabilities to their needs.
    <bullet> Solicit from stakeholders assessments of the impacts and 
values of NIST's products and services.
    <bullet> Involve stakeholders in charting the future vision and 
objectives of NIST and in identifying strengths, weaknesses, 
opportunities, and threats.
    <bullet> Maintain an open stance as a principal point of contact to 
respond to needs, issues or complaints.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls?
    <bullet> Provide the CFO with the talent and IT resources needed to 
perform his/her function at the highest possible level of performance.
    <bullet> Assure that Laboratory managers and unit heads are 
adequately trained in standard government accounting and financial 
management and reporting procedures.
    <bullet> Involve the CFO in all executive committees at NIST and in 
all strategic planning activities.
    <bullet> Consider establishing an audit and finance subcommittee of 
the Visiting Committee for Advanced Technology.
    <bullet> Assure a seamless relationship between department and NIST 
finance operations and policy development functions.
    <bullet> Assure that the Office of the IG has timely access to all 
requested financial information.
    (b) What experience do you have in managing a large organization? I 
have had responsible management positions with top organizations in 
indusrry, government and academia, to include General Electric Company, 
Battelle Memorial Institute, TRW, Inc., Defense Advanced Projects 
Agency, Office of the Secretary of Defense, MIT, and Purdue University. 
I have also had long-term corporate directorships with Keithley 
Instruments, Inc. and Lord Corporation. In these positions I have had 
extensive experience in personnel management; financial budgeting and 
control; strategic planning; R&D management; and technology transfer. 
Budget authorities have ranged from $3 million to approximately $3 
billion (DOD). A brief description of these management assignments is 
given in section A.9. in this questionnaire.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. These requirements establish a basis for 
managing by objectives and for being accountable for performing against 
these objectives. They also provide an opportunity to learn the 
practice of realistic goal setting and forward thinking. (b) What steps 
should Congress consider taking when an agency fails to achieve its 
performance goals? Should these steps include the elimination, 
privatization, downsizing or consolidation of departments and/or 
programs? The Congress should exercise its oversight authority to 
determine the root causes for failing to meet performance goals. 
Possible factors involved may be due to improper organizational 
structure, management system, or monitoring and control mechanisms, or 
incompetence. However, failures may also result if the agency is not 
provided sufficient human and financial resources to meet its 
performance goals, or if other external factors prevent the goals from 
being met. The corrective actions described in the question may be 
appropriate for some cases, but in other cases Congress may provide 
greater benefit to the nation by addressing external factors that 
prevent success of the agency. (c) What performance goals do you 
believe should be applicable to your personal performance, if 
confirmed? I should be held to the performance goals set by the 
Secretary, Deputy Secretary and Under Secretary for Technology and as 
specified by law and by the Congress. I should also be held accountable 
for accomplishing goals identified in GPRA reports and NIST planning 
documents. I should be held to the highest ethical standards applicable 
to anyone serving in the public's trust.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I have followed the 
following principles in supervisor/employee relationships:
    <bullet> Lead by example . . . don't expect what you would not be 
willing to do.
    <bullet> Set high standards but empower the individual to achieve 
his/her highest potential.
    <bullet> Delegate authority but hold the individual accountable for 
results.
    <bullet> Listening can pay premiums in understanding an 
individual's strengths and weaknesses. Build on the strengths and 
provide mentoring and training to overcome the weaknesses.
    <bullet> Celebrate achievements . . . psychic rewards can be as 
important as tangible rewards.
    <bullet> Be alert for opportunities that will motivate individuals 
to exceed their own expectations.
    <bullet> When setting tough goals be patient . . . individuals 
often arrive at innovative solutions on their own.
    No employee complaints have been brought against me throughout my 
career.
    10. Describe your working relationship, if any, with the 
Congress.Does your professional experience include working with 
committees of Congress? If yes, please describe. My working 
relationships with the Congress have been primarily to give testimony 
upon request. I have also recently discussed with staff members the 
2000 annual report of the Advanced Technology Program Advisory 
Committee. During the period 1980-1986 I served as a member of the 
Advisory Panel to the Congressional Task Force on Technology Policy, 
co-chaired by Congressmen McKay and Packard.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency? As a representative of the Congress, the IG is 
entitled to my full support. My responsibilities would include 
providing any information requested by the IG in a timely way; 
providing access to any personnel for fact finding; support any 
investigations required; and to take actions stipulated by the IG based 
on such investigations. It would also be my responsibility to assure 
that all personnel at NIST are informed of the functions and 
authorities of the IG.
    12. Please explain how you would work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I would 
work closely with the General Law Division of the Office of the 
Assistant General Counsel for Administration, Department of Commerce, 
to assure that such compliance is fulfilled.
    13. In the areas under department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    At this stage of my knowledge of critical needs, I can cite three 
legislative actions of high priority:
    <bullet> Spending authority to complete the equipping of the 
Advanced Measurements Laboratory,
    <bullet> Changes in the Authorizing Act for the Advanced Technology 
Program as requested by the Secretary of Commerce,
    <bullet> Budget authority to enable essential research facilities 
improvements at the Gaithersburg and Boulder sites.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If yes, please state what steps you intend to 
take and a time frame for their implementation. Yes, I pledge to do so. 
I am aware that criteria are already in place at NIST for the use of 
director's discretionary funds. I will assess the adequacy of these 
criteria at my first opportunity and modify them as required with the 
participation of NIST managers and key personnel. The NIST-wide 
strategic plan, identified as one of my priority initiatives, will 
address incentives to encourage cross unit interdisciplinary research 
initiatives and other such incentives that improve the responsiveness, 
productivity and quality of NIST activities. A first version of this 
plan should be developed, ready for vetting with NIST management and 
employees in fall 2002.

    Senator Wyden. We will have a number of those in a little 
bit.
    Mr. Bond, welcome.

STATEMENT OF PHILLIP J. BOND, NOMINEE TO BE UNDER SECRETARY FOR 
   THE TECHNOLOGY ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Bond. Thank you, Mr. Chairman, Members of the 
Committee. I, too, have a longer written statement. I will try 
to be brief in my remarks.
    I, of course, am honored and humbled to be here, honored by 
the kind words from the chair, and the full and flattering 
introduction from Senator Allen and also the statement by 
Senator Murray. I am humbled by the confidence placed in me by 
Secretary Evans, and President Bush to be nominated for the 
post of Under Secretary for Technology, and of course I am 
daily humbled byu the support from my wife and children, of 
whom I am very proud, and I am honored to share the witness 
table with an accomplished scientist like Dr. Marburger, and I 
will be sure to pass on your congratulations to the Nobel 
prize-winners at NIST.
    I would like to focus my remarks on my views about this 
particular post, and a little bit about my qualifications, such 
as they are, and of course look forward to any questions. First 
and foremost, I want to underscore my commitment to the notion 
of public service, and especially national service. I did leave 
a more financially rewarding post because I came to Washington, 
like Members of the Committee, to do good, not merely to do 
well. In the household in which I was raised, public service 
was a high calling. My father served as vice mayor of our town 
in California, part-time job, but a full-time commitment.
    Second, I am also committed to serving in this particular 
capacity within technology administration, because I know that 
Government plays an influential role in the development of new 
technology and its application to the opportunities and 
challenges that our Nation faces at this particular time.
    I believe and understand that a strong economy and a strong 
national defense are the twin pillars that support America's 
freedom, and more than ever, technology is vital to both of 
these strengths.
    Secretary Evans clearly wants Technology Administration to 
play a key role in advancing U.S. economy through continued 
technological leadership, as Senator Allen described, and I am 
proud to be asked to enlist in that cause. Clearly, as 
referenced by Dr. Marburger, the scientists at NIST and 
professionals within Technology Administration are doing 
outstanding and particularly relevant work, so I hope to 
benefit from working with all of them.
    As to experience, Senator Allen was kind and complete 
enough to mention the three things I bring to this job, 
background in information technology with both Hewlett-Packard 
and the Information Technology Industry Council, national 
security, working in two administrations in the Pentagon, and 
particularly honored to be the number 2 legislative advisor to 
then Secretary of Defense Dick Cheney at the end of the earlier 
Bush administration.
    Congressionally, I did serve as chief of staff to two 
Members, one of whom was in leadership, and so I understand and 
fully appreciate the crucial role of the legislative branch 
both in policy and budgetary matters.
    Finally, let me say that in light of the incredible 
challenges facing our Nation and its economy after September 
11, I pray that my background is a good fit for these difficult 
and present times.
    Again, thank you, Mr. Chairman, and thanks to the 
Committee, and I look forward to your questions.
    [The prepared statement of Mr. Bond follows:]

Prepared Statement of Phillip J. Bond, Nominee for Under Secretary for 
       the Technology Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today as the President's nominee for the position of Under 
Secretary for Technology. My wife, Diane, and daughters Jacqueline and 
Jessica are here with me today.
    I am deeply grateful to President Bush and Secretary Evans for the 
confidence they have shown in me, and their willingness to entrust me 
with a leadership position on issues that are of great and lasting 
importance to our Nation. I recognize the key role technology will play 
in our short-term and long-term responses to the despicable acts of 
September 11, and I am ready and resolute in my commitment to serve the 
country in this regard as Under Secretary for Technology. I am deeply 
committed to leading the Technology Administration because I know from 
experience that government plays an influential role in the development 
of new technology and its application to the opportunities and 
challenges our Nation faces.
    A strong economy and a strong national defense are the twin pillars 
supporting America's freedom, our world leadership, standard of living, 
and quality of life. More than ever before, technology is vital to 
these U.S. strengths.
    Rapid advances in technology, especially in information technology, 
have driven our country's remarkable economic performance for the past 
decade. Technological innovation has underpinned our strong economic 
growth, higher rates of investment, low inflation, high-wage job 
growth, low unemployment, and solid increases in productivity--the true 
path for producing higher standards of living. There can be little 
doubt that our technology producers and technology-intensive industries 
will lead the way in returning our Nation to a path of robust economic 
growth.
    There is every reason to believe that technology will continue to 
be a significant force in our economy and in the defense of our Nation 
in the years ahead. All around us we see the information technology 
revolution in progress--in national security and homeland defense, in 
communications, business and commerce, in how we educate and train our 
people, and in how we manage our personal lives. Biotechnology is 
poised to revolutionize agriculture and medicine. Cracking the human 
genetic code will one day bring promising new medicines and therapies 
to those who hope and pray for them. All this information is increasing 
exponentially, and combining with advances in computing and the advent 
of the Internet to give rise to a new era: the Information Age. It is 
an era of promise. Rapid advances in technology are transforming all of 
our human endeavors, creating the potential for a host of new global 
market opportunities, new and powerful ways to secure our nation, 
improvements in our standard of living, and a better quality of life.
    It is no accident that the United States leads the world in high 
technology, both civilian and defense. Our achievements are the 
dividends that flow from sustained public and private sector 
investments in research and development, coupled with America's 
entrepreneurial spirit and willingness to take risks. Today, the 
private sector plays the dominant role in the process of developing new 
technologies and bringing them to market. But the Federal Government 
plays a pivotal role in creating a climate that supports the private 
sector's efforts, and in investing in those basic areas of exploratory 
research and development upon which the private sector builds its own 
technology base.
    I believe the Technology Administration can continue to make vital 
contributions to our nation's technology base, and our national 
policies that support private sector technology development, 
commercialization, and competitiveness.
    Compared to our world of commerce for most of the 20th century, 
today we are operating in a radically different, and rapidly changing, 
business and technology environment. This era of change has vast 
implications for our national policies--ranging from R&D investment 
policies and regulations, to how we educate and train our people. The 
Technology Administration's Office of Technology Policy (OTP) has 
strong analytical capabilities, coupled with good working relationships 
with the private sector, that allows it to delve into the complex 
competitiveness and technology issues with which all policymakers 
grapple, and generate fresh insights and new policy paths for the 
country to explore.
    Our National Institute of Standards and Technology is a national 
jewel. It ensures that we have an up-to-date and world-class system of 
measurements and standards based upon some of the world's greatest 
scientific research. These measurements and standards have enabled 
advances in science, innovation, trade, and the public good. Its work 
continues to be as relevant as ever as we move to new technological 
frontiers such as nanotechnology.
    As Members of this Committee know, NIST has played a key role in 
U.S. counterterrorism and critical infrastructure protection. NIST has 
provided standards for the dose in x-ray security machines and for 
biometric identification, a promising security technology. NIST 
research has focused on standards for the detection of chemical and 
radiological weapons, and new methods of detecting concealed weapons at 
a distance. It has tested search and rescue robots, and helped in the 
retrieval of information from damaged and erased flight recorders. If 
confirmed, I plan to strengthen NIST's role by promoting its cutting 
edge work within the policy councils of the Administration, and 
throughout industry.
    I believe my skills and experience are well suited to leading the 
Technology Administration in carrying out its missions. I have a great 
appreciation for the capabilities of our high-tech industries, a deep 
understanding of the opportunities and challenges before them, and how 
public policies affect their ability to grow and compete. As the 
Director for Federal Public Policy at the Hewlett-Packard Company, and 
as the Senior Vice President for Government Affairs and Treasurer for 
the Information Technology Industry Council, I led efforts addressing 
the growing role of information technology in our economy, market 
opening initiatives, the protection of the Internet, e-commerce, and 
intellectual property protection. It was a pleasure working with the 
Administration and Congressional policymakers to further the 
understanding of the positive implications of a networked, digital 
world. This work also afforded me the opportunity to develop strong 
relationships with some of this nation's best and brightest high-tech 
companies that are leading the global technology revolution. If 
confirmed, I will work to strengthen the government's relationship with 
high-tech industries for the benefit of our economy and security.
    If confirmed, I would also bring national security knowledge and 
experience to the job. For example, among my work at the Defense 
Department, I was privileged to serve as Principal Deputy Assistant 
Secretary of Defense for Legislative Affairs for Vice President Cheney 
when he was Secretary of Defense. In that capacity, I provided policy 
advice and guidance on a wide range of national security issues. I 
believe my experience in the national security arena will bring a new 
and important dimension to the Technology Administration's work at this 
critical juncture in our nation's history.
    Importantly, if confirmed, I will also bring a Capitol Hill 
perspective to the job. I was privileged to serve as Chief of Staff to 
both Congresswoman Jennifer Dunn and Congressman Bob McEwen. It is my 
hope that I will have the opportunity to use the experience I gained in 
these jobs to build stronger relationships between the Commerce 
Department and the Congress in the pursuit of our common goals for the 
economy, our technology base, and our national security.
    Mr. Chairman, it is my firm conviction that the Technology 
Administration can contribute much to our economic and national 
security. I have found that its career policy analysts, scientists and 
engineers, and technical and support professionals are talented, 
creative, and committed deeply to their mission. If confirmed, it would 
be an honor to lead this group of dedicated public servants.
    Thank you for considering my nomination, and giving me the 
opportunity to appear before you today. I will be happy to answer 
questions you may have.

                                 ______
                                 
                      A. Biographical Information

    1. Name (include any former names or nick names used.): Phillip J. 
Bond.
    2. Position to which nominated: Under Secretary of Commerce for 
Technology.
    3. Date of nomination: September 4, 2001.
    4. Address: (List current place of residence and office addresses.) 
Residence: Not released to public. Office: Department of Commerce, 14th 
Street NW & Constitution, Washington, DC 20230.
    5. Date and place of birth: October 15, 1956; Compton, California.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married to the former Diane Auth since July 1989.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Jacqueline Bond, age 9; Jessica, Bond, age 7.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Petaluma High 
School, Petaluma, CA; attended 1971-74; high school degree (1974) 
Linfield College, McMinnville, OR; attended 1974-78; B.A. in 
Communications (1978).
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.) August 1978-January 1979: Account Assistant 
(Public Relations), The Rockey Company, Portland, OR; January 1979-
September 1981: Account Executive (Public Relations), The Rockey 
Company, Seattle, WA; September 1981-March 1983: Public Relations 
Manager, Rainier Bancorporation, Seattle, WA; March 1983-September 
1985: Assistant to the Chairman, Rainier Bancorporation, Seattle, WA; 
September 1985-September 1986: Federal Government Relations Manager, 
Rainier Bancorporation, Seattle, WA; September 1986-April 1987: 
Assistant to the President (non-profit advocacy), American Security 
Council, Boston, VA; July 1987-July 1990: Special Assistant to the 
Assistant Secretary of Defense (Legislative Affairs), Department of 
Defense, The Pentagon, Washington, DC; July 1990-July 1992: Chief of 
Staff, U.S. Rep. Bob McEwen, Washington, DC; July 1992-January 1993: 
Principal Deputy Assistant Secretary of Defense (Legislative Affairs), 
Department of Defense, The Pentagon, Washington, DC; January 1993-March 
1998: Chief of Staff, U.S. Rep. Jennifer Dunn, Washington, DC; March 
1998-February 2001: Senior Vice President and Treasurer (trade 
association executive), Information Technology Industry Council, 
Washington, DC; February 2001-August 2001: Director of Federal Public 
Policy, Hewlett-Packard Company, Washington, DC; August 2001-present: 
Senior Advisor to the Secretary. (consultant), Department of Commerce, 
Washington, DC.
    10. Government experience: (List any advisory, consultative, 
honorary or other parttime service or positions with Federal, State, or 
local governments, other than those listed above.)None beyond those 
listed in .answer to question number nine.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) I served as 
director of Federal public policy for the Hewlett-Packard Company of 
Palo Alto, CA for six months in 2001. I served for three years (1998-
2001) as an officer of the Information Technology Industry Council, a 
Washington, DC-based trade association. I was initially a Vice 
President, later serving as Senior Vice President and Treasurer of the 
organization. From May through July of 2000 I served on the board of a 
filtered ISP based in Minneapolis by the name of Lightdog.com, 
receiving no compensation of any kind.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Member, Army-Navy Club of Washington, DC, May-
August 2001. Member of the non-fiduciary Board of Associates of the 
Emmanuel School of Religion of Johnson City, TN. Member of McLean Bible 
Church, McLean, VA.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. I was a Republican nominee for the 
office of State Representative in Washington state's 46th district in 
1984. (b). List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years. I have held no offices in any political campaigns over 
the past 10 years. (c) Itemize all political contributions to any 
individual, campaign organization, political party, political action 
committee, or similar entity of $500 or more for the past 10 years.
    Itemized political contributions in excess of $500 over the past 10 
years are as follows: 2001: None. 2000: Bush-Cheney 2000 Compliance 
Committee ($500); National Republican Congressional Committee ($500); 
Dooley for Congress ($1,250); The Washington Fund (Rep. Dunn) ($500); 
Lazio 2000 ($500). 1999: Friends of Jennifer Dunn ($500); Abraham 
Senate 2000 ($500); American Success PAC (Rep. Dreier) ($1,000). 1998: 
Citizens for Kasich ($500). 1991-1998: None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) I 
was presented an Outstanding Public Service medal by the Secretary of 
Defense in January of 1993.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None which were done from anything beyond notes or for which 
I have copies.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I was recommended by the Secretary of 
Commerce to the White House personnel office based upon my experience 
working with the leading IT companies. (b) What do you believe in your 
background or employment experience affirmatively qualifies you for 
this particular appointment? I have a mix of experience in government 
and the private sector that the Secretary of Commerce felt were 
appropriate to the job: legislative and executive experience at senior 
levels, policy development and Congressional relations on behalf of the 
IT industry through a major trade association, and more recent 
selection to head the federal policy efforts of one of the world's 
premier technology companies.

                   B. Future Employment Relationships

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. Potential Conflicts of Interest

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. The only continuing dealings I have are 
represented by continued participation in two 401 (k) programs from 
past employment. I participate in, but make no further contributions 
toward, a 401 (k) program sponsored by the Hewlett-Packard Company of 
Palo Alto, CA. Similarly, I participate in, but make no further 
contributions toward, a 401 (k) program sponsored by the Information 
Technology Industry Council, a Washington, DC-based trade association.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. At the 
Information Technology Industry Council and as the director of federal 
public policy for Hewlett-Packard, I worked to influence a wide variety 
of legislative and executive actions on technology, trade and education 
matters. I also worked on the staff of two House members, and for the 
Assistant Secretary of Defense (Legislative Affairs).
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
endeavor to immediately eliminate any potential conflict of interest 
working in close coordination with the Ethics Division of the Commerce 
Department's Office of the General Counsel. Attached to this 
questionnaire is the Ethics Agreement I signed after consulting with 
that office. I will seek counsel from that office in the event any 
questions arise to seek their advice on how to avoid any potential 
conflicts of interest. I intend to follow the guidance of the 
Department's counsels.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. Legal Matters

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. I have not.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. I have not.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? I have not. The 
Hewlett-Packard Company was involved in many proceedings in conjunction 
with its global business during my stint with the company. None of 
these proceedings involved me specifically or related to any of my 
actions at the company.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? I have not.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. Relationship with Committee

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. It 
is my understanding that the Technology Administration does not 
presently anticipate any major revision to its existing regulations and 
does not plan to initiate any new major rule-making. Should new laws 
passed by the Congress require the development of a new regulation on 
any matter, I would direct that the draft regulation be reviewed by 
appropriate officials within the Technology Administration to ensure 
that it takes into account the clear wording of the law, as well as any 
legislative history included in Committee Reports. As required by the 
Administrative Procedures Act the Technology Administration would use a 
public comment process in the Federal Register, and public workshops as 
appropriate, to obtain the views of other stakeholders. My objective 
would be to ensure that such regulations fully comply with the spirit 
of the laws passed by Congress.
    The Technology Administration (TA) is not a regulatory agency, and 
enters to rulemaking activities infrequently. With the exception of one 
regulation which establishes safety marking requirements for toy guns, 
the Technology Administration has promulgated no regulations of general 
effect on the public. Rather, regulations promulgated by TA fall into 
the two following categories:
    <bullet> Regulations which establish operating procedures for TA 
programs, including the Advanced Technology Program (ATP) (see 15 CFR 
Part 295); the Manufacturing Extension Program (MEP) (see 15 CFR Part 
290); the National Voluntary Laboratory Accreditation Program (NVLAP) 
(see 15 CFR Part 285) and others, all of which exist at the National 
Institute of Standards and Technology within TA; and
    <bullet> Regulations which address the internal operation of the 
Federal government on matters such as ``Rights to Inventions Made by 
Nonprofit Organizations and Small Business Firms Under Government 
Grants'' (see 37 CFR Part 401); ``Licensing of Government Owned 
Inventions'' (see 37 CFR Part 404); and a ``Uniform Patent Policy for 
Rights in Inventions Made by Government Employees'' (see 37 CFR Part 
501).
    Absent a change in law, I do not now anticipate any major change to 
these regulations.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The collective mission of 
Technology Administration is to work with US commercial interests to 
maximize technological contributions to US economic growth and 
productivity through: the development and promotion of federal 
technology policies that promote innovation; improving the national 
technological infrastructure; fostering the development and adoption of 
new technologies; and disseminating technical information needed by 
innovators.
    The major programs within the bureau include the National Institute 
of Standards and Technology (NIST), the Office of Technology Policy 
(OTP), the Office of Space Commercialization (OCS), the National 
Technical Information Service (NTIS), and the Partnership for a New 
Generation of Vehicles (PNGV).
    Major operational objectives include: effective advocacy on behalf 
of US technology, air and space commercial interests in national and 
international fora; development of Federal policies that will maintain 
America's global competitiveness in technology; fostering and promoting 
effective federal investment in research and development and technology 
transfer; development of relevant technical standards for US commercial 
advancement; representing US commercial interests in the crafting of 
bilateral and multilateral science and technology agreements; analysis 
to identify opportunities for the advancement of US manufacturing, 
productivity and innovation; and serve as the Departmental focal point 
for initiatives to position and strengthen the US workforce for an 
information and technology-based economy.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. General Qualifications and Views

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? My 
past experiences have provided me with an understanding of how Federal 
policy is formulated and executed. My experience in working with major 
IT companies, in particular, has given me an appreciation for the 
fundamental shift taking place in the US economy as we move into what 
is often referred to as the Information Age. The reach and impact of 
new technologies is advancing exponentially and causing industries to 
converge. My experience has taught me to appreciate that the policy 
opportunities of technology are often accompanied by public policy 
opportunities.
    2. Why do you wish to serve in the position for which you have been 
nominated? First and foremost, I was raised to believe that public 
service is a very high calling. Further, I believe that American 
quality of life for the next generation hangs in the balance. If we 
achieve smart policy that keeps America competitive in technology, 
there will be a very positive impact on the lives of Americans in terms 
of employment and other opportunities. If policies stymie American 
innovation and technological competitiveness, then people will lose 
jobs and other opportunities. I would like to make a contribution 
toward a positive outcome.
    3. What goals have you established for your first two years in this 
position, if confirmed? First, to more firmly establish the Commerce 
Department's Technology Administration as an effective advocate for US 
technology interests in both international and domestic policy 
considerations. Second, to become a more effective partner with the 
Congress in the development of good technology policy. Third, to 
advance the development of the US workforce to fit the needs of an 
increasingly technology-reliant economy.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I desire to sharpen my understanding of 
other scientific and technological developments beyond information 
technologies, and also to better understand the intricacies of 
technology transfer. I will endeavor to achieve that by turning to the 
vast expertise that resides within NIST, one of the world's pre-eminent 
centers of research and development. Other steps that can be taken 
include better outreach by the Commerce Department to the vast array of 
private sector R&D facilities.
    5. Who are the stakeholders in the work of this agency? Beyond the 
American taxpayer for whom we ultimately strive, there are other 
critically important communities included among TA stakeholders: the 
Congress, especially the Commerce Committees; the US science community; 
the US IT and biotech sectors; the American space industry; and the US 
automotive industry are among those communities relying on work done by 
TA.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. If 
honored with confirmation, my job would be to communicate effectively 
with the stakeholders to ensure mutual understanding of information and 
policy needs.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? My 
responsibility would be to review all the controls and policies 
presently in use to assess their effectiveness. Further, my 
responsibility will include making sure that appropriate policies are 
in place and periodically checked to ensure adherence. (b) What 
experience do you have in managing a large organization? As the 
principal deputy assistant secretary of defense for legislative 
affairs, I directly managed a significant staff of career military 
officers and civilian staff. In that same capacity, I was responsible 
for a degree of management for each of the service legislative affairs 
functions. This experience extended to procurement, personnel 
management, and budget oversight.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. What is measured gets done. The only way to 
achieve a measurable output is to first clearly establish goals and a 
deadline for reporting progress toward those goals. The review of 
progress, or lack thereof, helps to identify success and/or uncovers 
shortcomings. (b) What steps should Congress consider taking when an 
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing or consolidation of 
departments and/or programs? In my view, when an agency fails to 
achieve its performance goals, Congress should at least consider 
virtually all of the options listed above. First, it should review the 
performance goals to ensure that they are appropriate and realistic. 
Next, it should review the criticality of the agency mission and goals. 
Assuming that the mission is critical, Congress should work with the 
executive to improve performance on behalf of the taxpayer. (c) What 
performance goals do you believe should be applicable to your personal 
performance, if confirmed? If confirmed, I would expect to work out 
specific performance goals and measurement milestones with the 
Secretary of Commerce or his designee to move TA forward in a manner 
consistent with the Secretary's overall objectives. I would expect my 
performance to be assessed on progress made toward those goals.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in a model 
based upon trust and delegation. This requires a clearly stated and 
shared vision, performance goals and milestones for measurement. At 
that point, I believe people are most productive when empowered with 
responsibility. I have never had an employee complaint brought against 
me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. As a lobbyist for Hewlett-Packard, 
as an association lobbyist, and as a Defense Department official, I 
have worked extensively with Committees of Congress and their staffs. 
These experiences have included preparations for hearings and 
testimony, fact-finding missions for staff and Members, technology 
demonstrations, report preparation, policy briefings and industry 
outreach.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency? The IG's critical role in an executive agency 
requires respect and cooperation from senior executives within the 
agencies. I will certainly be respectful of the IG's authority and 
mission, and look forward to instilling that same view in all the 
employees of Technology Administration should I be confirmed.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. The 
Technology Administration (TA) is not a regulatory agency, and enters 
to rulemaking activities infrequently. Absent a change in law, I do not 
now anticipate any major change to that status. However, should that 
occur, I would instruct appropriate staff to ensure, through study of 
the legislative record and direct communications with the professional 
staff of appropriate committees, that the draft regulations were 
consistent with the intent of Congress. Other stakeholders would have 
an opportunity to comment as described above in question #4 of section 
E.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. My views closely track those of the 
Secretary and the President. I believe that since the technology sector 
is critical to America's economic success in the future, that we need 
to craft policies that help facilitate the infrastructure for 
innovation. That would include:
    <bullet> pro-trade policies such as Trade Promotion Authority and 
updating of the Export Administration Act since most US technology is 
export-dependent;
    <bullet> extending the R&D tax credit to encourage private sector 
innovation;
    <bullet> robust funding for federal R&D, as the President has 
recommended, to do basic research that can give rise to technology 
transfers;
    <bullet> emphasizing and encouraging math and science excellence at 
all levels;
    <bullet> authorizing substantial investment in e-government to make 
government more accessible and efficient;
    <bullet> working with the Administration and industry stakeholders 
to stimulate broadband rollout so that people can receive greater 
services via the Internet;
    <bullet> working with the Administration and industry stakeholders 
to make spectrum available for 3G so that we do not fall irretrievably 
behind global competition.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. Yes. I will review the procedures currently in place to 
determine their adequacy. If those procedures are not open and or the 
criteria are not well established, I will move immediately to rectify 
that situation.

    Senator Wyden. Very good. Thank you, Mr. Bond, and we will 
just go with each Senator taking 10 minutes or so on the first 
round, and then I expect we will have several rounds this 
afternoon because of the importance of these issues.
    Let me turn first to this question of combatting terrorism. 
Dr. Marburger, I think you heard me say in my opening statement 
that I found very troubling that section of the General 
Accounting Office report recently that dealt with the lack of 
coordination among science agencies in conducting 
counterterrorism research.
    Specifically what they said was that the Coast Guard was 
conducting research on detection of chemical attacks on cruise 
ships, and the Coast Guard did not know of virtually identical 
research being conducted by the Defense Department. I think it 
is very clear that one of the keys for you and for Tom Ridge in 
the days ahead is to make sure that the left hand and the right 
hand are having a conversation, because it is integral that 
this research be done.
    I cannot conceive that a Member of the U.S. Senate would 
not support this research, but it is going to undermine our 
ability to get this work done if the General Accounting Office 
comes back 2 years hence and says, ``Well, as a result of the 
September 11 tragedy, there was an effort to beef up the 
Government's work with respect to chemical attacks on these 
defense installations, but again two agencies were heading off 
without making any efforts to coordinate''.
    What do you see your role specifically being to prevent 
this kind of duplication that the General Accounting Office 
talked about in the new report?
    Dr. Marburger. Senator, the Office of Science and 
Technology Policy was created specifically to provide this kind 
of coordination, and I would accept it as my responsibility to 
convene cross-cutting committees. Many such committees already 
exist, as you probably know, chaired by Office of Science and 
Technology Policy staff and others appointed by the President.
    The issue of coordination in this changed environment is 
extremely important, I agree with you completely. There are 
many programs of research and development in science and 
technology that bear on homeland security, and in this changed 
circumstance I believe that it is necessary to look again at 
these programs from this new point of view and attempt to 
discover parallels and aspects of research that can be done in 
a coordinated way. This was clearly the responsibility of OSTP, 
and I look forward to implementing it with your assistance.
    There are sometimes rather invisible ways in which research 
and development activities can support each other, and it is 
not always a simple thing to disentangle those, but I believe 
in this critical time that increased communication among 
agencies is absolutely necessary.
    Senator Wyden. In a situation like this, would it not make 
sense, before everybody goes off and does their own research, 
to essentially have a policy where the administration in 
concert with the Congress says, ``This is an area we want to 
fund, and these are the people we want to have do it'', and we 
not just sort of get involved after the fact?
    What has troubled me is that it seems like we are always 
playing catch-up ball in trying to eliminate duplication and 
the lack of coordination, and so the General Accounting Office 
comes out and offers this report, and it is troubling Senator 
Allen and myself and Members of Congress, and here you are, you 
are just coming in. This did not happen on your watch, and we 
ask you a question, and you say, ``By God, Senators Wyden and 
Allen, we are going to go out and do better coordination''.
    I think what I would like to see on your watch is 
essentially an approach that would be preventive in nature, and 
that you, in concert with Mr. Ridge and the relevant officials, 
work with Senator Allen and myself and other Members of the 
Senate and say, ``This is what we think needs to be done, and 
you Members of the U.S. Senate, you have got to just walk the 
walk in addition to talking the talk and give us the money'', 
but once we do, then we can hold accountable the people who are 
charged with the responsibility, and we do not just keep 
repeating these instances where the research it is done, it is 
duplicative, the General Accounting Office issues a critical 
report, and then you have got to come in here and have a bunch 
of Members of the Senate carp at you.
    Dr. Marburger. I agree completely, Senator, and I will do 
my best.
    Senator Wyden. The previous administration--President 
Clinton wrote a paper that I found very interesting. It was 
called, National Security, Science and Technology Strategy. Are 
you familiar with that document?
    Dr. Marburger. Somewhat.
    Senator Wyden. In it, they basically tried to lay out, I 
think, an approach that says there are some issues with respect 
to science policy that are essentially national security 
questions with respect to science. Some of them come to mind, 
obviously, like dual use of technologies and the like, and that 
is separate from what is considered science that would be 
totally divorced from terrorism and national security issues.
    Do you share this view of the previous administration that 
there is really a discipline that ought to be appropriately 
called national security science, and if not, what would be 
your differences from the Clinton administration, that this 
document seems to have invested a considerable amount of effort 
and research to articulating this policy?
    Dr. Marburger. I can only answer very generally at this 
point, Senator. I do believe that science and technology are 
not now pervasive in many, many activities of society. It is 
very difficult for us to know in advance what aspects of 
technology a terrorist will exploit in waging and perpetrating 
these atrocities, and so it is difficult to distinguish between 
science and technology development that could be applied by a 
terrorist and an imaginative person willing to die and disrupt 
society and other very, very pure basic science that would have 
no applications, so these are difficult questions, and they 
really require analysis from the points of view of the several 
agencies that are responsible for carrying out the R&D and for 
carrying out the missions, whether they be security or 
enhancing commerce or environment.
    So this is the type of activity that OSTP does engage in, 
where we bring together representatives from the diverse 
agencies and work over problems of this nature, and try to 
produce reports that give criteria for dealing with the dual 
use issue, for example, which is a very serious issue, but not 
a simple one.
    Senator Wyden. In this area, because you were not put on 
notice when we got together that this is something I was going 
to ask about, why do you not take the time to look at this 
particular paper and give me in writing your analysis of it, 
and particularly areas where you might disagree.
    I think it is a provocative paper, and the notion that 
there really is a discipline known as national security science 
strikes me as an intriguing one. I mean, clearly an investment 
in science and technology is absolutely key to military 
preparedness. That would be another example that would come to 
mind, and I would like you to look at that paper. Could you do 
that over the next few weeks?
    Dr. Marburger. Absolutely. I would be delighted to.
    Senator Wyden. Very good.
    Let me turn now to this question of the response to 
September 11 from the standpoint of technology. On September 
11, as you know, wireless access was suspended. Wireless 
Internet access was suspended. Telephone service was cut. 
People would call and say, ``We are walking the streets as if 
we were in an undeveloped Nation, looking for our relatives'', 
and people were posting pictures and signs all over New York 
City.
    I mean, it struck me, for example, that if medical 
authorities and medical personnel had put a GPS bracelet on 
people right at the outset, that would have been a chance, for 
example, to use technology in a very modest sort of way to 
prevent some of the frustration that families and loved ones 
were facing, and I think there is an opportunity here to do a 
significantly better job in terms of mobilizing the brains and 
the talent and the energy in the private sector to both prevent 
these kinds of tragedies, and second, to move quickly by way of 
the first response to deal with them, and this Subcommittee is 
going to look at this.
    Senator Allen has been very interested in this, and by the 
way, we do not see this as setting up some big Government kind 
of program. I mean, if you have something which resembled a 
technology version of the National Guard, where you had at the 
ready the brains and the equipment and the talent and a 
clearinghouse where people could go to get this assistance, I 
think we could make vastly better use of all of this energy and 
creativity in the private sector, and I would like to know at 
the outset what you think about coordinating a better approach 
between the Government and the private sector to both 
preventing these problems and moving to respond when you have 
them.
    Dr. Marburger. Well, Senator, first of all, I believe the 
organization that Governor Ridge will be putting together will 
have some of those responsibilities. There is nothing like a 
real incident to drive, to learn lessons from, and there is no 
question that we are going to learn a lot about emergency 
response as we look at the events following this atrocity on 
September 11.
    Of course, when infrastructure is destroyed, communication 
is disrupted in some respects. We do attempt to foresee the 
nature of infrastructure destruction in our planning processes, 
but it is inevitable that there will be some chaos. This is, of 
course, the intent of terrorism, but I certainly agree that 
there are lessons to be learned here, and I plan to cooperate 
with the Office of Homeland Security to try to learn those 
lessons and pore over the record of events, and try to identify 
opportunities to do a better job in the future.
    Of course, concerns about terrorism and terrorist 
incidents, and the possible disruption of society, have been 
with us for sometime, long before September 11, and there has 
been a good deal of planning. There are organizations and 
cross-cutting committees that have been set up to study these 
things. Vice President Cheney himself requested prior to the 
incidents of September 11 that such an exercise be done, but 
now I think we are looking reality in the eye, and we need to 
get very serious about being really prepared for the next one.
    Senator Wyden. Let me give you a handful of ideas that the 
high technology companies gave to me yesterday at home in 
Portland, because I had a session with Intel and IBM and many 
of the technology leaders, the wireless firms and others, and 
here are some suggestions they gave me, and I would be curious 
about your reaction to them.
    They talked about the need for improvements in wireless 
policy to deal with emergencies.
    They talked about the need for better coordination of 
existing data networks so there would be a way to communicate 
in the time of an emergency.
    They talked about the idea of a clearinghouse, a one-stop 
process to access people and equipment, where people could go 
to get the brains and the equipment to deal with an emergency, 
and the frustration that they found when that was not 
available.
    They talked about the need for simulating drills to test 
the various IT systems.
    They talked about the heed for ways in which high-tech 
companies could share information, share information about 
their various services without running afoul of the antitrust 
laws, and there are some real legal questions with respect to 
how they do that.
    Do you disagree with those kinds of issues? Would these be 
the kinds of issues that you would zero in on as our science 
policy leader, and my reason for asking is not that you 
subscribe to every detail, but we have, as Senator Allen--I 
think it is fair to say Virginia and Oregon are in the lead 
nationally in terms of technology policy.
    We had really some of the premier technology executives 
spend a couple of hours with me yesterday to talk about some of 
these ideas, and these were some of their suggestions, and I 
think it would send a real message if you as the Science 
Advisor said, ``These are the kinds of things I want to work 
on'', or maybe, ``I want to work on this'', and something else 
is more important. Maybe there are things that you think make 
sense in addition, but I would be curious as to your response 
to that.
    Dr. Marburger. Absolutely. These are the kinds of ideas 
that I am hearing as well. These are the kinds of ideas that I 
think many people are bringing forward. They need to be 
evaluated. Of course, the devil is in the details. They sound 
like good ideas to me, and we need to take a look at exactly 
what the obstacles might be to implementing them in detail, and 
that is something that we are charged to do at OSTP.
    Also, some of the industry leaders that you mentioned are 
associated, or will be associated with PCAST, the President's 
Council of Advisors in Science and Technology, and I do expect 
that body, when it gets going, will have an important role in 
precisely these issues. There has been an executive order 
reestablishing PCAST for 2 years, and I look forward to seeing 
it get going. It is this kind of thing that we can cooperate 
closely with Commerce on, and the subject area and the type of 
suggestions that those gentlemen made to you are right on 
target. They are certainly in the ballpark of things we need to 
be looking at.
    Senator Wyden. Very good. I have just one other area I want 
to talk about with you on this first round, and then I am going 
to recognize my friend Senator Allen, but on this point, and I 
had a chance to talk about it with Mr. Bond a little bit, the 
Subcommittee is going to hold hearings, hopefully as soon as 
next week, on this issue of how the technology sector responded 
on September 11, and I want to make it clear that my goal at 
this opening kind of round of hearings is to look at all of the 
ideas that are out on the table.
    In other words, I have talked about the idea of a 
technology version of the National Guard. I am not wedded to 
that kind of concept at all. Since we have begun these 
discussions, and I spoke about it on the floor, scores of 
people have contacted us with ideas that sound very creative 
and very good, and I think it is our goal at the first round of 
hearings to really get a cross-section of the ideas out on the 
table, and see if we can find common points of agreement 
between these various efforts that are going on in the private 
sector, and then look to see how we can work together to deal 
with it, and as I indicated to Mr. Bond, this is going to have 
to be something that ultimately the executive branch and the 
President of the United States would have to lead, and that is 
why we are looking forward to working closely with you too, and 
Tom Ridge, in doing that, and our past history augers will for 
that kind of cooperative effort.
    One last area. I want to talk about on this first round, if 
I could, with you, Dr. Marburger, is the question of coming up 
with some principles to try to guide scientific decisions, and 
I am not talking here, again, about passing some kind of law, 
or creating a Government program, but given the importance of 
scientific policymaking, ensuring that is done on the basis of 
merit, and not from corporate boardrooms, and people with 
agendas that are more junk than science.
    I wanted to ask you about a handful of principles that have 
really struck me as central to coming up with sound science, 
and get your reaction to those, and you may have other ones, 
and you may think this is completely off-base altogether.
    The first that I mentioned is that sensible science should 
be consistent with the majority of findings as published in 
peer-reviewed literature. Is that something that by and large 
you would agree with?
    Dr. Marburger. Is that a 51-percent majority?
    Senator Wyden. No quibble here. I think we are looking for 
somewhere probably a lot higher than 51 percent.
    Dr. Marburger. I think the peer review process is flexible 
enough to be a pretty good guide on these things. We do have to 
remember that sometimes ideas come out from left field, and 
they are found a little crazy. There have been some very 
important breakthroughs in medicine, for example, that were met 
with derision in the professional community when they first 
appeared, and then were subsequently found to have some merit.
    We need to be very careful about limiting arbitrarily so 
our policies do have flexibility enough for the occasional wild 
card, an off-beat idea. We cannot just toss something out 
because most people do not agree with it, so taking that into 
account and having a reasonable safeguards in this regard I 
think the peer review process is the right approach to 
evaluating the quality of proposals.
    Senator Wyden. That is a thoughtful answer, and I am asking 
these questions because I want to see how you are going to 
approach them, and suffice it to say, ``I think it would be 
just dead wrong to say that a brilliant idea cannot advance in 
America because it does not satisfy peer review analysis''.
    A second principle that--as I talked with leaders in the 
field--has been important has been scientific inclusions and 
policy should satisfy the standards of good practice published 
by scientific societies, or organizations. Would that strike 
you as a kind of second kind of principle that would make 
sense?
    Dr. Marburger. I suppose so, but there are some awfully 
sloppy scientists out there who are very brilliant, and again I 
worry a little bit. Good practice, as determined by whom, and 
by a Federal bureaucracy, or by a person's supervisor, or a 
council of peers in a similar field?
    It sounds good, but I think we should be careful again to 
recognize that science progresses in a very opportunistic way. 
Somebody will have a great idea that came out of the blue that 
was based on a spurious reasoning, perhaps, but if it 
stimulates thought and suggests a new avenue, a new place to 
look, then we should take it seriously.
    Some of the most brilliant scientists in the past have had 
some really kookie origins and motivations for what they have 
done--I mean, dreams and astrology and all sorts of things--but 
the bottom line has been that they have suggested new avenues 
of approach, and by applying the methods of science, which I 
believe you must be referring to in this case the scientific 
method, which is just testing against nature and against 
reality the hypothesis you have, it does not make any 
difference where the hypothesis comes from, but nature has to 
agree before you can say you know it is right.
    And this is a sloppy process, the basic science 
particularly is a rather sloppy process. Frankly, I think that 
the regulatory mechanisms for science that this Nation has 
developed over the years, and particularly during the post war 
years, when Federal support for science increased so much, are 
quite strong. It is no accident that America has the strongest 
scientific establishment in the world, and I believe that the 
reason for that is the freedom and the diversity and plurality 
of methods that we have accommodated in the science we support, 
so certainly we have to weed out the junk science and make sure 
that the science that we fund with taxpayer dollars is 
methodologically sound, but I do want to be careful about how 
to implement those standards.
    Senator Wyden. Again, that is a thoughtful answer, and one 
that I think fleshes out a little bit of what I am trying to 
do. This is not a law. This is not a bill. This is not a 
program. I want to see if we can work together with you to try 
to bring some light to the science questions that in many 
respects have become a kind of political football, and not 
something that really in the majority of cases addresses these 
questions of peer review and sound methodology and the like.
    A third area that we have heard continually cited is that 
the principles used to support scientific policy should be 
acceptable to a variety of scientific and engineering 
disciplines. Would that be a third area that you would say good 
in principle, with qualifications?
    Dr. Marburger. No. That one sounds so good it is hard to 
find something to criticize about that one. Certainly, there is 
a diversity of fields, and they all have different approaches, 
but in general they all have to deal with nature, and nature 
has to be the final arbiter when it comes to determining which 
hypotheses are right and which ones are wrong, and I think that 
policy input that all fields can agree on is bound to be good.
    Senator Wyden. The fourth principle advanced was that 
policy should be derived from a broad range of studies and not 
based on a single set of findings. Your reaction to that?
    Dr. Marburger. Well, that sounds good, but remember that 
camels are made by committees, and sometimes when you try to 
get a broad range of opinion you just get that, a broad range 
of opinion, you do not have a clear, incisive approach, so I 
think some balance is required here. We need to take advantage 
of the integrative capacity of the human mind, and there are 
some people that seem to write better policy than others, so we 
can have a committee with lots of input, but I would like to 
see one person write the report, and that is just a prejudice, 
and perhaps this is a question of style.
    Senator Wyden. The last question deals with essentially 
backing up a theory, can something actually be supported, and I 
think a lot of scientists see this as a question of whether 
empirical data supports the findings of predictive models. How 
would you see that?
    Dr. Marburger. Now, there are different areas of science 
that differ in their amenability to modeling and simulation. 
Some of the most important scientific work done today is 
statistical in nature. In health research, for example, tracing 
environmental effects on health, public health, it relies on 
epidemiology and the sorting out of very large numbers of 
variables, some of which may be irrelevant.
    This is a tough area, and there are lots of philosophical 
debates as well as technical debates about how to apply 
statistics, and how do you design an experiment to protect, for 
example, the rights of human subjects? In other areas, in 
particle physics, particularly in solid state physics, 
materials increasingly in molecular biology, we have tools for 
simulation that work extremely well, and that one can rely on 
modeling. We can even predict the weather for about a day ahead 
or more, but the fact is that we have to be careful about 
making a commitment to base our scientific input on modeling as 
opposed to real world studies of phenomena, and I think as long 
as we keep these differences in mind, the various fields of 
science and engineering are quite clear on this, and we have 
good guidance from the scientific community itself on what 
methodologies are appropriate in different areas, and I feel 
quite confident that if you were, for example, to ask a 
question about a specific field or a specific study, I would be 
able to get very clear advice on whether this was appropriate. 
I feel very confident about that.
    Senator Wyden. I am going to recognize Senator Allen, and 
then I will have some questions for you, and we have not even 
gotten started with you yet, Mr. Bond, but on this point, Dr. 
Marburger, I hope that, given the importance of science as it 
relates to policymaking at a time when there are not very many 
scientists in the U.S. Congress, and there are not very many 
researchers, and we are dependent on outside sources for 
scientific information to make these policy decisions, I hope 
that on your watch, when you hang them up, that one of the 
things that you will have helped to do would be to have helped 
the Congress and the administration, working together, to 
decipher the lines between sound science and junk science when 
making policy decisions.
    That is what I see to be a real priority on your watch, 
because it affects an array of issues which now, whether it is 
stem cell research, global climate change, or dominating most 
of what we talk about when we are not dealing with terrorism 
and the events of September 11. I think someone of your stature 
and someone like yourself, who has commanded so much respect in 
the scientific community, and obviously with Members of 
Congress already, can make a real difference here in terms of 
helping us set out some principles and some processes, not laws 
and programs, but principles for making sure that we are 
driving science policy on the basis of scientific merit and not 
something that comes from a corporate set of interests, or junk 
science.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. I would make a few 
remarks, and then I will let Dr. Marburger take a break and I 
will work over Mr. Bond.
    [Laughter.]
    Senator Allen. I very much enjoyed listening to your--
Senator Wyden, Mr. Chairman--your questions here. Both these 
gentlemen and their agencies that deal with science are going 
to be very important in technology for our future.
    I have said on many occasions as well that our laws, our 
permitting, our regulations ought to be based on sound science, 
not political science, and too often we do not listen to the 
actual sound science, and you and the folks that you work with 
and the agencies for which you all have responsibility will be 
very important to us in the area of biotechnology and in 
technology generally. I think it is one of the great things in 
our country.
    I always remember what de Toqueville once said about the 
United States, and I kind of paraphrase it. He said, ``In 
America the only things that have not been done are those that 
have yet to be imagined'', and I am one who very much dislikes 
limits, and we should only be limited by our imagination, our 
ingenuity, our hard work, and indeed, in the area of 
biotechnology, much, virtually anything can be done, but there 
does need to be ethical standards, and those are tough 
decisions, but I think it is very important that we do listen 
to the scientists, to the physicians, to the technologists, to 
determine what are the facts, and then they should make the 
decisions, we should make the decisions, but nevertheless it 
should be based on sound science, and I very much agree with 
your comments in that regard.
    The other matters I will get into as far as coordination of 
data networks and so forth, which I do think will be important, 
but that is another matter.
    I would like to quote back to you, Mr. Bond, your statement 
that--you did not go through your whole statement, but this 
really is very much a part of what is great, and the great 
potential of our country, in that in your written statement 
that you submitted, that you state that it is no accident that 
the United States leads the world in high technology, both 
civilian and defense. Our achievements are the dividends that 
flow from sustained public and private sector investments in 
research and development, coupled with America's 
entrepreneurial spirit and the willingness to take risks.
    Today, the private sector plays a dominant role in the 
process of developing new technologies and bringing them to 
market. The Federal Government plays a pivotal role in creating 
the climate that supports the private sector's efforts. In 
other words, the Government's role is to create the conditions 
precedent for people with good ideas and ingenuity to test 
those ideas, take the risks, make the investments, create the 
jobs that let the marketplace decide whether or not that is a 
good idea, or maybe somebody has a better idea, maybe it is 
less expensive, more efficient, less expensive, better quality, 
whatever it may be.
    And I like very much how you conclude this thought by 
saying you believe the Technology Administration can continue 
to make vital contributions to the Nation's technology base and 
our national policies that support private sector technology 
development, commercialization and competitiveness, and we 
always need to be looking at what is going to help the 
competitiveness of our country and our people and our society.
    Now, we have an issue coming up very shortly that is 
expiring, which has to do with taxes and tax policy and 
regulatory policy have an impact on our economy, and 
particularly in technology. One of the best advances in my view 
has been the Internet, which is a tremendous way of 
disseminating new ideas. It is good for commerce, it is good 
for education, and sharing of information.
    Now, there is going to be, if the House and Senate do not 
act, this tax that--the moratorium on Internet access taxes. A 
tax for getting access to the Internet will expire. Now, what 
impact do you think will that have--if that moratorium expired 
and was allowed to lapse, what impact do you think that would 
have on our economy?
    Mr. Bond. I think the important points I would make in 
regards to the tax moratorium are first that our economy is in 
a very shaky situation right now. We do not want to do any 
harm, first and foremost, and we want to address that matter 
before the moratorium finishes.
    As you know, the administration has supported a 5-year 
extension of the moratorium, and a ban on access taxes, because 
we want more people to have access to the Internet rather than 
fewer, and indeed we do not even fully comprehend, yet, the 
power, I think, of the Internet and its ability to change 
society and create opportunity, and so I think the central 
issue there is going to be to get that done before the deadline 
comes to avoid any harm to the economy, and I know Secretary 
Evans has been clear with even those like myself who has been 
in a consultant role, to be sure to say that he wants all these 
issues tackled on the Hill in a bipartisan and positive 
fashion.
    Senator Allen. What role would you see yourselves playing 
in the next few days and weeks?
    Mr. Bond. Well, I think that both internally, within the 
administration, and then up here on the Hill, trying to 
advocate on behalf of economic growth and the commercial 
interests, which is the role of Commerce, of course, in this 
particular case, and to really try to beat that deadline again 
in a positive and bipartisan way.
    Senator Allen. Well, Senator Boxer, who is a Member of this 
Committee, Senator Boxer and I do not always agree on every 
issue. Nevertheless, we met last week and are trying to work in 
a bipartisan way.
    While I prefer a permanent ban on access taxes, or 
discriminatory taxes, one has to be realistic here, and so we 
have joined up together to try to get that 5-year moratorium on 
it, and we will need all of your help to get that through on 
the Senate side, because clearly, adding tax burdens hardly is 
going to be helpful to the technology sector, which is 
undoubtedly--it was in bad shape before September 11, and there 
is nothing that has happened since September 11 to indicate any 
up-tick in that regard. Obviously, other sectors have been hit 
as well.
    Let me ask you this. As far as--and this is to you, Dr. 
Marburger, and you can answer this as well, as well as Mr. 
Bond. Now, these terrorist attacks on September 11 took over 
6,000 lives. They also took a significant amount of wealth. 
They damaged the short-term productivity of certain key sectors 
of our economy, and there is clearly a need to restore the 
economy and some of that is better security, improved security.
    There have been changes in some of the dynamics, or the 
paradigms, even for airline pilots as to what do you do if 
someone is trying to commandeer your aircraft, but there is a 
need to improve our economy. Some call it a stimulus, and as 
far as security, a new view as to what we need to do.
    Now, what technologies, in either of you all's view--what 
technologies, whether they are existing or emerging 
technologies--do you see as potentially playing a key role in 
this recovery process, whether it is in security or the 
commercial economy generally? Again, this could be governmental 
services, it could be the private sector, and also State, 
local, and Federal Governments, not just the Federal 
Government. What technologies do you see as emerging in helping 
us restore our economy as well as enhance our security?
    Mr. Bond. Let me address a few of those I have come to 
learn about which I believe exist at NIST, in particular, some 
world-leading research on biometrics which, of course, would 
enhance security, whether it be of the cockpit or passenger 
access to airlines.
    There is also radiological detection that they are world 
leaders in, the next generation of x-rays to see concealed 
weapons at a distance, so there are a number of security-
related research and scientific matters going on at NIST which, 
of course, build consumer confidence to bring people back into 
the economy in a full way, and I think what we are facing right 
now, in terms of the economy, is a crisis of confidence in many 
of these sectors, so anything that increases security and 
thereby confidence brings people back into the economy.
    Senator Allen. Dr. Marburger.
    Dr. Marburger. I agree with that. There have been enormous 
advances in detection capabilities of one sort or another, both 
remote detection of chemical compounds, and I think we are 
going to need much more sophisticated technologies for rapid 
assessment of unknown substances for first responders, for 
example. You simply cannot underestimate the power of computing 
and the Internet in recovery. I mean, it is old technologies, 
or existing technologies are going to be just more important 
than new technologies almost. We have to assess how to use them 
appropriately.
    There is just a wealth of ideas coming from every sector of 
science. I am aware of efforts that the National Academies have 
made in recent weeks to mobilize the scientific talent of the 
Nation to come up with ideas in practically every field, so it 
would take many hours to go through a list of representative 
technologies, but biotechnology and sensors, detection, much 
work done in our artificial intelligence, pattern recognition, 
this sort of thing. Much of it is related to security.
    Senator Allen. I would add to what our Chairman, Senator 
Wyden mentioned when he was meeting with certain folks back 
home, in his home in Oregon, the coordination of the data 
networks, the bioinformatics, talking with Secretary Thompson 
last week, one of the keys is actually all of those data 
networks, and we are still analyzing the anthrax attacks, or 
the anthrax incidents in Florida.
    Now, the key to all of that is really not the Federal 
Government. Originally it is going to come from the local 
health departments, the local emergency rooms, and it is 
absolutely critical in making sure--and I hate to use the word 
critical unless it really is critical, but in that the sooner 
one can determine if somebody has that malady, whether it is 
anthrax, smallpox, whatever it might be, that there is a better 
chance they have to live.
    And the conglomeration, or the coordination of that 
information, say there are a few people who have certain 
symptoms in one locality, say the hospital in one locality 
finds two people with those symptoms, then over the mountain in 
another valley, they have six or eight and so forth, none of 
these hospitals necessarily are talking with one another. They 
are just handling whatever can come in.
    But if that information gets to the State, gets to the CDC, 
at least you see a pattern, that there may be some likelihood 
of something going on, as opposed to an isolated incident, and 
that is where I think technology--and I do want to work with 
Senator Wyden on this to make sure that the bioinformatics are 
there so that we do have the prompt responses.
    We are also going to have a hearing on Thursday here again 
on emergency coordination, and the Chairman mentioned GPS for 
firefighters. We are going to have a hearing for fire services 
and firefighters, and much of it, while just listening to an 
officer who was trapped in the rubble up in New York City with 
the World Trade Centers, and I think his name was Fuentas, and 
they are trying to talk to him on whatever, whether it is a 
walkie-talkie, or whether it was a cell phone, regardless, they 
were having a hard time, in all of the dust and the darkness, 
and he could not say where he was.
    If he had that GPS on him, then they could know where he 
is, and he could be in the midst of dust and smoke and fire and 
so forth, that someone has just passed out, and they are not 
going to be able to talk to one another, or that walkie-talkie 
or two-way radio or cell phone could be broken, but with that 
GPS they could find out, and fortunately they were able to find 
him, but nevertheless we need to learn from this disaster, or 
this terrorist attack, so that we can respond, and I think 
people responded remarkably well under the circumstances, but 
nevertheless, people want to respond even better in the future.
    So you all will be very important, and your agencies, to 
give us guidance, good ideas, whether it is for our first 
responders, the medics, the emergency squads, the firefighters, 
law enforcement or others, and again, these are going to be 
pressing issues as well, and I am glad to hear the Chairman say 
we are going to look at where technology can improve aviation 
safety. I have seen some of the research that was done at 
Langley Research Center, and what can be done as far as flight 
patterns, and virtual domes that can be put over certain 
buildings where a plane simply cannot fly into them.
    Now, I am just going to finish with a broad question for 
you, because I do have a meeting in 2 minutes, or Mr. Bond, and 
I just think it is important for all of us to know where do you 
see your key role going to be? What is going to be your top one 
or two priorities as Under Secretary of Commerce for 
Technology, to ensure that our Nation's technology sector is 
healthy?
    My view that there is no more important economic sector in 
our economy than the technology sector. Yes, it is important 
for good jobs, good-paying jobs, it is important in 
manufacturing, so we have the most up-to-date, cleanest, most 
efficient, best quality methods of production, it is important 
for our health care, the life sciences, the medical sciences, 
it is important for communications, finance, education, it is 
vitally linked to technology and, indeed, our national defense 
is key to having us have a technological advantage, and we must 
as a Nation have that competitive attitude that we always have 
to be at the cutting edge, in the lead, because it is vital for 
our security, it is vital for our prosperity and for our 
quality of life.
    So with those comments, where will be, in your view, your 
top two areas of concern to make sure our technology sector is 
leading, and continues to lead in the future?
    Mr. Bond. Well, let me, if I can, expand on that and give 
you four that I am going to try to focus on in the first year, 
if the Senate deems me worthy of confirmation.
    First and foremost would really be a portal for the U.S. 
technology industry to the Federal Government. That is the role 
of Commerce, the charter of Commerce, to advocate on behalf of 
commercial interest employers in the country, so I want to try 
and create in the minds of technology leaders the notion that 
this is their portal to the Federal Government, where they can 
find people to guide them through the sometimes labyrinth of 
different agencies and so forth, to try to advocate on their 
behalf.
    Second would be through the Office of Technology Policy to 
make sure that we are at the table and advocating on behalf of 
growth for this sector, which as you note, and as Dr. Marburger 
said eloquently in his statement, really touches every single 
facet of our life, from national security to personal security, 
so that would be No. 2.
    Third would be to reinforce the relationship with NIST, 
again the crown jewel of the Federal research capabilities, to 
make sure that within the policy councils of this 
administration they appreciate and understand the good work 
going on at NIST, and then finally would be to try to make that 
one little part of Commerce, the NTA, a bureau that does not 
just talk the talk, but walks the walk, and begins to deploy 
some of these technologies.
    I have worked for Hewlett-Packard, as you noted earlier, 
and so I have seen what a major company can do via the 
Internet, and the efficiencies and capabilities that can be 
realized, and I want to try to bring some of that to the 
Technology Administration.
    Senator Allen. Let me follow up on that, on your last 
point. One thing that you find sometime, we talk about the 
digital divide in the private sector. I have found, not having 
been in Government for a few years until getting elected last 
year, that there is a digital divide between the private sector 
and the Federal Government, in the utilization and adaptation 
of new technologies. Would you foresee yourself also having a 
role of making sure that the Federal Government and its 
agencies will adopt the latest technologies, whether for their 
own internal communications--you see it in the State 
Department.
    I am on Foreign Relations, on that Committee, and it is 
amazing to me to read these reports that they could not even e-
mail within the same embassy, much less some outpost into 
Washington to the State Department, and I am glad Secretary 
Powell is there. He was on the AOL board, and recognizes there 
are better ways to communicate, and that is not just for 
communications of our policy, but for the security, to know 
instantly what is going on and what is our policy, and what is 
to be said.
    So I would hope that you also use it as a way for just 
internally--it would almost be like a CIO, so to speak, chief 
information officer, to make sure that you use these policies 
wherever possible and practical to save the taxpayer's money 
and provide better service to the public, contract out some of 
these services, because you could spend money, you can waste 
money more quickly on technology than about anything else, and 
it is important to get the most up to date, and if you can 
outsource some of that, sometimes that would be the best way 
for the taxpayers and the services, so would you make a 
commitment to also, in the midst of that deploying 
technologies, try to educate all Federal Government agencies.
    Mr. Bond. In fact, there is some good work going on in that 
regard already. Secretary Evans has asked the Technology 
Administration to come up with some ideas that he can take to 
Cabinet meetings to talk about other ways to use technology 
better. There is a closer relationship with Labor in their 21st 
Century workforce office, for example, Assistant Secretary 
Millman is the Secretary's designate to the internal e-
Government work that Mark Foreman is doing over at OMB, and 
Assistant Secretary Millman also recently signed a fellow Intel 
vice president on with a fellow with the Technology 
Administration.
    In that case, he was putting together a web site for New 
York Area's small- and medium-sized businesses to go to one 
place on the web and find local businesses who could help them 
get reestablished in their business with hardware and software 
needs, but we are also talking to some folks about bringing in 
some other private sector expertise under the CRADA at NIST 
that allows this fellowship so we can get the benefit of some 
of the best thinking in the private sector on exactly this kind 
of matter.
    Senator Allen. I look forward to working with you. I love 
your term, portal of the tech community. We all agree this is 
not a partisan issue. I have been made chairman of the High 
Tech Task Force for the Republicans in the Senate, and that is 
exactly the term we said. We want our task force to be a portal 
to the Senate, so you have the right attitude.
    This is not a partisan issue. This is very important for 
all America. Whenever you get your e-mail address after the 
confirmation, we will certainly want to get it there so you can 
get all those good ideas. I do not know who will sort through 
all of those e-mails, but you will get them.
    So thank you both, Dr. Marburger and Mr. Bond. I thank you 
for your insight and your testimony, and I know I speak for 
everyone on this Committee, we look forward to working with you 
to improve the lives of all Americans and also the world, so 
thank you so much.
    Mr. Chairman, thank you.
    Senator Wyden. Before my colleague leaves, let me just say 
how much I appreciate the comments you have made. These clearly 
are areas where if you do not have a bipartisan front in terms 
of science and technology policy, it is not going to get done, 
so I am really pleased you are taking such an active role. We 
are going to have a field hearing at Langley to look at those 
aviation technology issues you are talking about, and I very 
much look forward to working with you, and I have got some more 
questions for our two nominees, but I know you have got to run, 
and I just appreciate you spending all this time.
    Senator Allen. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    Senator Wyden. Dr. Marburger, I want to talk now about your 
role in the White House, and what your role is going to be 
specifically as a Science Advisor. It is our understanding that 
previous Science Advisors were designated as Assistant to the 
President with the privileges and duties that applies, 
including sitting in on Cabinet meetings, and having direct 
access to the President of the United States.
    On the other hand, there have been a number of press 
reports indicating that you are going to be designated 
something called a Special Assistant. Now, I do not know if any 
of this is accurate, and I think it would be helpful for you to 
set out, on the basis of the conversations you have had with 
the President of the United States, how you see your role as 
Science Advisor for our country.
    Dr. Marburger. Well, I plan to be a Science Advisor to the 
President. Certainly, the role of the Science Advisor has been 
shaped over decades by a number of distinguished predecessors, 
and there has been nothing in my encounters with the President 
or with other Members of the White House staff that would 
suggest that my role would be any different. The question of 
titles is not of great interest to me, as long as I have what I 
regard as appropriate access, and I have been assured that I 
would have appropriate access.
    I must say that I have been delighted with the encounters I 
have had with White House staff. They have been eager to talk 
with me. They have sought me out and asked me questions. They 
have welcomed me, and I feel good vibes with this organization, 
so I have agreed to accept this position without reservations, 
and I expect that when I have something important to say the 
President will hear it either directly from me or through the 
people that I am talking with.
    Senator Wyden. Well, that is encouraging, and you are 
absolutely right, titles, we can all have titles, but direct 
access to the President is important, and I gather you have now 
been given the assurance that you will have direct access to 
the President on issues that are important as it relates to 
science.
    Dr. Marburger. I have been given the assurance that my 
advice will reach the President, and in an appropriate fashion, 
and I think that can be accomplished in a variety of ways, 
including direct access.
    Senator Wyden. Thus far, what areas has your counsel been 
sought in? I mean, obviously there were a lot of big science 
issues that generated a great deal of public discussion long 
before September 11.
    I will tell you I think it is almost unprecedented for a 
scientific issue in the dead of summer to generate the 
attention that the stem cell research debate generated. I think 
it is literally unprecedented in sort of the dog days of 
August, when most Americans are at the beach, that we are 
having debates at virtually every kitchen table in the country 
with respect to stem cell research and the implications for 
health and science and entrepreneurship and the like.
    Were you consulted on the stem cell issue, and if so, 
without violating any confidences, what was your general 
counsel?
    Dr. Marburger. You can probably understand my reluctance to 
talk about my conversations with the President on an issue like 
that, and I would prefer not to, but it might reassure you to 
know that I did have an opportunity to speak with him on that 
topic.
    Senator Wyden. Well, that is fine. What other topics has 
the President talked about with you thus far?
    Dr. Marburger. You should be aware that up until literally 
a few days ago, the week before last, I had a full plate of 
responsibilities as Director of Brookhaven National Laboratory, 
a very dynamic and fully engaged facility, and the months since 
the President announced his intention to nominate me for this 
position have been occupied primarily with my role at 
Brookhaven National Laboratory, so I did not become a 
consultant.
    I have received some criticism from leadership in the 
scientific community for that, but I think it was an 
appropriate way for me to wind up my affairs at Brookhaven, so 
I was not engaged with the White House community until quite 
recently. All I can say is that on every occasion when I did 
visit Washington, I had good access to the people that I wanted 
to see. They treated me with respect. They asked me questions 
about a wide range of issues, and I was able to express myself 
freely about them. Beyond that, I do not think it is useful for 
me to go into detail.
    Senator Wyden. Well, that is something that I was trying to 
be sensitive to as well, and I want to ask you your views on a 
handful of other important scientific issues, again not to try 
to get you to commit to sort of one bill or one program or 
another, but to try to assess a little bit how you are 
approaching some of these issues, and that is why I asked the 
previous question in a general sort of way, and understand the 
sensitivity of the matters, and the fact that you are going to 
be in the room, and be in a position to make sure that you can 
get your views on science issues, which we respect very much, 
heard, is one that I am interested in.
    Frankly, if we did not have respect for your background and 
your expertise, we would not make such a push and such a point 
of stressing it.
    On the stem cell issue, let me ask you a question that has 
troubled me. I have been concerned at the number of private 
companies and the number of private donors that were in effect 
already committed to funding stem cell research who are walking 
away, and are walking away as a result of the administration's 
policy in this area.
    There were several, for example, op ed pieces in the Wall 
Street Journal after the President's decision, with large 
donors saying we do not think we are going to be in a position 
in this climate to ensure that the important research that 
needs to go forward is going to be possible.
    Set aside the question of whether there is X number of stem 
cell lines available or not, and tell me whether you are 
troubled by the fact that a number of private companies have 
abandoned their plans in this country and are moving overseas 
to pursue stem cell research as a result of the 
administration's decision.
    Dr. Marburger. Well, I think the administration's decision 
opened the door to research in this area. There is still quite 
a lot of work to be done, preliminary work, and I believe the 
President's decision makes it possible to begin to understand 
the promise of embryonic stem cells for the future, and we are 
going to have to wait and see what the results of some of the 
early programs are for which proposals are being written now, 
and the National Institutes of Health is gearing up to begin to 
evaluate those proposals and fund them.
    If the promise turns out to be what many have thought it 
might, then I expect you will see some of these companies 
walking back in the door, so I believe that one needs to wait 
and see on the results. The President has got it started. I 
have heard good responses, favorable, approving responses from 
some industry people, so by no means are all of them out of the 
business, or walking away, but we are pretty early in this 
game.
    There has been a lot of publicity associated with the 
opportunities that stem cells pose for a cure of previously 
intractable diseases or conditions, but these results are 
speculative and quite far in the future. We need to just get 
going and do this research and see if the promise is there.
    Senator Wyden. Well, I hope that you will, as your answer 
suggests, monitor carefully what goes on in the private sector, 
because I know I was troubled by the fact that those private 
companies that do not have an ideological orientation to these 
kinds of things were saying that we are going to pack up, we 
are going to go overseas, and if you are saying, and your 
answer is a good one, that you are going to monitor this, and 
that you want to have a strategy to get some of these people 
back, and to do it in line with ethical standards for research, 
then I appreciate that answer, and it is a good one.
    Let me talk to you about global climate change for a 
minute, and try to see if I can understand what the 
administration's position is from a scientific standpoint. As I 
understand it, we are essentially now standing out there by 
ourselves with 180 countries or thereabouts not being in accord 
with our view, and as I understand the administration's 
position, the theory is that the administration will fund 
various kinds of experimental efforts and research kind of 
efforts, and the theory is, is that when these efforts go 
forward they are going to produce data and information which 
somehow is going to get these other 180 countries to stop what 
they think makes sense and go at it our way.
    How would you characterize where we are on the global 
climate change issue from a scientific standpoint, and where we 
stand on this issue, and how, if at all, you intend to be 
involved in it?
    Dr. Marburger. Well, first of all, you made a distinction 
which makes me feel better about answering this question, 
because I am not representing the State Department or 
international diplomacy, or national policy in this area. The 
fact is there is strong economic issues here as well as 
scientific issues.
    We do know that the climate is changing globally, and the 
National Academy has issued a report that confirms that the 
science community agrees that human activity has played a role 
in global warming, but we do not know the mechanisms very well.
    There are huge error bars on things that are very, very 
important, where we go with the carbon cycle, and it has some 
very large numbers associated with the scientific mechanisms, 
aerosols and the role of reflectivity affecting the temperature 
of the earth, so there are scientific details that are not 
understood well enough to craft a cause and effect policy that 
says if you do this, or this industry does that, then the 
following will happen to the climate over the next 50 years.
    I believe the President is basically correct in calling for 
a diverse set of science and technology activities designed to 
steer us toward a knowledge-based policy for the future, and I 
think it is entirely appropriate to do so. I have also found it 
reassuring that the President did ask for science advice, and 
in the absence of a Science Advisor he asked the National 
Academy for advice on this issue.
    The National Academy rendered that advice within a few 
weeks, and the President, it seems to me, changed his tune to 
make it clear that he aimed to have the United States take 
responsibility for its emissions. He said that, I believe it 
was July 11, and he is now working and OSTP is working with him 
to craft programs that will address future long-range climate 
policy for this country.
    Senator Wyden. When are we likely to see those programs, 
the ones that seem to be being offered as an alternative?
    Dr. Marburger. I am aware that work is being done on them. 
I cannot tell you from my own personal knowledge when they will 
come out, but I know that there is a sense of urgency to get 
them out, and I am aware that various agencies, EPA, the 
Department of Energy, relevant agencies are working on them.
    Senator Wyden. And when you are confirmed, you will be 
actively involved in those projects?
    Dr. Marburger. I certainly will. The issue of climate 
change is one that I place a high priority on.
    Senator Wyden. Because I will tell you, I am troubled by 
the fact that we are out there by ourselves, with 180 countries 
joining hands, and the United States essentially outside that, 
but I am even more troubled that I do not understand 
essentially how we are going to fund some of these important 
scientific projects and use it to build a consensus to be part 
of an effort that has us joining the rest of the world. I am 
interested in working with the administration on it.
    Senator Brownback, for example, he and I joined forces on 
carbon sequestration with respect to agriculture and timber. We 
think what we are doing in terms of carbon sequestration might, 
in a way that would be supported by agriculture and 
environmental people, and your scientists and the like, help us 
to deal with perhaps 25 percent of the global warming problem.
    That is not 100 percent, but to deal with 25 percent of the 
problem in a bipartisan kind of way ain't bad by Washington, DC 
standards, and I would very much like to have you, as these 
additional scientific initiatives go forward where you look at 
various approaches, and presumably find science that you 
consider acceptable and try to persuade other countries to do 
it, to take an active role on it, and to work with us to speed 
it up, because this message that we are going to stand out 
there by ourselves, while 180 other people can make an 
agreement, I think is very unfortunate.
    Dr. Marburger. Before we leave this issue, I would like to 
try to be clear. We are not out there by ourselves on the 
scientific issues. There is pretty good agreement worldwide in 
the scientific community about where we stand scientifically. 
Other countries may be more willing than we are to take risks 
with their economy. Again, this is not my area of expertise.
    I think we have to be very clear that our decision to 
participate in protocols and international agreements has to be 
informed from many different dimensions, science, economics, 
political, national security considerations, but science-wise, 
the science of global climate change is being pursued 
internationally, and the United States science does not differ 
substantially, or in any respect, from science in Germany, or 
Japan, or Russia, or China.
    There is a science community mechanism for straightening 
these things out.
    Senator Wyden. If we go any further with this, I am only 
likely to get you in trouble, because if there is consensus on 
science, then what seems plausible to me is what is holding it 
up is politics, and that, of course is outside your bailiwick.
    Dr. Marburger. That is your job, Senator.
    [Laughter.]
    Senator Wyden. I get the drift on that. I am going to let 
you take a breather here and turn to Mr. Bond if I could.
    Let me ask you a question to follow up on Senator Allen's 
good point about Internet taxes. We have got the moratorium 
that has expired. As you know, I sponsored the Internet tax 
freedom bill in the Senate. Congressman Cox did in the House, 
and we would like to break the gridlock.
    We have had discussions among the Members of this 
Committee, very constructive discussions among Members of this 
Committee, Senator Dorgan, Senator Hollings, Senator McCain and 
others, and what can the administration do to help us break the 
gridlock and get this resolved?
    My sense is, if the President says, ``Ron Wyden and John 
McCain put in a 2-year bill, and given this difficult economic 
situation I want to see that bill passed'', I think that is the 
one that goes through the U.S. Senate. If the President wants 
something else, I think it would be very helpful to hear from 
the Administration now. What can you tell me in terms of how 
the Administration can help break the gridlock up here on this?
    Mr. Bond. Well, I guess I can tell you first that I will 
take that message back, which may be the most important 
contribution I could make. Second is to reiterate the 
Secretary's insistence that we engage up here in a positive and 
bipartisan way, as we discussed in your office, making sure 
that we keep relations as warm as possible as we continue to 
work in the future toward simplifying State tax codes and so 
forth, another thing the administration does support.
    The administration's position is well-known to you, and I 
am certainly not about to change it today, but I will take the 
message back and look forward to working with all Senators on 
that issue.
    Senator Wyden. That would be helpful. As you know, it is my 
view that there is not a single jurisdiction in this country, 
not a single local governmental body that can show that they 
have been hurt by their inability to discriminate against the 
Internet, and that is all the current law says.
    The current law always says you cannot tax the Internet as 
if you were creating some kind of Cayman Islands with the 
Internet. That is not it at all. You can have as many taxes as 
you want on the Internet. You just have to treat the offline 
world like you treat the online world, and I would hope that 
the administration would weigh in aggressively here for one of 
the bills that is going to extend the moratorium and let us get 
on with it, because the last thing the economy needs now is to 
set up a crazy quilt of local and State taxes, which is what 
could come about if, for example, the Congress adjourns and the 
moratorium is not extended, and I think you know that, Phil, 
and just convey the urgency of it.
    Let us talk a bit about the portal idea that you see for 
small business, and like Senator Allen, I am very supportive of 
this, and I think it can make a real difference, particularly 
for small businesses, which I know you have been very 
interested in. How do you see this creating opportunities for 
small businesses in particular through the portal?
    Mr. Bond. Well, as you point out in your question, not 
every business has the resources to fly to Washington and try 
to engage, and so I think one of our primary venues of 
communication there will be the MEP program that exists through 
the NIST and is already deployed in 50 States, working with 
small- and medium-sized manufacturers to bring more technology 
to bear there, and can serve as a communication medium coming 
back to Washington as well.
    It already does, but I think that, coupled with this 
reinforced NIST relationship I talked about, is to make sure 
that that occurs for the small- and medium-sized manufacturers, 
and then I think engagement here in town with the various 
associations that represent that constituency to make sure that 
we are listening closely to their concerns and needs, trying to 
make sure that they are taking into consideration the policy 
councils.
    Senator Wyden. How do you envisage your position and your 
watch interacting with the communications side of the 
technology debate? For example, I am very interested, and a lot 
of Members of this Committee are very interested in the 
question of spectrum policy. I mean, it is clear that we have 
run out of oceanfront property. I mean, it is just that simple. 
There are too many competing uses for available spectrum.
    I would like to see marketplace forces introduced into the 
allocation of spectrum in our country. A number of our 
colleagues would as well, and I am not completely clear how 
Commerce is going to divide up how spectrum policy is made. I 
assume Ms. Victor is going to be involved in this, and you and 
Mr. Mellman and others, but perhaps you could tell us a little 
bit about how your office is going to work on the 
communications side of technology policy.
    Mr. Bond. Sure. On that specific issue, certainly NTIA and 
Nancy Victory will be the lead. We enjoy, myself personally and 
Assistant Secretary Bruce Mellman, a close professional 
relationship with Assistant Secretary Victory and her office, 
and so we will be working closely with them in policy 
development, again with her in the lead position on that 
particular question.
    The other ways in which I think we will be helpful in the 
Technology Administration include making sure that the private 
sector voices who need some of that spectrum for IT and so 
forth are heard throughout the Government, that their arguments 
are heard, that we are as helpful as possible there, that the 
Secretary is informed on those issues, and again, of course, 
Nancy Victory will be very much the leader in that particular 
vein, but I think it is going to boil down to communication and 
advocacy within the Government councils to make sure that 
people understand the need.
    And of course in the case of spectrum classic confrontation 
between some of the national security needs of the country and 
the economic growth needs of the country, which I think you and 
I agree are also integral to future national security, that is, 
we must run faster in technology and keep the technology 
growing so indeed our national security infrastructure is the 
very best.
    Senator Wyden. Well, this, and I think the Secretary knows 
that I have a great interest in this, as do a number of Members 
of the Committee. This is a perfect area to try to build some 
new incentives to create efficiencies, and they do not exist 
now. Basically, if you got something 2 decades ago just hang 
onto it, you can basically hold everybody hostage, and we are 
going to be anxious to work with you on it.
    The last point for you, and then we are going to wrap up. 
In my office, you assured me that you would transmit to the 
administration and to Mr. Ridge our interest in working to try 
to coordinate the private sector responses to what happened on 
September 11 with technology. I just want to give you a chance 
to say publicly what you said in my office on that point.
    Mr. Bond. You bet. In fact, we have contacted the White 
House as the follow-up to our meeting, and although Governor 
Ridge understandably is not going to be ready on such short 
notice for that, having other very pressing matters, we do want 
to work with you, and I personally am not surprised, and this 
is what I alluded to in your meeting, is that I have heard in 
my role as a consultant at Commerce from a partial list would 
be Intel, IBM, Accenture, HP, Sun, Dell, Verizon, Ricoh, 
Motorola, all willing to help in some way, and many who did 
lend incredible help in the wake of September 11, and so there 
is good work there to be done.
    There is an overwhelming, positive desire to be more 
helpful from the private sector. Perhaps the fellowships I 
alluded to earlier can be helpful in that regard, but we need 
to explore ways we can take advantage of the desire to help 
and, in fact, should I be so lucky as to be confirmed by the 
17th, I would love to explore the possibility of being the 
witness on the 17th if Governor Ridge cannot make it.
    Senator Wyden. Well, we do not have many people 
volunteering.
    [Laughter.]
    Senator Wyden. So to have the administration saying sign me 
up is great, and we are just finalizing plans on that, and Mr. 
Bond, you have been great, and very accessible, and I 
appreciate it.
    Let me close, and we have a couple of formalities. In fact, 
we do have to enter a statement into the record for Senator 
McCain.
    Senator Schumer wanted to convey to Dr. Marburger his 
strong support for you, and a letter from Senator Chuck Schumer 
needs to go into the record at this point as well.
    Senator Wyden. Dr. Marburger, I'm sure we will have further 
conversations in the future. I want to ask you a couple of 
things about the nanotechnology initiative, which strikes me as 
very promising, and they are going to deal with both the 
coordination question and the substance.
    I was struck again, nanotechnology, tremendously exciting, 
cross-cutting new field. We have got six agencies already that 
seem to be part of the nanotechnology initiative, and we are 
going to need you and your colleagues to some extent to bring 
people together, or the GAO will be writing reports on 
nanotechnology 2 years from now and they will say, so-and-so 
did it, and so-and-so did exactly the same thing, and why 
weren't those characters on the Science and Technology 
Subcommittee watching it. So I want to work together to improve 
coordination and the policy.
    Let me leave you with one thought. We are going to be 
working very, very closely with you. I have felt for a long 
time that there is nothing partisan about the matters that we 
are talking about and, in fact, if you cannot get bipartisan 
agreement in key areas like we are talking about today, like 
combatting terrorism, that research is not going to get done in 
our country, and we are going to suffer as a result.
    Fortunately, there has been a bit more bipartisanship since 
September 11, and with two good people like yourselves taking 
on these key positions, I think you can help us advance that 
bipartisanship in an important area, and I will tell you, 
because I have had a chance to both listen to you and to meet 
with you, that I have very high expectations for you two.
    I have expectations of you two that I would not normally 
have for people that come before this Committee, or any 
Committee in the U.S. Senate, and I think you are going to meet 
them, and so I thank you very much. If there is anything the 
two of you would like to add further, we will welcome it, or 
otherwise we will adjourn.
    Dr. Marburger, Mr. Bond, anything further?
    Dr. Marburger. No, thank you.
    Mr. Bond. No, thank you.
    Senator Wyden. The Subcommittee is adjourned.
    [Whereupon, at 4:40 p.m., the Committee adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Mr. Chairman, thank you for calling this hearing today for these 
two Presidential nominees. You know, as well I, there are many 
challenges that are before the Committee at this time.
    Nevertheless, as we look to resolve the many problems resulting 
from the terrorists attack of September 11, we must look to the Federal 
agencies for additional insight and advice. We also depend upon them to 
implement the statutes created by the Congress. As we have learned over 
the past weeks, it is difficult, if not impossible, for the agencies to 
operate without the proper personnel in place. I hope and trust that 
these two nominees will bring the necessary leadership and management 
skills and abilities to their respective positions that would ensure 
the efficient and effective operation of the government.
    Given the emphasis on science and technology to address national 
security, as well as economic security, the positions that these two 
gentlemen will occupy will play pivotal roles as the country continues 
the recovery process.
    Today, we have Dr. John Marburger who will advise the President on 
an extensive and complex list of science and technology issues. We 
still marvel at the wonders of technology and the role it has played 
over the years in the improvement in the quality of life for all 
people. Without a doubt, we are living longer and our lives are much 
fuller, because of the scientific research performed by the many men 
and women that make up our research community.
    As a director of a national laboratory, I am sure that you are 
aware of the role of technology in winning of previous wars. As we 
prepare for the next war on terrorism, I am hopeful that you will apply 
the many lessons learned from previous wars in your new position as the 
Director of the Office of Science and Technology Policy and Science 
Advisor to the President, if confirmed by the Senate.
    Many have said that much of this upcoming war will be fought on the 
economic front. If so, then the position occupied by Mr. Bond will also 
be crucial. As the Under Secetary of Commerce for Technology, if 
confirmed by the Senate, Mr. Bond will serve as an advocate for 
innovation and industrial competitiveness within and outside of 
government. The nation's economy has become reliant upon a steady flow 
of technology for continuous economic growth. The U.S. is investing 
over $40 billion per year in civilian scientific research. It is 
imperative that this investment provides a real return-on-investment.
    Mr. Chairman, I would also like to congratulate Dr. Eric A. Cornell 
of the National Institute of Standards and Technology (NIST) laboratory 
in Boulder, Colorado on his recent selection for the Nobel Prize in 
Physics for his work on the Bose-Einstein condensation in dilute gases 
of alkali atoms, and for early fundamental studies of the properties of 
the condensates. This represents the second NIST scientist to receive 
the Nobel Prize in recent years and is quite an accomplishment for all 
the men and women of the laboratory. I am impressed.
    Dr. Marburger, as the Director of Office of Science and Technology 
Policy nominee and Mr. Bond, as the Under Secretary of Commerce nominee 
and responsible for NIST, I hope and trust that both of you will ensure 
that this type of world class research becomes the standard not only 
for NIST, but for all government labs.
    Again, Mr. Chairman, I thank you for calling this hearing and for 
providing your leadership in this area.

                               __________
         Prepared Statement of Hon. Patty Murray, U.S. Senator 
                         from Washington State

    Mr. Chairman, I am pleased to share my strong support for Phil Bond 
who has been nominated by the President to serve as the Undersecretary 
of Commerce for Technology. Mr. Bond is known for being straightforward 
in his dealings, and attentive to details important to building 
consensus around sometimes tricky issues. Mr. Bond also has a wealth of 
experience both in government and the private sector that should serve 
him well in the position to which he has been nominated. For these, and 
other reasons, I think Mr. Bond would make an excellent choice for 
Undersecretary of Commerce for Technology.
    I first became familiar with Mr. Bond when he served as 
Representative Jennifer Dunn's Chief of Staff. Representative Dunn 
represents the 8th congressional district in Washington. The district 
is home to many of the people and high-tech enterprises that have 
helped to establish Washington State as a leader in this important 
economic sector. Throughout his tenure, Mr. Bond was able to work in a 
bipartisan fashion to help build consensus on important policy issues 
facing Washington's technology industries.
    After leaving Congress, Mr. Bond went on to serve as Senior Vice 
President for Government and Treasurer of the Information Technology 
Industry Council. There he worked with some of the biggest names in the 
technology sector including Hewlett-Packard, Dell, Cisco Systems, AOL-
Time Warner, Intel, IBM, Apple, and many companies from Washington 
State including Amazon.com and Microsoft. Earlier this year, Phil 
joined Hewlett Packard as Director of Federal Public Policy.
    His experience in both the executive and legislative branches of 
the Federal Government; his work in the private sector; and his ability 
to work across the aisle in a constructive fashion make Phil Bond a 
first-rate pick for this job. He understands the technology industry 
and the importance it holds for our economic fiuture, and I think the 
Commerce Committee will find Mr. Bond to be a good partner in crafting 
good public policy.
    Mr. Chairman, I thank you in advance for the consideration and 
courtesy I know you will extend to Mr. Bond.

                               __________
      Response to Written Questions Submitted by Hon. Bill Nelson 
                            to Phillip Bond

    Question 1. Based on research done by the Office of Space 
Commercialization and by other sources in the space commerce industry, 
there is no question that the United States has lost market share in 
the space sectors, particularly in the launch sector.
    Answer. As I understand it, the Office of Space Commercialization's 
role is to coordinate space policy and activities within the Department 
of Commerce. In this role, the Office works with other bureaus of the 
Department such as the International Trade Administration and the 
National Oceanic and Atmospheric Administration. Some of the 
responsibilities undertaken by the Office in fulfilling these 
obligations have included advocating for the interests of industry in 
the interagency space policy process, such as the National Security 
Council's Space Policy Coordinating Committee. In addition, I 
understand that the Office is also sponsoring, along with the U.S. 
Chamber of Commerce and the Space Transportation Association, a 
workshop designed to highlight the opportunities for companies in 
emerging space commerce sectors and to bring together the investment 
and space communities.
    If confirmed, I plan to work to continue to advocate for the 
interests of industry in areas such as improving commercial access to 
Federal launch range assets and in promoting U.S. products and services 
in international markets. Clearly, U.S. companies offer state-of-the-
art capabilities in launch, remote sensing, satellite manufacturing and 
positioning technologies. I share the concern of many Senators and 
Members of Congress about U.S. market share in the space sector, and 
look forward to working with them to improve our competitive position 
in this industry.
    Question 2. Regarding NIST's potential future role as a regulatory 
agency: The Office of Technology Administration (OTA) also oversees the 
National Institutes of Standards and Technology. In the increasingly 
fast paced high-tech communities, some commercial sectors are finding 
it difficult to come to consensus about commercial technology standards 
within their now 2- or 3-year laboratory-to-market cycles. For this 
reason, some have proposed changing NIST's role from one of assisting 
industry with developing its own consensus on standards, to more of a 
regulatory role wherein NIST would actually decide which standard would 
be utilized, including enforcing those standards. How do you feel about 
such a shift? In your opinion, are there other policies that could 
assist our industries with this effort without making such a huge 
change in NIST's role? What impact do you think such a change could 
make on innovation and research efforts?
    Answer. NIST is now involved in a number of efforts to assist in 
the timely completion of needed standards within each standards body 
that is addressing needed technologies. These efforts avoid the 
drawbacks and burdens of government rulemaking, preserve the consensus 
nature of the developed standards as well as NIST's impartial role in 
the marketplace, and are timely in meeting industry's needs. For these 
reasons, as is explained in more detail below, making NIST a regulatory 
agency is neither necessary nor desirable.
    A lengthy and burdensome effort its required for a Federal agency 
to propose and finalize a new rule. Compliance efforts impose 
additional burdens on both the regulator and the regulated. The 
resources and expertise do not now exist at NIST to carry out 
compliance functions. They would have to be created, at potentially 
great cost. The cost to industry of meeting new government mandated 
standards would be profound. The effect on innovation and research 
might be unfortunate.
    In recent years, NIST has begun to participate in industry 
consortia where the objective is to rapidly develop standards for 
products with either a short product life cycle, or a short laboratory-
to-market cycle. In some instances, NIST has served as a convener, 
making use of its authority under the Federal Technology Transfer Act 
of 1986 to develop Cooperative Research and Development Agreements 
(CRADA's) to rapidly develop standards needed by U.S. industry. NIST 
also participates in standards setting activities in which it is not 
the convener, including the World Wide Web Consortium and the Computer 
Graphics Metafile Open Consortium.
    Through these consortia and others like them, industry is finding 
the means to develop standards rapidly, without profound government 
intrusion. Within the formal standards system, NIST has supported 
changes that have been accepted and that also will serve to remove old 
procedural requirements in order to allow those bodies to act more 
expeditiously.

                                 ______
                                 
      Response to Written Questions Submitted by Hon. John McCain 
                         to John Marburger III

    Question 1. Quantum computing uses entanglement and other quantum 
mechanical properties to do calculations. Quantum mechanics permits a 
small number of atoms to potentially store and process enormous amounts 
of information--far more information than could be handled by even the 
most powerful electronic supercomputers. In fact, a quantum computer 
consisting of just 300 interacting atoms could store as much 
information as could be stored by a classical electronic computer that 
uses all the particles in the universe (about 10\80\ particles). An 
example of the enormous increase in power represented by a quantum 
computer: A complex code for encrypting information that would take 
today's best supercomputer 20 billion years to decipher could be 
cracked by a modest quantum computer in 30 minutes. The implications 
for information security are obvious, and cryptography would be one of 
the most significant applications of quantum computers--quantum 
computers would probably not be used to just add numbers or do other 
simple operations.
    Given the possible merits of quantum computing, does this warrant a 
``Manhattan project'' style approach for future research in this area?
    Answer. No. It is true that the U.S. has vital interests that 
require high-performance computers with capabilities well beyond those 
that are currently available. From cryptology and precision target 
engagement systems to weather prediction and genomics, computing 
challenges exist that require computing systems beyond our current 
capabilities.
    Quantum computing offers tantalizing new capabilities to address 
these needs, but research on quantum approaches is still in its infancy 
and our understanding of the technology is grossly inadequate. Major 
long-term research questions exist as to how to practically construct 
hardware devices. Moreover, not all computational challenges lend 
themselves to quantum computing.
    Interest in quantum computing began more than 15 years ago, but 
intensified following Peter Shor's 1994 discovery of a quantum 
algorithm for factoring numbers, a computationally intensive 
application. Significant increases in funding have been reported in the 
past year at defense R&D agencies. Despite the increasing interest in 
quantum computing, however, the most prudent approach to maintaining 
our technological superiority in advanced computing at this time is to 
support a broad research and development portfolio in advanced computer 
architectures. The research portfolio should contain nearer term 
projects such as the IBM Blue-gene ``cellular'' architecture as well as 
higher risk approaches including quantum systems.
    Question 2a. What are your views on the current process used by the 
government to determine the research priorities for climate change 
research?
    Answer. The current process is a coordinated interagency and 
interdisciplinary approach that sets appropriate scientific priorities 
and addresses the complex issues of climate change research. Under the 
U.S. Global Change Research Program (USGCRP) each agency carries out 
the components of the research that it can do best. At the request of 
the President, the Secretary of Commerce, after taking input from 
USGCRP and other sources, is reviewing existing programs and developing 
recommendations for the President's Climate Change Research Initiative. 
The priorities for that initiative are currently under development. The 
Department of Energy and other agencies are working in parallel to 
develop the President's new Climate Change Technology Initiative. As 
with the other global change-related research carried out by the U.S. 
Government, implementing the resulting priorities of these initiatives 
will involve coordination among multiple agencies of the government.
    Question 2b. Do you feel that changes are necessary to strengthen 
the role of the U.S. Global Climate Change Research Program?
    Answer. We will continue to look at ways to improve and strengthen 
the USGCRP as we will with all scientific programs. As noted above, the 
U.S. Global Climate Change Research Program has a coordinated 
scientific process that sets appropriate scientific priorities and 
addresses the complex issues of climate change research. The President 
made it clear in his June 11 speech that climate change research will 
be a priority for this Administration, and I support this priority. He 
stressed three areas in his speech: development of a Climate Change 
Research Initiative, development of a new Climate Change Technology 
Initiative, and the need for greater international collaboration in 
climate modeling and other areas. These initiatives will provide a 
strong framework for climate change research.
    Question 2c. Will you ensure the timely release of the annual ``Our 
Changing Planet'' report to allow the Congress to take comprehensive 
look at the overall budget for the U.S. Global Climate Change Research 
Program?
    Answer. The fiscal year 2002 Our Changing Planet Report is 
finalized and we expect it to be printed and transmitted to Congress by 
the end of October. We will work with Congress to develop an 
appropriate way to communicate the FY2003 budget in a timely fashion.
    Question 3. What are your thoughts on the National Academy of 
Science's recommendation for a National Climate Service which would 
coordinate a global weather observing system?
    Answer. I generally agree that the Nation needs a better-defined 
and more integrated set of climate services than we have currently, but 
the optimum structure of a new service remains to be determined, as the 
NAS report points out. Indeed many elements of the needed observation, 
analytical and modeling systems already exist in the National Weather 
Service, and at universities and Federal research centers across the 
country.
    Most of our current observing systems were designed to help 
forecast daily and shortterm weather patterns (storms, temperature, 
rainfall, hurricane tracks). These systems are designed to monitor 
daily large environmental changes and current differences in pressure, 
upper air circulation patterns, and other characteristics that allow 
forecasts to be developed. Climate applications require data sets that 
can document small changes in the environment and patterns that occur 
over seasons to decades, and at regional to global scales. Applications 
of climate data include monitoring and modeling how the planet (or 
specific regions) is changing and for predicting seasonal to multi-
decadal patterns. This places a premium on accuracy and consistency 
over time. Climate observation needs special data sets and modeling 
tools not needed for weather forecasts. Understanding and monitoring 
the heating and cooling impacts of changes in greenhouse gases, 
aerosols, and solar radiation require establishment and long-term 
maintenance of well-calibrated observing systems.
    On seasonal to decadal timescales, climate information is used for 
economic, agricultural, resource management, and disaster planning. On 
decadal to centennial timescales climate information and projections 
are key input for policy and planning decisions by governments and the 
private sector. How large should emission reductions be? What new 
energy technologies should be invested in? What are the societal 
threats? What carbon sequestration strategies might be pursued?
    The different timeframes and customer bases for weather and climate 
data, and the need for new types of global observations, for 
coordination with observing programs internationally, and for long-term 
consistency in data calibration, interpretation, and management need to 
be considered in future investments.
    Question 4. I, along with Senator Lieberman, recently announced our 
intentions to consider a ``cap and trade'' program for the reduction of 
carbon dioxide in the atmosphere. One of the initial steps is to 
determine the appropriate atmospheric level of carbon dioxide along 
with the corresponding impacts. What are your thoughts on how we may 
proceed to determine the appropriate level?
    Answer. This is a question to which there is no simple answer. The 
appropriate level of atmospheric CO<INF>2</INF> is a function of our 
tolerance and capability to adapt to environmental change, as well as 
our constantly improving understanding of the interactions between 
atmospheric CO<INF>2</INF> and global and regional climate. Many 
scenarios have been developed through the IPCC and other processes; 
some of these scenarios have obviously unrealistic goals and 
assumptions, but for a broad middle range of scenarios, social and 
economic decisions are critical drivers of eirtission trajectories. The 
short answer is that this is more a social and political question than 
a scientific one, but one that must be informed by the best science and 
the best predictive capabilities we have to offer. An ongoing open and 
informed dialog between the science community and policymakers will be 
necessary to resolve this issue.
    Question 5. NASA is currently conducting a review of the 
International Space Station program. As the program currently stands, 
only a total of 20 hours per week would be available for research 
purposes. Do you feel that 20 hours per week of research time justifies 
the financial investment that the government has in the program? If 
not, what would you recommend to the President as a means of restoring 
the program?
    Answer. In some sense, even 1 hour of research per week is 
priceless if the facility is unique. While the significant cost growth 
is troubling, the International Space Station continues to represent an 
exciting opportunity for science. There is a community of thousands of 
scientists and students from government, academic, and the private 
sector interested in using the Station to answer fundamental questions 
in protein crystal growth, cell cultures, fluid physics, gravitational 
biology, and materials science. But perhaps the greatest value of the 
Station will be in its flexibility--it is not a static laboratory, but 
instead offers adaptable, long-terns, continuous access to the space 
environment with skilled human operators onsite.
    The Station is still in the process of being deployed and currently 
provides for three crewmembers to be continuously on-orbit. The figure 
of 20 hours per week average crew time available for research was met 
by the second increment crew during an extremely busy period of 
assembly. I know NASA is exploring innovative ways to provide more crew 
time for research with three permanent crewmembers. Good science is 
already being done on the Station but more can quid should be done. I 
believe it is important to focus on outputs, good research, and not 
just on key inputs like crew time. Perhaps more can be done with remote 
control from researchers on the ground and experiments that need less 
continual attention.
    Question 6. What type of changes are being experienced because of 
the increasingly multidisciplinary nature of research and technology 
development? Do these changes warrant a revision of our data reporting 
system?
    Answer. One of the most important characteristics of science today 
is the ability to relate phenomena in nearly every field to the 
structure of matter at the atomic level. This capability, enabled by 
advances in instrumentation (mostly from the physical sciences) and 
access to vast computing power, has transformed the traditional 
scientific disciplines, and blurred the distinctions among them. Thus 
physicists now work with biologists on problems of protein structure, 
and chemists work with computer scientists to understand catalytic 
reactions. This trend does have consequences for the tracking and 
funding of research and technology, and care is required to ensure 
balanced support of the mutually interdependent programs.
    The Office of Science and Technology Policy is uniquely positioned 
to identify interdisciplinary opportunities and, to facilitate the 
convergence of multiple disciplinary efforts across department or 
agency boundaries toward a common research goal. Gaps do occur that 
hinder cooperation between the interested groups. For example, 
sometimes funding mechanisms do not exist that allow different 
departments/agencies/investigators to work together. To counter this, 
funding organizations are increasingly devising grants for trans-
institutional awards. OSTP has encouraged and facilitated these types 
of endeavors and will continue to do so. Some of our most notable 
technologies have arisen out of unforeseen or even unlikely 
interactions between dissimilar disciplines and I am sure this will 
continue and grow.
    The research data generated by interdisciplinary R&D are currently 
being made available effectively through traditional professional 
publications, which are flexible enough to adapt to changing fields. To 
ensure appropriately balanced funding through multiple agencies, OSTP 
works with the Office of Management and Budget to ensure that reporting 
categories accurately reflect investments made in multidisciplinary 
programs.
    Question 7. In your written statement, you spoke about the need for 
achieving diversity throughout the ranks of the science and engineering 
workforce. Do you have any plans on how you would pursue this 
challenge?
    Answer. The National Science and Technology Council (NSTC) report, 
``Ensuring a Strong U.S. Scientific, Technical, and Engineering 
Workforce in the 21st Century,'' released in April 2000, concluded that 
ST&E workers are essential to both the private and public sectors. 
Given a tight global ST&,E workforce, changing demographics, and 
projected growth in ST&E-based jobs, it is in the national interest to 
vigorously pursue the development of domestic ST&E workers from all 
ethnic and gender groups. I plan to pay special attention to groups 
that are currently under-represented in the ST&E workforce, because it 
is with these groups that much of our nation's growing talent pool 
resides.
    If confirmed, I will work with Federal agency heads through the 
National Science and Technology Council (NSTC) to enhance coordination 
of existing ST&E workforce programs and planned workforce initiatives. 
In addition, I plan to challenge university, foundation and private 
sector leaders to create innovative scholarship, job training, 
internship and other programs to encourage all students, especially 
women and minorities, to pursue science, engineering and technical 
careers.
    Question 8. To further ensure a higher quality of education for 
U.S. students, will you reach out to the secondary education system to 
ensure that science and engineering curriculums are consistent with the 
changing needs of industry? Will you provide a special focus on 
minority serving institutions that already provide a majority of 
minority scientists and engineers?
    Answer. My years as a higher education administrator have prepared 
me to work with the leadership of the science and engineering secondary 
education system to achieve these desirable goals. With the assistance 
of the President's Council of Advisors on Science and Technology Policy 
(PCAST), I plan to work with schools of higher education and relevant 
Federal agencies through the National Science and Technology Council 
(NSTC) to review what we know about today's higher education S&E 
curriculums and what changes are needed to meet the quickly evolving 
needs of private industry. I will make a special effort to reach out to 
minority serving higher education institutions to find out how we can 
better support their ability to help produce the next generation of 
minority scientists and engineers.
    Question 9. What are your thoughts on the Advanced Technology 
Program? Is it the type of research program that satisfies the needs of 
the nation's research agenda?
    Answer. The fiscal year 2002 budget proposes suspending the 
granting of new awards in fiscal year 2002 pending a full comprehensive 
review of the ATP by the Department of Commerce. This review will 
determine if ATP grants to U.S. industry are still merited. The 
performance of the ATP has been previously evaluated through a 
combination of external review, economic impact studies, and evaluation 
of numerous quantitative outcomes and outputs. These measures will be 
used as input in determining the continued effectiveness of the ATP and 
whether Federal ATP grants are still required. I have full confidence 
that Secretary Evans and the Department of Commerce will lead a 
thorough ATP review and make a well-reasoned and appropriate 
recommendation on the Advanced Technology Program.
    Question 10. Many observers have said that this new war against 
terrorism will utilize groundbreaking American research in fields, such 
as biotechnology and cybersecurity. As National Science Adviser, how do 
you plan to mobilize industry and the R&D community to prepare for this 
effort?
    Answer. I have been impressed with the number of experts in the 
scientific and technical communities who have already contacted me to 
express their desire to support the government's war against terrorism. 
I intend to act immediately on this issue, should I be confirmed. I 
will convene workshops to bring the scientific, academic, government, 
and hi-tech communities together to examine existing antiterrorism and 
counter-terrorism programs and explore research and technology 
development that have the potential to produce critical capabilities 
for the long-term war against terrorism.
    The Presidents of the National Academies convened a meeting on 
combating terrorism on September 26 which produced a preliminary plan 
for mobilizing the scientific and higher education communities. Their 
efforts require coordinated action among the science and engineering 
funding agencies, which is a natural task for OSTP. I welcome their 
interest and support and plan to work closely with them.
    After confirmation, I will discuss the role of OSTP in coordinating 
the S&T response to terrorism with the President's National Security 
Advisor, Homeland Security Advisor and others within the Administration 
and Congress. I envision working closely with those in the scientific 
and hi-tech communities as OSTP engages in this critically important 
function.
    Question 11. American industry, laboratories, and universities have 
identified a serious shortage in American college students pursuing 
science, mathematics, and engineering degrees. There also have been 
complaints that students are graduating with degrees in these areas, 
but still lack many basic skills. In your opinion, what should the 
Federal Government do to help resolve this shortage?
    Answer. America's continued world leadership depends critically 
upon an adequately trained scientific, technical and engineering 
workforce. This sector continues to be one of the fastest growing 
within the U.S. workforce, with an increased demand for technicians and 
Ph.D. level research scientists alike. Unfortunately, our current 
educational system is not producing enough qualified workers to keep up 
with this demand, and women and minorities are significantly 
underrepresented in these positions. There is no easy fix to this 
problem, but I am committed to making progress. The President addresses 
one of the root causes of this problem in his education blueprint, No 
Child Left Behind, calling for a new Math and Science Partnership 
Initiative (MASPI). MASPI would strengthen the teaching of primary and 
secondary math and science education in our schools and enhance their 
interaction with institutions of higher learning. We need to make sure 
that K-12 teachers are qualified to teach math and science classes, 
opening new doors of opportunity rather than boring students with 
uninspired instruction or scaring them away by conveying their own 
``math anxiety''. Once we have kindled an interest in these topic 
areas, it will be up to our schools of higher education to make sure 
that interested students receive the education, training, support and 
guidance they need to pursue careers in academia government or private 
industry. I will work with the leaders of Federal, state, academic, 
foundation, and private sector institutions to ensure that schools of 
higher education are up to this challenge.
    Question 12a. For the past few years, Congress has discussed 
doubling the amount of Federal money spent on research in physics, 
chemistry, astronomy, and other non-medical fields in order to attain 
parity with biotechnology funding.
    Have you examined this issue, and what guidance would you give to 
Congress as it considers this ``doubling'' issue?
    Answer. We need to take a careful look at the entire R&D portfolio 
to better understand our investments and the interconnectivity that 
exists among them. For example, certain breakthroughs in physical 
science are responsible for some of our most important biomedical 
advances. We need to make certain that our research programs, across 
the frontiers of science, are robust and appropriately leveraged in 
both the public and private sector. We need to make sure our national 
S&T infrastructure is second to none. To do this, some programs will 
require more attention than others. If confirmed, I will work with OMB 
and the Federal agencies included in the Federal Science and Technology 
Budget to help ensure that this issue is considered as the President 
develops his budgets for submission to Congress.
    This said, I am wary of sweeping initiatives that would double 
budgets by agency without considerable analysis and a clear idea of 
what is to be gained. We should be engaged in a thoughtful and 
analytical review of all the research budgets and their expected 
outcomes.
    Question 12b. What would you do to ensure better accountability of 
these funds?
    Answer. Proper accountability depends on the nature of the research 
and on the type of research performer. Any set of realistic and 
workable R&D performance measures needs to reflect these differences. 
For example, the research outcomes of applied research are usually more 
predictable than those of basic research. Intramural and extramural 
program managers have a different set of accountability tools. 
Underpinning all accountability is the need to ensure that the research 
(at the individual project level to the program level) is of high 
quality as determined by impartial peers. For many applied programs, it 
may also be important to get quality assessments from end users of the 
research. OMB circulars, like A-21 and A-110, provide accounting rules 
and procedures to dictate stewardship of Federal funds used in 
extramural research. These circulars need to be examined periodically 
to make sure they are functioning as desired.
    Question 13a. Over the years the U.S. economy has become reliant 
upon a steady flow of technologies for continuous economic growth. The 
U.S. is investing over $40 billion per year in civilian scientific 
research.
    Do you have any ideas about how to improve the technology transfer 
process to increase the flow of technologies fom the federally 
sponsored research laboratories to the marketplace?
    Answer. Federal sponsorship of civilian scientific research takes 
many forms, from individual investigator awards to the construction of 
huge facilities shared by thousands of investigators. It funds work in 
universities, private laboratories, and Federal laboratories. The 
Federal laboratories themselves come in a wide spectrum of sizes and 
missions. The projects supported range from very basic to very applied, 
and the manner in which the knowledge gained affects the marketplace 
differs for each of these different kinds of project.
    Much of the impact of this work comes through the personnel who 
perform it as they move through their careers as students and 
professionals. ``Most technology is transferred on two legs!'' Much 
also comes through the regular professional reporting process in 
journals, conferences, and special publications. Only a small fraction 
of the impact comes from actual transfer of intellectual property 
through licenses or other agreements. This portion attracts attention 
disproportionate to its significance because it is usually associated 
with the quickest (shortest term) payoff on the research investment.
    In my opinion, all the mechanism necessary to an effective 
technology transfer process are in place, but the short term, 
intellectual property-oriented mechanisms are exploited with great 
variation among the different sponsoring agencies. I am aware that 
studies of this issue have been performed in the past, and I need to 
review them before I can come to a conclusion regarding direction on 
this issue.
    Question 13b. What areas of the innovation process would you 
consider to be in need of changes to meet this growing demand?
    Answer. A difficulty exists in the early stages of technology 
transfer from the laboratory to industry. Often in the past we have 
assumed that the results of basic research will be picked up and 
developed by the private sector. We are discovering that this does not 
occur as often or seamlessly as is optimal. There is a mismatch between 
the new general technical concepts that emerge from the laboratory and 
the product orientation that an industry needs to justify the expense 
of further development. Resolving this mismatch requires special 
attention to the earliest stage of the technology transfer process, a 
stage that is difficult to characterize and remains poorly understood.
    Question 14. In the past, many large scale science projects were 
presented to the Congress with cost estimates that did not reflect the 
total project costs. Will you ensure that total life cycle costs are 
presented when requesting Congressional approval of these projects?
    Answer. There are two issues: First, scientific discovery occurs on 
the frontier of what can be observed with existing technology. 
Consequently the technology of the projects is relatively untried, so 
normal approaches to cost estimation may not give meaningful numbers. 
Second, the process of discovery continues during the construction of 
large facilities. It is foolish to persist ins the construction of an 
expensive instrument if a new discovery suggests that it will not 
observe anything of value. Either the design should be changed or the 
project should be canceled. The first issue suggests why governments 
should sponsor such projects in the first place: they drive technology 
advancement. The second is part of the inherent risk of doing large 
scale research.
    Life cycle costs can and should be estimated for any project, but 
such estimates will be very rough in the early stages of planning and 
choosing among alternative approaches. The origins of risk and 
uncertainty should be fully disclosed to Congress along with a clear 
statement of benefits expected from the project. This is a complex 
subject with which I have direct experience, and on which I hope to 
work closely with OMB and other agencies should I be confirmed.
    Question 15. How critical is international collaboration for 
scientific research to the overall success of the U.S. investments in 
this area?
    Answer. International scientific collaboration is an essential 
component of the U.S. research enterprise. While the world is marveling 
at the pace of globalization in economic and cultural affairs, science 
has been a global endeavor virtually since its inception. The U.S. has 
a long history of international cooperation on science and technology 
that has yielded remarkable benefits. We can simply look at the Nobel 
Prizes recently awarded where our American Laureates in physics shared 
the prize with a German scientist, our American Laureates in chemistry 
shared the prize with a Japanese scientist and all three economics 
Laureates were American.
    So-called ``umbrella agreements'' on science and technology 
currently exist with thirty-six countries as well as the E.U., NATO and 
the OECD, with literally hundreds of more specific agreements falling 
within these protocols. Beyond the thirty-six agreements, we have 
active collaboration in science and technology with many more 
countries.
    The benefits of this collaboration .are not always easy to 
quantify. Some scientific challenges are so ambitious and important 
that it would be difficult, if not impossible, for one Nation to pursue 
them alone. One example is the Large Hadron Collider (LHC) at CERN in 
which the United States is a significant contributor. Others are the 
International Space Station, and the Human Frontier Science Program. 
Beside these large institutional projects are countless collaborations 
of American scientists with their international colleagues in which the 
benefits of free exchange of data and insight may never be measurable. 
That free exchange is an essential part of the scientific pursuit and 
necessary to maximize the investments made in science and technology by 
the United States and other countries.
    Question 16. You mentioned in your written statement that the 
``spillover'' effect means that private industry cannot and will not 
commit the level of resources to R&D that is best for society. Can you 
elaborate on the ``spillover'' effect, how it works, and its long term 
effects on Federal research spending?
    Answer. The ``spillover effect'' refers to the fact that much of 
the return on an investment in basic research goes to society in 
general, or to all the companies in an industry sector, not only, or 
even primarily, to the investing company. This creates a disincentive 
for investment by private companies in basic research that might have 
broad benefits to society. Consequently, Federal Governments have 
traditionally supported this kind of research, and this can be expected 
to continue. Since this is not a new phenomenon, I do not expect it in 
itself to have a long term effect on Federal research spending. The 
total of such Federal spending should ideally be proportional to the 
expected benefit to society of the supported research.

                                 ______
                                 
     Responses to Written Questions Submitted by Hon. Bill Nelson 
                        to John H. Marburger III

    Question 1. Regarding NASA: What is your position on continuing 
construction of the Space Station? Do you believe that other NASA 
programs should be jeopardized in order to pay for the completion of 
this worthwhile project? Would you support a general increase to NASA's 
annual budget in order to complete the Station and allow for 
substantive research to be conducted onboard? As you know, the Space 
Shuttle will likely be utilized through 2020 or possibly a decade 
beyond. Yet, NASA continues to budget for the Shuttle program as if it 
were going out-of-business within the next 5 years. As Director of 
OSTP, what do you plan to do to remedy this situation?
    Answer. I support the continued construction of the International 
Space Station in order to meet the Administration's commitment to 
achieving a permanent human presence in space, a world-class research 
facility, and to accommodate the elements from our international 
partners. I do not believe other important NASA programs need to be 
jeopardized in order to keep the program within the President's Budget 
Blueprint, however, it is vital for NASA to improve its financial 
management and to be held accountable for the project.
    I would like to hear from the existing NASA review teams now 
underway. In particular, I would like to understand how NASA's 
financial management system should be improved to anticipate and avoid 
this kind of cost growth in the future. The safe deployment of the 
Space Station to date is a credit to the engineering skill of NASA and 
its dedicated contractors, but clearly significant improvements are 
needed in its management of cost and schedule risk. I also want to get 
a better understanding of the program's science objectives and focus on 
ways to improve the productivity of research conducted in space.
    Nonetheless, it is important to make the investments necessary to 
keep the Shuttle flying safely until potential replacement vehicles are 
available in the next decade. A significant portion of Space Shuttle 
operations are already undergoing initial steps toward privatization 
and are being conducted by United Space Alliance--a joint venture of 
Boeing and Lockheed Martin. Further privatization could help move NASA 
from operations to its core mission of science, technology, and 
exploration and privatization may also reduce overhead and 
infrastructure costs in the long run. However, ensuring safety through 
the availability and continuity of a high quality workforce must remain 
a top priority.
    Question 2. Regarding an Interagency Working Group on Space: The 
Rumsfeld report recommended the creation of an inter-agency working 
group on space issues similar to--but not the same as--the previous 
Bush Administration's National Space Council. I am concerned that the 
Rumsfeld report recommended that this working group report directly to 
the National Security Council, but not also to OSTP. As you know, more 
than 50 percent of the U.S. space activities are non-governmental. 
Given this, it would seem that OSTP should be directly involved in any 
commercial and civil activities and/or recommendations that such a 
working group would present. Do you plan on increasing OSTP's role in 
such a group? Would you support revival of the National Space Council?
    Answer. OSTP is already involved in the day-to-day work of the 
Space Policy Coordinating Committee under the National Security 
Council. OSTP and NSC staff work closely together on a variety of 
matters affecting space commerce, space transportation, and 
international space cooperation. If confirmed, I am confident that I 
will have a close and cooperative relationship with the NSC and do not 
see the need for a separate mechanism such as the National Space 
Council.
    Question 3. Regarding Global Warming & the Kyoto Protocol: As the 
President's Science Advisor, you will be involved in assisting the 
White House with scientific and technical hot-button issues, such as 
global warming. What is your scientific opinion about the causes and 
legitimacy of global warming research? How will you advise the 
President and the White House about efforts to confirm the Kyoto 
Protocol?
    Answer. The President asked a similar question of the National 
Academy of Science prior to his statement of July 11 on national 
climate change policy. I agree with the NAS response that confirmed the 
validity of research indicating that human activity has contributed to 
global warming. Unfortunately, the relation between specific human 
activities and global warming is unclear. In particular, insufficient 
scientific data exist to permit a knowledge-based strategy to alter 
global warming trends. The effect of aerosols produced by industrial 
activity, for example, is known to be large but is not yet sufficiently 
well understood to permit reliable modeling. In general, quantitative 
contributions to global climate phenomena are known only within large, 
and sometimes compensating, errors.
    The Kyoto Protocol itself has such profound negative economic 
consequences for the United States that any decision regarding it is 
not likely to be made on purely scientific grounds. The President has 
made it clear that he thinks the Protocol is seriously flawed on 
economic grounds, and I support that decision.
    Question 4. Regarding Double Federal R&D Investments: As you know, 
there has long been a congressional push to double the Federal 
Government's investment in research and development. This and the last 
Administration responded to that effort by increasing its budget 
recommendations for the National Institutes of Health (NIH). However, 
commensurate budget increases for other Federal S&T agencies have not 
been as forthcoming. I continue to hear from health researchers in 
Florida and elsewhere that they are limited in their efforts to cure 
diseases because the basic research in chemistry, physics, and 
mathematics is not keeping pace with their own efforts in biotechnology 
and biomedicine. Do you support the effort to double the Federal R&D? 
What do you plan to do to influence the current Administration in that 
regard?
    Answer. We need to take a careful look at the entire R&D portfolio 
to better understand our investments and the interconnectivity that 
exists among them. For example, certain breakthroughs in physical 
science are responsible for some of our most important biomedical 
advances. We need to make certain that our research programs, across 
the frontiers of science, are robust and appropriately leveraged in 
both the public and private sector. We need to make sure our national 
S&T infrastructure is second to none. To do this, some programs will 
require more attention than others. If confirmed, I will work with OMB 
and the Federal agencies included in the Federal Science and Technology 
Budget to help ensure that this issue is considered as the President 
develops his budgets for submission to Congress.
    This said, I am wary of sweeping initiatives that would double 
budgets by agency without considerable analysis and a clear idea of 
what is to be gained. We should be engaged in a thoughtful and 
analytical review of all the research budgets and their expected 
outcomes.

                                 ______
                                 
    Responses to Written Questions Submitted by Hon. Fritz Hollings 
                        to John H. Marburger III

    Question 1. I have been contacted by Senator Jeff Bingaman who 
sponsored the establishment of the Science and Technology Policy 
Institute (STPI), then the Critical Technologies Institute, in the 
National Defense Authorization of FY1991. STPI is the federally funded 
research and development center that supports the Office of Science and 
Technology Policy (OSTP). Implementing legislation designates the 
National Science Foundation, not OSTP, as the primary sponsor of STPI. 
Senator Bingaman is sponsoring legislation to designate OSTP as the 
STPI's primary sponsor. Does the current arrangement cause any problems 
for OSTP? Would you support such legislation? Please explain.
    Answer. I am not aware of any feature of the current arrangement 
that would prevent OSTP from effectively utilizing STPI. Since I do not 
have experience yet with this arrangement, it is premature for me to 
judge whether legislation is required to improve it.

                                 ______
                                 
     Responses to Written Questions Submitted by Hon. John McCain 
                           to Phillip J. Bond

    Question 1. Earlier this year, the physical condition of many of 
the National Institute of Standards and Technology (NIST) labs was 
brought to my attention. Congressman Udall and I expressed these 
concerns to the Secretary of Commerce in April of this year. In the 
Secretary's response to that letter, he indicated that he would have 
NIST update their facilities' needs and timeline. Can you update us on 
the status of that revision and your plans to ensure that the 
conditions of the labs are properly addressed?
    Answer. Great strides have been made recently in upgrading the NIST 
Gaithersburg facilities. An Advanced Chemical Sciences Laboratory 
(ACSL) was completed in 1999 and the Advanced Measurements Laboratory 
(AML) is currently under construction and will be completed in 2003. 
With the AML underway, NIST's highest priority facilities need is the 
renovation of its Boulder site.
    NIST facilities are a concern for Secretary Evans. The Department 
and OMB are reviewing these needs along with other Department 
priorities, and NIST's updated facilities plan will be available with 
the President's budget request.
    Question 2. The President promised a Department of Commerce review 
of the Advanced Technology Program in his budget request for fiscal 
year 2002. Can you update the Committee on the review and ensure that 
we receive a copy of the results?
    Answer. The Secretary is in the final stages of his initial review 
of the Advanced Technology Program. Upon completion, the Secretary will 
forward a copy of his proposed legislative reforms to the Chairmen and 
Ranking Members of the Senate Commerce Committee and the House Science 
Committee.
    Question 3. Over the years we have heard about the merits of the 
Baldrige program and the criteria used to select the winner of the 
annual awards given by the President. Do you have any plans to 
implement the Baldrige criteria within the Technology Administration?
    Answer. The Baldrige criteria for performance excellence provide a 
useful way for businesses and organizations to evaluate their strengths 
and weaknesses and develop improvement plans. If confirmed, I am 
committed to leading and managing the Technology Administration as 
effectively as possible, building on TA's strengths and finding ways to 
deliver better service and value to the American people. I will closely 
consider the best ways to strengthen TA, including examining how the 
Baldrige criteria might best be used to improve TA.
    Question 4. Several members on the Commerce Committee have 
expressed an interest the Experimental Program to Stimulate Competitive 
Technology (EPSCOT). Can you elaborate on your plans for this program 
and how it fits within your overall plans for the Technology 
Administration?
    Answer. The Department appreciates support for the EPSCOT program 
in the Technology Administration. An independent program evaluation was 
launched to review what the program has accomplished for those states 
receiving awards, and to determine what we have learned in terms of the 
structure of the program and ease of use for potential applicants. The 
Department is in the process of reviewing those findings and looks 
forward to meeting with all interested parties on this subject in the 
near future.
    Question 5. Can you update the Committee on the Department's plan 
for NTIS?
    Answer. NTIS has streamlined itself and, when the annual 
independent audit for fiscal year 2001 is completed, expects to report 
earnings of close to $2 million. This will be its third consecutive 
year of profitability. The Department deserves a degree of credit for 
NTIS' remarkable turnaround. It installed a new management team at NTIS 
that instituted a number of cost-saving measures. In addition, the 
various components of the Department absorbed a number of excellent 
NTIS employees that were excess to its needs. Accordingly, if 
confirmed, I will continue to monitor its financial situation. I know 
of no plans to ask Congress to change its status at this time.
    However, based on briefings I have been given, I do believe some 
changes to its business model may be in order. Specifically, NTIS needs 
to explore new ways to make federally funded scientific and technical 
information more readily accessible to a general public that is 
accustomed to obtaining information on the World Wide Web for free. At 
the same time, NTIS must operate on the ``substantially self-
sustaining'' basis called for in its organic legislation.
    The NTIS' Director agrees with this assessment and is committed to 
making this happen. In fact, NTIS has solicited public comment on a 
plan to give the public free online access to the current portion of 
its meticulously indexed Bibliographic Data base and to provide direct 
links from it to any documents in it that are available at the web site 
of the sponsoring agency. Those links would remain operable even if the 
agency takes the item off its own web site. NTIS will also provide 
access to its electronic document collection at a very nominal fee. So 
far, it appears the response has been very encouraging.
    Question 6. During the 105th Congress, the Congress established the 
Teacher Science and Technology Enhancement Program, which would assist 
teachers in their understanding of science and its relationship to 
commerce. Can you comment on why this program did not receive any 
funding as part of the President's budget request given the emphasis 
that the President has placed technological-based economic development?
    Answer. While the budget predates my nomination, I know the 
President is committed to ensuring the best educational opportunities 
for all children. The President recognizes the importance of education 
to future economic and technological success and is investing 
unprecedented sums in developing our knowledge base through education. 
In his education reform bill the President has proposed investing $1 
billion over 5 years in NSF-led partnerships to improve the K-12 math 
and science curricula. Additionally the Administration proposed a 
bipartisan plan to mandate accountability in our education system for 
the first time, demanding schools develop metrics for assessing 
performance so we know who is succeeding and can help those who are 
failing. And the President has asked Congress to triple college loan 
forgiveness for those who are willing to teach math and science in 
underserved areas. Improving education is a complex challenge that will 
require close cooperation between Congress, the Administration, 
educators, and the American people.
    Question 7. The Office of Space Commercialization was recently 
added to the Technology Administration. Last month, NASA has circulated 
a draft report on space commercialization that highlighted ideas, such 
as greater emphasis on corporate sponsorship, advertising, 
merchandising, space tourism, and utilization of the International 
Space Station. What ideas do you have on space commercialization, and 
how do you intend to work with NASA on this issue?
    Answer. I am aware that the Department of Commerce has reviewed 
NASA's draft report on space commercialization. If confirmed, I will 
ensure that the Department remains involved in the development of 
NASA's plans for commercialization as well as with other agencies whose 
activities concern the space industry. Through the Office of Space 
Commercialization, the Department of Commerce has played a critical 
role in the development of policy that encourages the growth of the 
commercial space sector while protecting national interests. Through 
these activities, the Department has developed a closer working 
relationship with NASA and the Federal Aviation Administration. As 
Under Secretary, I would strongly encourage those relationships to 
continue and support the Department's role in the formation of policy 
affecting the space launch industry, commercial remote sensing, 
satellite navigation, and satellite manufacturing and communications.
    The Department of Commerce should be a leader in promoting a 
positive business climate for space commerce. Two events that the 
Department will host in the coming weeks demonstrate ways the 
Department of Commerce can facilitate space commercialization. The 
first workshop aims to improve the quality of economic data about the 
space industry. Better space industry data will ultimately benefit the 
industry as a whole, by driving the public and private sectors to make 
sound decisions. The second workshop will invite industries not 
traditionally engaged in commercial space activities to participate in 
a discussion of potential future markets and the necessary conditions 
for market growth. The focus of the workshop will be on identifying 
realistic new space markets and ways to remove barriers to entry.
    NASA and other interested government agencies and departments have 
been invited to participate in both workshops. Their involvement will 
lead to more interagency coordination as space commercialization 
efforts are developed and implemented.
    Question 8. Another important program in the Technology 
Administration is the Partnership for a New Generation of Vehicles. 
What role should this office play in the President's energy strategy, 
and efforts to reduce carbon emissions in the United States?
    Answer. The industry/government partnership for light-duty-vehicle 
research and technology development, the Partnership for a New 
Generation of Vehicles (PNGV), is a major element in the transportation 
component of the President's energy strategy. Its goal is to reduce our 
dependence on foreign sources of petroleum for transportation uses in 
the USA. This partnership also seeks to create the technology basis to 
first reduce, and then remove, carbon emissions from light duty 
vehicles. Technology Administration, specifically the Office of the 
Under Secretary for Technology, is the lead office for the Federal 
Government's participation in the partnership and serves as the 
government secretariat. Participating Federal agencies include the 
Departments of Commerce, Energy, Transportation and Defense; the 
Environmental Protection Agency; the National Science Foundation; and 
NASA (20 Federal laboratories from these agencies). In addition to the 
Federal partners and the major U.S. automakers' R&D consortium, USCAR, 
more than 350 automotive suppliers, universities, and small businesses 
have participated in PNGV activities.
    Question 9a. Over the years, the U.S. economy has become reliant 
upon a steady flow of technologies for continuous economic growth. The 
U.S. is investing over $40 billion per year in civilian scientific 
research. Do you have any ideas of how the technology transfer process 
may be improved to increase the flow of technologies from the federally 
sponsored research laboratories to the marketplace? (b) What areas of 
the innovation process would you consider to be in need of changes to 
meet this growing demand?
    Answer. Technology Administration has helped draft two recent laws 
to improve the technology transfer process, i.e. PL 104-113, The 
National Technology Transfer and Advancement Act of 1995 and PL 106-
404, The Technology Transfer Act of 2000. PL 104-113 guaranteed rights 
to a private party in any invention made by a Federal lab under a 
cooperative research and development agreement (CRADA) while requiring 
only minimum rights to the Government in any invention made by the 
private party. This law also increased the amount of royalty sharing 
with Government inventors, PL 106-404 simplified the procedures for 
licensing federally owned inventions and provided for the licensing of 
background inventions under a CRADA.
    The agencies are implementing these changes with the assistance of 
Technology Administration, which chairs an interagency group on 
technology transfer. This group is also considering the need to provide 
education and training to Government laboratories on how to recognize 
and evaluate innovations and whether to seek a reduction in PTO fees 
such as are enjoyed by universities and small businesses.
    The implementation of these laws, as developed by the interagency 
group, should improve the transfer of federally funded research to the 
private sector.
    Question 10. There is Congressional interest in increasing funding 
for research and development at the various Federal agencies. What 
would you do to ensure better accountability of these funds?
    Answer. In the most recent fiscal year, the Federal Government 
invested an estimated $90 billion in R&D, representing about 14 percent 
of all discretionary spending. This large public investment recognizes 
that science and technology are vital to our nation's economy, national 
defense, standard of living and quality of life. Moreover, with the 
rate of technical progress accelerating, there are increasing numbers 
of promising avenues for our R&D investments. As a result, every 
Federal R&D dollar must be invested as effectively as possible, and the 
ultimate goals for this research need to be clear.
    The focus should be on measuring whether our R&D investments are 
effective. That means assessing the performance of research programs, 
examining how R&D is contributing to national goals, and linking 
information about performance to decisions about funding. In allocating 
our R&D investments, we should also pay attention to the 
appropriateness of the Federal role, research quality, management 
practices, the role of industry, the size of the investment, and how 
these investments are expected to achieve our goals.
    Developing a national R&D portfolio that meets the many and every 
changing needs of the Nation requires greater coordination of R&D 
planning within the Executive and legislative branches of government, 
as well as consideration of the nature of the private sector's 
investment. In this regard, the Technology Administration, working with 
the White House Office of Science and Technology, can contribute to 
developing that crosscutting view, for example, by serving as a portal 
to industry to better understand its knowledge and technology needs, 
and the nature of its R&D investments.
    Question 11. What do you see as the main issues concerning U.S. 
industry's global competitiveness?
    Answer. Our economic performance over the past decade provides 
convincing evidence that U.S. industry is highly competitive globally 
and, despite slow growth recently, is fundamentally strong. We operate 
in a dynamic and changing business and technological climate, requiring 
continual examination of the global environment, reassessment of our 
national policies, and adjustment when appropriate. In my opinion, we 
must pay close attention to four broad areas of policy:
    <bullet> Ensuring a business environment--economic, tax, legal, and 
regulatory--that fosters the commercialization and deployment of new 
technology, attracts global investment to the United States, and helps 
our companies grow and compete.
    <bullet> Developing a workforce that can adapt to rising skill 
requirements and changing technologies.
    <bullet> Encouraging sustained investment in a broad and balanced 
R&D portfolio in both the public and private sector.
    <bullet> Renewing our infrastructure, including widespread 
deployment of modern information infrastructure.
    Question 12. Given your earlier comments on workforce needs, what 
specific plans do you have to increase the diversity of the workforce, 
especially in management, in the science and technology areas, not only 
within the Technology Administration and the Federal Government, but 
also in industry?
    Answer. Across business, the research enterprise, and in 
government, workplace diversity is increasingly recognized as an 
organizational asset. We operate in a global economy, and need a 
workforce that can serve a diverse customer base. Also, our economy is 
increasingly based on knowledge and innovation, and a diverse workforce 
will produce the different perspectives, different approaches to 
problem solving, and a richer pool of ideas that will help us thrive.
    The Technology Administration has been active in examining 
workforce diversity, especially in the science, engineering, and 
information technology workforce where women and some minorities are 
under represented. That research indicates that this under 
representation has strong origins in the technical education pipeline.
    For example, women leave high school about as well prepared in math 
and science as men. And women earn more than half of all bachelor's 
degrees. Yet, women are less likely to pursue and earn degrees in 
science and engineering than men. This suggests that increasing women's 
participation in the education pipeline that leads to technical jobs 
requires efforts to get more college-bound women to choose science and 
engineering as a field of study.
    Black and Hispanic minority college freshman declare science and 
engineering as a major at a rate equal to or higher than white college 
students, and they earn bachelor's degrees in science and engineering 
at rates roughly equal to white students. This data suggests that a 
principal way to improve the participation rates of these minorities in 
science and engineering is to increase their presence in the overall 
pool of undergraduate students. Boosting math and science achievement 
is critical important to meeting this goal, and the President's 
proposed 5-year $1 billion investment through the Math and Science 
Partnership program would significantly strengthen K-12 math and 
science instruction and curriculum.
    Another challenge is ensuring that young people get good 
information about the science and technology professions during their 
middle school years, when many young people form their notions about 
careers. In an effort to provide them with information that conveys the 
importance, excitement, and satisfaction associated with careers in 
science and technology, the Technology Administration has teamed with 
the National Association of Manufacturers on a nationwide public 
service campaign and technical careers web site focused on ``GetTech.'' 
We will be exploring other ways we can encourage young people to 
prepare for careers in science and technology.

[GRAPHIC] [TIFF OMITTED] T9445.001

[GRAPHIC] [TIFF OMITTED] T9445.002

[GRAPHIC] [TIFF OMITTED] T9445.003

[GRAPHIC] [TIFF OMITTED] T9445.004

[GRAPHIC] [TIFF OMITTED] T9445.005

[GRAPHIC] [TIFF OMITTED] T9445.006

[GRAPHIC] [TIFF OMITTED] T9445.007

[GRAPHIC] [TIFF OMITTED] T9445.008


</pre></body></html>
